<html>
<title> - NASA-DEPARTMENT OF DEFENSE COOPERATION IN SPACE TRANSPORTATION</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]



                 NASA-DEPARTMENT OF DEFENSE COOPERATION
                        IN SPACE TRANSPORTATION

=======================================================================

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON SPACE AND AERONAUTICS

                          COMMITTEE ON SCIENCE
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 18, 2004

                               __________

                           Serial No. 108-49

                               __________

            Printed for the use of the Committee on Science


     Available via the World Wide Web: http://www.house.gov/science



                    U.S. GOVERNMENT PRINTING OFFICE
92-514                      WASHINGTON : 2004
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                                 ______

                          COMMITTEE ON SCIENCE

             HON. SHERWOOD L. BOEHLERT, New York, Chairman
RALPH M. HALL, Texas                 BART GORDON, Tennessee
LAMAR S. SMITH, Texas                JERRY F. COSTELLO, Illinois
CURT WELDON, Pennsylvania            EDDIE BERNICE JOHNSON, Texas
DANA ROHRABACHER, California         LYNN C. WOOLSEY, California
KEN CALVERT, California              NICK LAMPSON, Texas
NICK SMITH, Michigan                 JOHN B. LARSON, Connecticut
ROSCOE G. BARTLETT, Maryland         MARK UDALL, Colorado
VERNON J. EHLERS, Michigan           DAVID WU, Oregon
GIL GUTKNECHT, Minnesota             MICHAEL M. HONDA, California
GEORGE R. NETHERCUTT, JR.,           BRAD MILLER, North Carolina
    Washington                       LINCOLN DAVIS, Tennessee
FRANK D. LUCAS, Oklahoma             SHEILA JACKSON LEE, Texas
JUDY BIGGERT, Illinois               ZOE LOFGREN, California
WAYNE T. GILCHREST, Maryland         BRAD SHERMAN, California
W. TODD AKIN, Missouri               BRIAN BAIRD, Washington
TIMOTHY V. JOHNSON, Illinois         DENNIS MOORE, Kansas
MELISSA A. HART, Pennsylvania        ANTHONY D. WEINER, New York
J. RANDY FORBES, Virginia            JIM MATHESON, Utah
PHIL GINGREY, Georgia                DENNIS A. CARDOZA, California
ROB BISHOP, Utah                     VACANCY
MICHAEL C. BURGESS, Texas            VACANCY
JO BONNER, Alabama                   VACANCY
TOM FEENEY, Florida
RANDY NEUGEBAUER, Texas
VACANCY
                                 ------                                

                 Subcommittee on Space and Aeronautics

                 DANA ROHRABACHER, California, Chairman
RALPH M. HALL, Texas                 NICK LAMPSON, Texas
LAMAR S. SMITH, Texas                JOHN B. LARSON, Connecticut
CURT WELDON, Pennsylvania            MARK UDALL, Colorado
KEN CALVERT, California              DAVID WU, Oregon
ROSCOE G. BARTLETT, Maryland         EDDIE BERNICE JOHNSON, Texas
GEORGE R. NETHERCUTT, JR.,           SHEILA JACKSON LEE, Texas
    Washington                       BRAD SHERMAN, California
FRANK D. LUCAS, Oklahoma             DENNIS MOORE, Kansas
J. RANDY FORBES, Virginia            ANTHONY D. WEINER, New York
ROB BISHOP, Utah                     VACANCY
MICHAEL BURGESS, Texas               VACANCY
JO BONNER, Alabama                   VACANCY
TOM FEENEY, Florida                  BART GORDON, Tennessee
VACANCY
SHERWOOD L. BOEHLERT, New York
                BILL ADKINS Subcommittee Staff Director
                 ED FEDDEMAN Professional Staff Member
              RUBEN VAN MITCHELL Professional Staff Member
                  KEN MONROE Professional Staff Member
                 CHRIS SHANK Professional Staff Member
         RICHARD OBERMANN Democratic Professional Staff Member
                      TOM HAMMOND Staff Assistant


                            C O N T E N T S

                             March 18, 2004

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Dana Rohrabacher, Chairman, 
  Subcommittee on Space and Aeronautics, Committee on Science, 
  U.S. House of Representatives..................................     9
    Written Statement............................................    10

Statement by Representative Nick Lampson, Ranking Minority 
  Member, Subcommittee on Space and Aeronautics, Committee on 
  Science, U.S. House of Representatives.........................    10
    Written Statement............................................    11

                               Witnesses:

Rear Admiral (Ret.) Craig E. Steidle, Associate Administrator, 
  Office of Space Exploration Systems, National Aeronautic and 
  Space Administration, accompanied by Ms. Karen Poniatowski, 
  Assistant Associate Administrator, Launch Services
    Oral Statement...............................................    13
    Written Statement............................................    14
    Biography....................................................    17

Major General (Ret.) Robert S. Dickman, Deputy for Military 
  Space, Office of the Under Secretary of the Air Force, 
  Department of Defense
    Oral Statement...............................................    18
    Written Statement............................................    20
    Biography....................................................    23

The Honorable Ronald M. Sega, Director, Defense Research and 
  Engineering, Department of Defense
    Oral Statement...............................................    25
    Written Statement............................................    27
    Biography....................................................    29

Mr. Elon Musk, Chief Executive Officer, Space Exploration 
  Technologies
    Oral Statement...............................................    30
    Written Statement............................................    32
    Biography....................................................    34

Discussion
  NASA's Policies Toward the Use of New Launch Vehicles..........    35
  Impacts of the President's Space Exploration Initiative on 
    NASA's Space Launch Initiative...............................    39
  NASA Contribution to the National Aerospace Initiative.........    41
  Future of Space Launch Initiative Projects.....................    41
  National Security Interests in Space Exploration...............    42
  NASA and DOD Cross-Certification of Launch Vehicles............    44
  Difference Between Military and Civil Spacecraft...............    44
  Crew Exploration Vehicle.......................................    45
  Cooperation in Near-Earth Objects Detection....................    48
  Role of Industry...............................................    49
  Crew Exploration Vehicle.......................................    50
  Impediments to NASA-DOD Cooperation............................    50
  National Space Transportation Policy...........................    51
  NASA-DOD Test Facilities.......................................    52
  Cross-Certification of Launch Vehicles.........................    53
  Review of Space Treaties Affecting DOD and Commercial Use of 
    the Moon.....................................................    53

             Appendix 1: Answers to Post-Hearing Questions

Rear Admiral (Ret.) Craig E. Steidle, Associate Administrator, 
  Office of Space Exploration Systems, National Aeronautic and 
  Space Administration...........................................    56

Major General (Ret.) Robert S. Dickman, Deputy for Military 
  Space, Office of the Under Secretary of the Air Force, 
  Department of Defense..........................................    62

The Honorable Ronald M. Sega, Director, Defense Research and 
  Engineering, Department of Defense.............................    64

Mr. Elon Musk, Chief Executive Officer, Space Exploration 
  Technologies...................................................    72

             Appendix 2: Additional Material for the Record

Statement of Michael C. Gass, Vice President, Space 
  Transportation, Space Systems Company, Lockheed Martin 
  Corporation....................................................    76

Statement of Northrop Grumman....................................    79

Statement of Wilbur Trafton, VP and GM, Expendable Launch 
  Systems; President, Boeing Launch Services.....................    81

 
     NASA-DEPARTMENT OF DEFENSE COOPERATION IN SPACE TRANSPORTATION

                              ----------                              


                        THURSDAY, MARCH 18, 2004

                  House of Representatives,
             Subcommittee on Space and Aeronautics,
                                      Committee on Science,
                                                    Washington, DC.

    The Subcommittee met, pursuant to call, at 1:05 p.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Dana 
Rohrabacher [Chairman of the Subcommittee] presiding.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                            hearing charter

                 SUBCOMMITTEE ON SPACE AND AERONAUTICS

                          COMMITTEE ON SCIENCE

                     U.S. HOUSE OF REPRESENTATIVES

                 NASA-Department of Defense Cooperation

                        in Space Transportation

                        thursday, march 18, 2004
                          1:00 p.m.-3:00 p.m.
                   2318 rayburn house office building

I. Purpose

    The House Subcommittee on Space and Aeronautics will hold a hearing 
entitled NASA-DOD Cooperation in Space Transportation on Thursday, 
March 18, 2004, at 1:00 p.m. in room 2318 of the Rayburn House Office 
Building.
    The Department of Defense (DOD) and the National Aeronautics and 
Space Administration (NASA) both depend on rockets manufactured by 
private sector contractors to launch payloads into orbit--payloads such 
as reconnaissance satellites, weather satellites, or scientific 
instruments that are necessary for national security or to carry out 
research in space. This hearing will explore whether better 
coordination between NASA and DOD in developing and purchasing rockets 
could increase the reliability and lower the cost of launch vehicles. 
The hearing will also explore how DOD and NASA could encourage the 
emergence of new, entrepreneurial companies that can launch payloads 
into space.
    The hearing will explore the following questions:

        (1)  To what extent can NASA and the DOD benefit from greater 
        cooperation in the development and purchasing of launch 
        vehicles?

        (2)  What steps is NASA taking to collaborate with the DOD in 
        order to realize those benefits?

        (3)  What areas of launch vehicle development are exclusively 
        the role and responsibility of one agency or the other?

        (4)  To what extent can NASA and the DOD encourage the growth 
        of the U.S. domestic launch market, including emerging U.S. 
        launch vehicle providers who provide unique capabilities?

II. Witnesses

Rear Admiral (Ret.) Craig Steidle, NASA Associate Administrator for the 
Office of Exploration Systems, is responsible for developing NASA's new 
launch vehicles. Prior to joining NASA, RADM Steidle was Vice Commander 
of Naval Air Systems and Director of the Joint Strike Fighter Program.

Major General (Ret.) Robert Dickman, Deputy for Military Space in the 
Office of the Under Secretary of the Air Force, manages the planning, 
programming, and acquisition of Air Force space systems. Maj. Gen. 
Dickman previously commanded the launch wing at Patrick Air Force Base, 
Florida.

The Honorable Ron Sega, Director of Defense Research & Engineering, is 
the chief technical adviser to the Secretary of Defense for all 
scientific and technical matters, basic and applied research, and 
advanced technology development. A veteran of two NASA Space Shuttle 
missions, Dr. Sega also serves as a major general in the Air Force 
reserves.

Mr. Elon Musk, Chief Executive Officer of Space Exploration 
Technologies or SpaceX, is developing a new, privately-financed family 
of launch vehicles intended to reduce the cost and increase the 
reliability of access to space. Previously, Mr. Musk co-founded and was 
the largest shareholder of PayPal, a company that developed an internet 
electronic payment system that was sold for $1.5 billion in October 
2002.

III. Brief Overview

        <bullet>  The Department of Defense (DOD) and the National 
        Aeronautics and Space Administration (NASA) each contract with 
        industry to build the rockets, or launch vehicles, needed to 
        launch each agency's payloads into orbit. For example, from the 
        1950s through the 1990s, the DOD funded the development of the 
        Atlas, Delta and Titan families of rockets to lift payloads 
        such as reconnaissance satellites of varying sizes into orbit. 
        Used once and then discarded, these rockets are known as 
        expendable launch vehicles (ELVs). NASA's Apollo program 
        designed the Saturn rocket, which was also expendable, to carry 
        very heavy payloads to the Moon. In the 1970s, NASA developed 
        the Space Shuttle, the world's first and only reusable launch 
        vehicle. (While the Space Shuttle was originally intended to be 
        wholly reusable, the version ultimately built is only partially 
        reusable, as the large, orange-colored external tank is used 
        only once.) The government developed these launch vehicles 
        through contracts with various aerospace contractors, the 
        largest of which today are the Boeing Company and the Lockheed 
        Martin Corporation.

        <bullet>  The domestic launch industry has suffered 
        economically from the recent decline in demand for commercial 
        launches, making the costs of these rockets more expensive. In 
        addition to serving the government's launch needs, aerospace 
        companies also serve the commercial launch market. For example, 
        satellite telecommunication companies purchase launches from 
        commercial launch vehicle providers to carry their 
        communications satellites into orbit. However, while the 
        government's demand for launch vehicles from aerospace 
        companies has remained steady, the private sector's demand has 
        dropped precipitously in recent years (due in large part to the 
        use of fiber optics and cellular technologies). This sharp 
        downturn in the commercial launch vehicle market increases the 
        prices that commercial providers charge NASA and the DOD. For 
        the past decade or so, U.S. aerospace companies have also faced 
        increasing competition from foreign launch companies, 
        particularly Arianespace, which is partially owned by European 
        governments.

        <bullet>  The President's new space exploration initiative will 
        require NASA to use more expendable launch vehicles after 2010, 
        which may provide new opportunities for greater coordination 
        with DOD. The vision for NASA that the President announced on 
        January 14th calls for NASA to retire the Shuttle after 
        assembling the International Space Station, now targeted for 
        completion by 2010. After that, NASA must decide whether it 
        will develop a new heavy-lift expendable rocket, convert the 
        Shuttle (which is a heavy-lift vehicle) into a configuration 
        designed to carry only cargo, or use or modify existing 
        expendable launch vehicles, which are not capable of launching 
        the heaviest loads. The vision also calls for NASA to develop a 
        new Crew Exploration Vehicle (CEV) to carry humans back to the 
        Moon as early as 2015. Such a vehicle would most likely be 
        lifted into orbit on an expendable launch vehicle. Any existing 
        rocket probably would have to be modified to be rated as safe 
        for humans.

        <bullet>  NASA and the DOD have had mixed success when 
        collaborating on launching payloads into orbit and on 
        developing new technologies. Some NASA and DOD collaborations 
        have produced spectacular successes. For example, in 1947 the 
        Bell X-1 experimental vehicle (flown by Chuck Yeager) was 
        operated by the Air Force and designed by NASA's predecessor 
        agency, the National Advisory Committee for Aeronautics. On the 
        other hand, the Space Shuttle itself is an example of a 
        collaboration that did not work out as originally intended. 
        Meeting both NASA and DOD requirements made it more difficult 
        and more costly to design, build and operate the Shuttle. 
        Moreover, eventually the Shuttle proved to be too risky for DOD 
        to use. In 1986, when the entire Shuttle fleet was grounded for 
        32 months in the wake of the Challenger accident, DOD was 
        unable to launch critical national security satellites. Partly 
        as a result, DOD stopped using the Shuttle to launch its 
        national security payloads and turned solely to expendable 
        rockets.

        <bullet>  New entrants in the domestic launch industry have the 
        potential to lower costs, and increase reliability. Some 
        relatively new companies are beginning to produce new launch 
        vehicles for the commercial sector and for government. One such 
        company, SpaceX, has said that its goal is to reduce the cost 
        and increase the reliability of launching payloads into space 
        by a factor of ten. DOD awarded SpaceX a contract to launch a 
        research satellite this May on its new Falcon I rocket. NASA 
        has been unwilling to consider making an award to SpaceX, 
        saying that NASA will only launch on types of rockets that have 
        already had at least one successful launch. However, NASA has 
        recently announced its intent to award a contract to Kistler 
        Aerospace Corporation to demonstrate the company's reusable 
        launch vehicle that someday could carry cargo to the 
        International Space Station. (The contract is contingent on 
        Kistler emerging from bankruptcy.)

        <bullet>  The White House is preparing to update the 
        government's space transportation policy, which is expected to 
        specify the roles DOD and NASA should play in developing future 
        space launch systems. In 1994, the Clinton Administration 
        issued a National Space Transportation Policy to delineate the 
        roles DOD and NASA would each play in developing new space 
        launch vehicles. Under the 1994 policy, NASA was to concentrate 
        on developing and demonstrating reusable vehicle technology, 
        while the DOD would focus exclusively on expendable launch 
        vehicles. In 2002, the Bush Administration directed the 
        National Security Council to review this policy due to NASA's 
        failure to develop and demonstrate reusable vehicle technology 
        and the downturn in the commercial, expendable launch vehicle 
        market that affected the government's costs. The release of the 
        Administration's new space transportation policy has been 
        delayed due to the Space Shuttle Columbia accident, but it is 
        expected later this year. The new space transportation policy 
        is expected to reflect the Administration's space exploration 
        policy objectives.

IV. Issues

        <bullet>  What are the benefits and drawbacks of NASA and DOD 
        cooperating on developing and purchasing launch vehicles? 
        Cooperation between NASA and DOD can lead either to lower 
        costs--or to a proliferation of requirements and higher costs, 
        depending on the situation. Cooperation can also either be an 
        acknowledgement of areas where the two agencies' needs and 
        missions overlap--or an improper merging of distinct missions. 
        Congress and the agencies need to figure out how to decide when 
        cooperation is optimal and when it might be harmful.

        <bullet>  How can the government better encourage the 
        sustainable growth of the domestic launch industry? Greater 
        cooperation between NASA and the DOD in developing and 
        purchasing rockets might also benefit the industry by 
        increasing demand for those rockets used by both agencies. A 
        healthy domestic launch industry is important for both NASA and 
        the DOD. But NASA has not yet decided what kinds of launch 
        vehicles it will need for either crew or cargo after it retires 
        the Shuttle and, as mentioned above, cooperation between the 
        two agencies is not always appropriate.

        <bullet>  How can the government foster the entry of new, 
        innovative launch companies to meet the government's needs? 
        Both DOD and NASA could benefit from the entry of new companies 
        into the launch vehicle market, especially since such companies 
        promise lower costs and greater reliability. However, using 
        these companies also presents a greater level of risk to the 
        agencies because the companies' technology is unproven. The 
        agencies need to balance the need to encourage emerging 
        companies against the need to carry out agency missions with 
        limited risk.

V. Background

History of NASA and DOD Space Transportation Development Efforts
    The DOD funded the development of the Atlas, Delta, and Titan 
families of ELVs (called expendable because they can only be used once) 
based on ballistic missile technology from the 1950s-60s. In the 1960s, 
NASA developed the small Scout rocket and the heavy-lift Saturn 
rockets, both of which are no longer produced. Today, the Boeing 
Company manufactures the Delta family of expendable launch vehicles and 
is part of the Sea Launch joint venture with the Russian/Ukrainian 
Zenit rocket. Lockheed Martin manufactures the Atlas, Athena, and Titan 
launch vehicles, and Orbital Sciences Corporation manufactures the 
smaller Pegasus and Taurus launch vehicles. Both Boeing and Lockheed 
Martin build portions of NASA's Space Shuttle, and both companies own 
equal portions of the United Space Alliance (USA), which manages 
Shuttle operations and maintenance.
    During the 1980s and early 1990s, NASA and DOD worked together on 
an ultimately unsuccessful effort to develop a new reusable launch 
vehicle to replace the Shuttle, as well as new expendable launch 
vehicles. These programs failed because of a combination of technical 
failures and problems with funding. One unsuccessful effort to create a 
reusable vehicle was the X-30 or National Aerospace Plane project 
initiated by President Reagan. The project was doomed by insurmountable 
technical hurdles with hypersonic technology and was also affected by 
the end of the Cold War, which made moot some of the impetus for the 
project. At the same time, NASA and DOD initiated expendable launch 
vehicle programs. Those programs--Advanced Launch System, National 
Launch System, and Spacelifter--were not sustained by either the 
agencies or the Congress for long enough to fully develop any new 
system.
    President Clinton issued a National Space Transportation Policy in 
1994 that designated lead responsibility for improving expendable 
launch vehicles to DOD and lead responsibility for upgrading the Space 
Shuttle and technology development of new reusable launch vehicles to 
NASA.
    The 1994 policy directed NASA to conduct research designed to 
demonstrate by the year 2000 a rocket engine that could fly to orbit 
using only a single stage (rather than the multiple-stage rockets that 
are used today). In response, NASA began two experimental flight test 
programs in 1995, the X-33 (with Lockheed Martin) and X-34 (with 
Orbital Sciences). Neither program was able to successfully demonstrate 
a vehicle, and NASA terminated both programs in March 2001. NASA had 
spent approximately $1.2 billion on the X-33 and $205 million on the X-
34 by the time the programs were canceled. Lockheed Martin said that it 
had spent $356 million of its own money on the X-33.
    At the same time, the 1994 policy directed the DOD to work with 
industry to modernize or ``evolve'' the expendable launch vehicle fleet 
under the Evolved Expendable Launch Vehicle (EELV) program ``to reduce 
costs while improving reliability, operability, responsiveness, and 
safety.'' The policy also directed the U.S. Government to meet its 
future launch needs by purchasing commercial launch services.
    In 1995, DOD began funding the development of the latest generation 
of Delta and Atlas launch vehicles through the EELV program. Under that 
program, DOD has awarded contracts to Boeing valued at $1.88 billion 
($500 million for development plus $1.38 billion for 19 launches) for 
the Delta IV, and contracts to Lockheed Martin valued at $1.15 billion 
($500 million for development plus $650 million for nine launches) for 
the Atlas V. EELV contracts were awarded to both companies to ensure 
that DOD would not be forced to rely on a single supplier. Each company 
has spent about $1 billion of its own money on EELV development. DOD 
also has a variety of other programs to develop new launch vehicles and 
vehicle components.
    Some low-level cooperation between NASA and DOD on rocket 
technologies continued even under the 1994 policy, but cooperation 
began again in earnest around 2000. In the wake of failures in the X-33 
and X-34 programs, NASA proposed the Space Launch Initiative, under 
which it would cooperate with DOD on both reusable and expendable 
launch technologies.
Economic Landscape for Domestic Launch Industry and Recent Developments
    DOD hoped the EELV would be less expensive to purchase than 
previous launch vehicles. However, that assumed a thriving commercial 
launch business that would add to the demand for the new rockets. 
Instead, the demand for commercial launches has plummeted. In 1999, 76 
commercial payloads were launched, producing $2.3 billion in launch 
revenues, while in 2003 only 18 commercial payloads representing $1.2 
billion were launched. Furthermore, competition has become more intense 
even as the number of launches has declined.
    Today, both Boeing and Lockheed Martin are seeking to negotiate 
higher launch prices with DOD and NASA, and the agencies predict that 
launch costs could increase by 50 percent. DOD's efforts to keep both 
companies in the launch business were complicated recently when it 
penalized Boeing after the company was found to have used proprietary 
information from Lockheed Martin. The penalties included losing awards 
for several launches and restrictions on bidding for some future 
launches.
    The President's space exploration initiative announced on January 
14th would have a significant impact on the launch industry. While NASA 
does use expendable launch vehicles for some of its current needs, such 
as Earth science satellites, NASA uses the Space Shuttle (and Russian 
Soyuz vehicles) to launch humans into space and uses the Space Shuttle 
and Russian vehicles for related cargo needs. Under the President's 
proposal, the Shuttle would be retired around 2010. The proposal does 
not say what NASA will use to take cargo to and from the International 
Space Station after that time or what will be used to launch payloads 
to the Moon or other locations. The President proposed developing a new 
vehicle, called the Crew Exploration Vehicle (CEV), to launch humans 
after the Shuttle is retired, but NASA has not yet decided what kind of 
rocket would lift the CEV.
    As part of its FY05 budget, NASA has proposed eliminating the Space 
Launch Initiative as a discrete program. NASA is in the process of 
deciding which elements of the Space Launch Initiative to retain (in 
other programs) as relevant to the President's exploration proposal. 
For example, NASA has already decided to cancel one joint project on 
advanced rocket engines and to continue a joint project to demonstrate 
autonomous satellite rendezvous capability.
    In addition, the National Security Council is working on an inter-
agency effort, begun in 2002, to develop a new space transportation 
policy. The policy is expected to be released later this year.
Emerging Commercial Launch Providers
    Space Exploration Technologies (commonly referred to as SpaceX) is 
a privately funded company developing a family of launch vehicles 
called Falcon rockets. SpaceX has said it intends to reduce launch 
costs ultimately by a factor of ten. The Falcon I launch vehicle is a 
small rocket priced at $6 million per launch, a significant price 
savings compared to other comparably-sized rockets. The first launch of 
the Falcon I rocket, carrying a DOD research satellite, is scheduled 
for mid-2004.
    In addition to Space X, other emerging launch providers include 
Kistler Aerospace and Universal Space Lines. NASA recently announced 
that it intends to pay Kistler Aerospace about $227 million to 
demonstrate that it can carry cargo to and from the International Space 
Station. This contract is contingent on Kistler successfully emerging 
from bankruptcy.
    NASA has also requested $10 million for FY05 to buy launch services 
from emerging companies. However, NASA's current launch policy forbids 
NASA to contract for launch services unless the type of rocket being 
used has performed at least one successful flight. The policy was put 
in place in the mid-1990s after several rockets failed on their maiden 
flights. Those rockets were made by Orbital and CTA, which is no longer 
in business. The DOD does not have an analogous policy for its research 
satellites, which is why it is able to use SpaceX's new Falcon I 
rocket.

VI.  The witnesses were asked to respond to the following questions in 
                    their testimony before the Subcommittee:

    Rear Admiral (Ret.) Craig Steidle, NASA Associate Administrator for 
the Office of Exploration Systems, was asked to address:

        <bullet>  Are there any specific lessons learned from past 
        NASA-Department of Defense (DOD) joint ventures in space 
        transportation development and operations that NASA is applying 
        to future programs, such as the Crew Exploration Vehicle, 
        human-rated EELV, and heavy-lift launch vehicle?

        <bullet>  What are the benefits and risks to NASA from 
        increased collaboration with the DOD in launch vehicle 
        development and purchases to support human space flight 
        missions and develop the next generation launch technologies?

        <bullet>  What steps is NASA taking to encourage the growth of 
        the U.S. domestic launch market, including emerging commercial 
        launch service providers to support the Space Station and 
        launch research payloads? What risks, if any, is NASA willing 
        to take by relying on these emerging launch providers?

    Major General (Ret.) Bob Dickman, Office of the Air Force Under 
Secretary, was asked to address:

        <bullet>  What are the benefits and risks to the Department of 
        Defense (DOD) from increased collaboration with NASA in launch 
        vehicle development and purchases to support DOD missions?

        <bullet>  What steps is the DOD taking to ensure that it 
        leverages the potential benefits of NASA's investments to 
        improve the capabilities of U.S. launch vehicles?

        <bullet>  What steps is the DOD taking to encourage the growth 
        of the U.S. domestic launch market, including emerging 
        commercial launch service providers to support DOD missions?

    Dr. Ron Sega, Defense Research and Engineering, was asked to 
address:

        <bullet>  What is the status of the Administration's review of 
        U.S. space transportation policy?

        <bullet>  How do NASA and the Department of Defense (DOD) 
        coordinate their broad research portfolios for space launch 
        vehicles? How might the DOD's launch and propulsion research 
        and development activities contribute technologies to NASA 
        initiatives?

        <bullet>  How is the DOD using emerging commercial launch 
        vehicle providers, like SpaceX? What risks, if any, is the DOD 
        taking by relying on these emerging launch providers?

    Mr. Elon Musk, Space Exploration Technologies, was asked to 
address:

        <bullet>  What are the benefits and risks for the U.S. domestic 
        launch industry, including emerging U.S. launch vehicle 
        providers, if NASA and the Department of Defense (DOD) 
        collaborated more in the development and purchases of launch 
        vehicles?

        <bullet>  What specific recommendations would you make for how 
        NASA and the DOD can encourage the healthy growth of the U.S. 
        domestic launch market, especially for emerging commercial 
        launch providers?

        <bullet>  What unique capabilities do emerging launch vehicle 
        providers, like SpaceX, provide to NASA and the DOD?
    Chairman Rohrabacher. I hereby call this meeting of the 
Space and Aeronautics Subcommittee to order, and without 
objection, the Chair will be granted authority to recess this 
committee at any time. Hearing no objection.
    At today's hearing, we will examine how well NASA and the 
Department of Defense collaborate on the development of launch 
vehicle technology. Our focus will also include how NASA and 
the Department of Defense can do a better job in encouraging 
the emergence of entrepreneurial space launch companies. The 
President's recent announcement on space exploration begins a 
new chapter in the American space experience. Improving the 
Nation's launch capability is a critical step in achieving the 
President's goal of exploring new worlds.
    Early in his tenure, the President took the first step in 
realizing this goal by revisiting space launch policies of the 
1990s. These policies drove a wedge between NASA and the 
Department of Defense where the Department of Defense was 
limited to improving expendable launch vehicles in terms of 
design and development. The reusables were--and that technology 
was to be the responsibility of NASA. Well, and I might add 
that this Chairman supported that compromise at the time. It 
seemed like the right thing to do at the time, but 
compartmentalizing launch vehicle development, however, may 
have had unintended consequences, the unintended consequences 
of preventing improvements to the national launch capability. 
And I believe the President's renewed commitment for discovery 
and exploration will encourage a more comprehensive and 
cooperative spirit between NASA and the Department of Defense. 
As long as it does not duplicate, as long as we are talking 
about not duplicating efforts, this new approach should work to 
our country's benefit.
    NASA and the Department of Defense also must establish 
investment strategies that promote innovative ideas from the 
private sector. Purchasing launch services demonstrates a 
desire on the part of government to adopt market-based 
solutions and use market-based and private sector options. The 
DOD has a long history in giving a fair shot to emerging launch 
providers like SpaceX. Unfortunately, NASA does not share this 
track record. NASA should become, hopefully, zealous in its 
approach to supporting space entrepreneurs. This shouldn't just 
be the Department of Defense. NASA should be encouraging 
entrepreneurs in the private sector. Only then can we expect 
the type of contributions coming from our private industry that 
American industry is capable of.
    Cooperation between NASA and the Department of Defense on 
technology development is not new and has not always been easy. 
Indeed, there are plenty of examples that suggest that such an 
undertaking is difficult, at best, but there are shining 
examples of success as well. But let us face it, both agencies' 
approaches to developing space transportation requires, in 
terms of their requirements, derive from very different 
cultures and philosophies. We have both the NASA and the 
Department of Defense, two very different organizations, and 
bridging the gap between them is going to take strong 
leadership and a lot of Congressional involvement.
    As Chairman, I will vigorously support the joint NASA and 
Department of Defense space launch initiatives that promise 
significant benefits, not only to NASA, not only to the 
Department of Defense, but significant benefits to our country 
as a whole.
    [The prepared statement of Mr. Rohrabacher follows:]

            Prepared Statement of Chairman Dana Rohrabacher

    Today's hearing will examine how well NASA and the Department of 
Defense collaborate on the development of launch vehicle technology. 
Our focus will also include how NASA and DOD can do a better job in 
encouraging the emergence of entrepreneurial space launch companies. 
The President's recent announcement on space exploration begins a new 
chapter in the American space experience. Improving the Nation's launch 
capability is a critical step in achieving the President's goal of 
exploring new worlds.
    Early in his tenure, the President took the first step in realizing 
this goal by revisiting space launch policies of the 1990s. These 
policies drove a wedge between NASA and DOD, where DOD was limited to 
improving expendable launch vehicle design and development of reusable 
launch vehicle technology was the responsibility of NASA. 
Compartmentalizing launch vehicle development may well have had the 
unintended consequence of preventing improvements to the national 
launch capability. I believe the President's renewed commitment for 
discovery and exploration will encourage a more cooperative spirit 
between NASA and DOD. As long as it is not duplicative, this new 
approach should work to our benefit.
    NASA and DOD also must establish investment strategies that promote 
innovative ideas from the private sector. Purchasing launch services 
demonstrates a desire on the part of government to adopt market-based 
solutions. DOD has a long history of giving a fair shot to emerging 
launch providers like SpaceX. Unfortunately, NASA does not share this 
track record. NASA should also become zealous in its approach in 
supporting space entrepreneurs. Only then can we expect real process in 
supporting industry.
    Cooperation between NASA and DOD on technology development is not 
new and has not always been easy. Indeed, there are plenty of examples 
that suggest such an undertaking is difficult at best, but there are 
shining examples of success as well. Let's face it, both agencies' 
approach to developing space transportation requirements derive from 
very different cultures and philosophies. Bridging this gap is going to 
take strong leadership.
    As Chairman, I will vigorously support joint NASA and DOD space 
launch initiatives that promise significant benefits to them, as well 
as the Nation.

    Chairman Rohrabacher. Mr. Lampson, you may now proceed with 
your opening statement.
    Mr. Lampson. Thank you, Mr. Chairman. And it is nice to be 
able to join you in this particular chair for this committee. 
It is going to be a pleasure working with you and on many of 
the initiatives that we will be facing, and I look forward to 
the cooperation, not only that needs to exist between NASA and 
DOD, but also that needs to exist through all levels of our 
House of Representatives and our Federal Government.
    And so I, too, want to welcome the witnesses today to this 
hearing, and I look forward to your testimony.
    As I just said, the topic of the NASA-DOD cooperation on 
space transportation is certainly an important one. I hope that 
our witnesses will be able to provide some useful insights into 
when such cooperation makes sense as well as when it is, 
perhaps, inappropriate. So NASA and DOD have had a long history 
of cooperation across a range of activities, dating back to the 
early years of the space age. While there have occasionally 
been difficulties and tensions over the years, I believe that 
the Nation has benefited from NASA-DOD cooperation.
    Space transportation, however, is an area where the record 
has been mixed. The National Aerospace Plane and the National 
Launch System were two major joint NASA-DOD initiatives that 
ultimately wound up being canceled. More recently, the two 
organizations jointly funded the X-37 space test vehicle until 
DOD decided that it wasn't enough of a priority to warrant its 
continued participation. I hope that our witnesses will help us 
to understand why these previous collaborations failed and how 
we can ensure that future cooperative space transportation 
efforts will fare better.
    Finally, I think that we need to examine the potential 
impact of the President's space exploration initiative on NASA-
DOD cooperation in space transportation. While there has been 
some discussion of the role that DOD's expendable launch 
vehicle programs might play in the initiative, my attention is 
focused on a different matter. Specifically, in order to fund 
the President's space initiative, NASA is canceling the Space 
Launch Initiative, and in particular, the Next Generation 
Launch Technology Program.
    Advanced engine programs are also being terminated, and the 
funding intended for hypersonics research and development is 
being diverted to the Exploration Systems budget. Indeed, some 
of these efforts were supposed to be NASA's contribution to the 
joint NASA-DOD National Aerospace Initiative that was announced 
with much fanfare only a few years ago.
    I am very concerned that we are eating our technological 
``seed corn'' to make the exploration initiative's budget math 
work. That doesn't make sense to me. And that is not my 
definition of an ``affordable'' exploration initiative.
    So clearly, we have a lot to talk about today, and I look 
forward to hearing from the witnesses, and I yield back my 
time, Mr. Chairman.
    [The prepared statement of Mr. Lampson follows:]

           Prepared Statement of Representative Nick Lampson

    Good afternoon. I'd like to welcome our witnesses to today's 
hearing, and I look forward to your testimony.
    The topic of NASA-DOD cooperation on space transportation is an 
important one, and I hope that our witnesses will be able to provide 
some useful insights into when such cooperation makes sense as well as 
when it is inappropriate. NASA and DOD have had a long history of 
cooperation across a range of activities, dating back to the early 
years of the space age. While there have occasionally been difficulties 
and tensions over the years, I believe that the Nation has benefited 
from NASA-DOD cooperation.
    Space transportation, however, is an area where the record has been 
mixed. The National Aerospace Plane and the National Launch System were 
two major joint NASA-DOD initiatives that ultimately wound up being 
canceled. More recently, the two organizations jointly funded the X-37 
space test vehicle until DOD decided that it was not enough of a 
priority to warrant its continued participation. I hope that our 
witnesses will help us understand why these previous collaborations 
failed, and how we can ensure that future cooperative space 
transportation efforts will fare better.
    Finally, I think we need to examine the potential impact of the 
President's space exploration initiative on NASA-DOD cooperation in 
space transportation. While there has been some discussion of the role 
that DOD's expendable launch vehicle programs might play in the 
initiative, my attention is focused on a different matter. 
Specifically, in order to fund the President's space initiative, NASA 
is canceling the Space Launch Initiative-and in particular the Next 
Generation Launch Technology program.
    Advanced engine programs are being terminated, and the funding 
intended for hypersonics R&D is being diverted to the Exploration 
Systems budget. Indeed, some of these efforts were supposed to be 
NASA's contribution to the joint NASA-DOD National Aerospace Initiative 
that was announced with much fanfare only a few years ago.
    I am very concerned that we are eating our technological ``seed 
corn'' to make the exploration initiative's budget math work. That 
doesn't make sense to me. And that's not my definition of an 
``affordable'' exploration initiative.
    Well, we have a lot to talk about today, and I look forward to a 
productive hearing.

    Chairman Rohrabacher. Thank you very much. And it will be a 
pleasure working with you, as it was with your predecessor, and 
appreciate your thoughtful statement and the points that you 
have made.
    I would like to take the Chairman's prerogative at this 
moment to call the attention of the Committee and those present 
at today's hearing to a very important event that has just 
happened. On Monday, NASA announced that an asteroid would pass 
closer to Earth than any other previous asteroid that it has 
charted. So what we have got here is an asteroid that we didn't 
know anything about two weeks ago, but now, as I understand, 
passing within 26,000 miles, is that it, of the Earth. When we 
talk about cooperation between NASA and the Department of 
Defense, if there is any example where this might be of benefit 
to us, it might be in tracking and providing some sort of 
protection against this type of threat. I certainly would like 
to hear everybody's ideas on this. If we didn't know this, 
apparently, NASA has catalogued 600 asteroids so far, which is 
about--which are a half a mile in diameter or larger. And by 
2008, 90 percent of these large asteroids will be charted. But 
there are still thousands of other smaller asteroids out there. 
And I believe that we need to take this very seriously. This is 
not something that--I mean, these small asteroids could take 
out a city, and if you take a look up at the Moon--now that is 
not saying that the one that they saw could take out a city, I 
am not sure--but the fact that we just found it is reason for 
concern. And take a look at the Moon. All of those craters up 
there didn't happen because of some space debris from the world 
from our space program; it happened because there are asteroids 
and meteorites and objects out there that could threaten the 
Earth as well.
    So with that said, without objection, the opening 
statements of other Members will be put in the written record 
unless someone has something they would like to jump in with 
right now. If not, hearing no objection, your opening 
statements will be put in the record. And I also ask unanimous 
consent to insert at the appropriate place in the record the 
background memorandum prepared by the majority staff for this 
hearing. Hearing no objections, so ordered.
    And we have a distinguished panel of witnesses today, and 
we appreciate you being with us. I would ask you to, if you 
could, summarize your written statements to five minutes. And 
if you can get to the heart of the matter, we will have a 
better chance for a dialogue right after we come back from this 
vote. We will have a--we will be able to hear you. So actually, 
we--actually, we have six recorded votes, so we'll get to two 
witnesses prior to taking off. We will--the Chair will--the 
Chair is glad to hear from two witnesses and then to take off 
and then to come back immediately after the last vote. And we 
apologize. This is out of our control, just sort of like that 
asteroid coming right over there that we didn't know anything 
about. But we did know these votes were coming. That is where 
we had a--all right.
    So first, our opening witness is Major General--no, it is 
not. Our first witness is Rear Admiral, sorry, Admiral, I 
almost made you a Major General. Craig Steidle, who is 
responsible for developing NASA's launch vehicles and Crew 
Exploration Vehicle. He is new to NASA. I appreciated our visit 
when he came to my office, but he comes here, perhaps new to 
NASA, but with a wealth of experience from the Pentagon. And if 
there is anyone that would have a perspective on how NASA and 
the Pentagon can cooperate, it would be you, Admiral. You may 
proceed.

 STATEMENT OF REAR ADMIRAL (RET.) CRAIG E. STEIDLE, ASSOCIATE 
 ADMINISTRATOR, OFFICE OF SPACE EXPLORATION SYSTEMS, NATIONAL 
 AERONAUTIC AND SPACE ADMINISTRATION, ACCOMPANIED BY MS. KAREN 
PONIATOWSKI, ASSISTANT ASSOCIATE ADMINISTRATOR, LAUNCH SERVICES

    Rear Admiral Steidle. Thank you, sir.
    Mr. Chairman, Members of the Committee, I will make this 
very brief, Sir, I would like to thank you for this opportunity 
to appear today to discuss NASA's ongoing cooperative 
activities with the Department of Defense.
    On January 14, the President visited NASA Headquarters and 
announced the Nation's vision for space exploration. In his 
address, the President presented a vision that is bold and 
forward-looking, yet practical and responsible, one that 
explores answers to long-standing questions of importance to 
science and society, and will develop revolutionary 
technologies and capabilities for the future, while maintaining 
good stewardship of the taxpayers' dollars. Key to the good 
stewardship of taxpayers' dollars is appropriate partnering 
between NASA and DOD.
    At this time, I would first like to introduce Karen 
Poniatowski. Karen will be joining me at the table when we 
start the session for questions. She is the Associate 
Administrator for Launch Services in the Office of Space Flight 
and has a lot of knowledge on the areas that you are interested 
in today as well.
    Chairman Rohrabacher. So you brought your institutional 
memory with you. All right.
    Rear Admiral Steidle. Yes, sir.
    She is a significant--she has been a significant 
contributor to cooperative efforts with DOD on the Space 
Shuttle, Space Station, expendable launch vehicles and such, so 
that is why I asked her to come with me today.
    There has been a rich history of collaboration and 
cooperation between DOD and NASA, and I fully expect this 
tradition will continue. I have some examples that I hope to 
provide you with later on.
    The Office of Exploration Systems, which I have been 
privileged to head, has implemented a strategy of communicating 
with our partners and our stakeholders, and we have begun this, 
holding our first series of NASA days and industry days in our 
auditorium, and some of the staff in here have attended those. 
This provides an opportunity for my leadership team to directly 
communicate and hold a dialogue with our partners about our 
plans for implementing the Nation's vision. We are currently in 
the requirements development phase, and that is well underway. 
Once the requirements have been defined, future opportunities 
for collaboration, in cooperation with DOD, will be better 
understood and pursued, and I intend to continue this 
communication strategy throughout, as I did before in the Joint 
Strike Fighter program, and I found it very productive to do 
that.
    The Partnership Council, as you will probably hear from my 
colleagues, is a multi-agency forum with a diverse membership 
of renowned leaders: Mr. O'Keefe, Mr. Teets, Admiral Jim Ellis, 
General Lord, and Mr. Sega at the end of the table. The Council 
is a mechanism for agencies to frame issues and discuss their 
individual space mission needs and identify actions to benefit 
the entire space community, and I understand that the 
Exploration Systems flowed from the original discussions in 
that partnership.
    Project Constellation, which you have referenced, will 
develop a new Crew Exploration Vehicle for future crew 
transport. This vehicle will be developed in stages with the 
first flight demonstration test in 2008, the first unmanned 
flight in 2011, and the first crewed flight in 2014. Project 
Constellation will be discussed at the Partnership Council this 
spring to ensure that our space partners and DOD are kept fully 
informed about its implementation and our way forward.
    Areas of mutual concern to both NASA and DOD include launch 
assets. Discussions are underway with DOD on the topic of 
assured space access, exploring the possibility of human rating 
and enhancing performance and reliability of launch systems to 
support the Nation's vision for space exploration, and defining 
a science and technology strategy that will advance the 
Nation's ability to meet future launch needs.
    As we implement the recommendations of the CAIB, the 
Columbia Accident Investigation Board, we are working with DOD 
to refine their support for spacecraft operations and members 
of various DOD organizations and facilities are being employed 
to develop and validate return-to-flight implementations and 
approaches. And NASA is also partnering with DOD to respond to 
both technical and cultural issues outlined in the CAIB report.
    NASA and the Department of Defense have a long history of 
cooperation on services, and we hope to have an opportunity to 
discuss that with you today. Although we have different 
missions, we share many of the same issues. The technical 
challenges are the same as are some of the requirements, 
working together within partnerships to maximize these unique 
resources. Through numerous cooperative efforts, the American 
people can benefit from our joint endeavors in space and on 
Earth, and I sincerely appreciate the forum in this particular 
committee for providing us today the opportunity to discuss 
that.
    Thank you, sir.
    [The prepared statement of Rear Admiral Steidle follows:]
       Prepared Statement of Rear Admiral (Ret.) Craig E. Steidle
    Mr. Chairman and Members of the Committee, thank you for this 
opportunity to appear today to discuss NASA's ongoing cooperative 
activities with the Department of Defense (DOD). Let me begin with a 
discussion of a key part of that cooperation.

Partnership Council

    NASA's relationship with the DOD has been coordinated primarily 
through the Partnership Council since Mr. O'Keefe began his tenure as 
the NASA Administrator. During the last 18 months, NASA's role has 
proven instrumental in the evolution of the Council. Early on, key 
changes began to occur that had elevated the level of the Council 
members and changed completely how meetings were run. We now have on 
track an effective mechanism for cooperation in a variety of areas.
    The Partnership Council is a multi-agency forum with a diverse 
membership that includes Mr. Sean O'Keefe, NASA Administrator; Mr. 
Peter Teets, the DOD Executive Agent for Space and Director of the 
National Reconnaissance Office; Admiral James Ellis, the Commander of 
U.S. Strategic Command; General Lance Lord, the Commander of Air Force 
Space Command; and Dr. Ronald Sega, the Director of Defense Research & 
Engineering.
    The Agency leaders established the Partnership Council to provide a 
forum for senior DOD and civil space leaders to meet face-to-face on a 
regular basis to discuss cross cutting issues relevant to the national 
space community. The purpose of the Partnership Council is to 
facilitate communication between the organizations and to identify 
areas for collaboration and cooperation.
    On January 14th, 2004, the President visited NASA Headquarters and 
announced the Vision for Space Exploration. In his address, the 
President presented a vision that is bold and forward-thinking, yet 
practical and responsible--one that explores answers to longstanding 
questions of importance to science and society and will develop 
revolutionary technologies and capabilities for the future, while 
maintaining good stewardship of taxpayer dollars. Key to good 
stewardship is appropriate partnering between NASA and DOD. The 
Partnership Council provides us the necessary forum for the strategic 
communication necessary to turn the vision into reality.
    The Council has proven an invaluable mechanism to enable the 
Agencies that use space assets to discuss their individual mission 
needs and capabilities in a forum where issues can be framed and 
appropriate actions assigned to benefit the entire space community.

NASA-DOD Cooperative Activities in Space Transportation

    Space launch systems are inextricably woven into the fabric of 
America's national security. As a result, the ability of the United 
States to launch critical space assets when and where they are needed 
is a national security requirement. Civil missions are also dependent 
on assured access. Currently, access to the International Space Station 
is dependent solely upon Russian launch capability until the Space 
Shuttle returns to flight. Accordingly, the Partnership Council 
routinely discusses launch topics to ensure that agencies partner 
appropriately in their approach.
    Return to safe flight is a driving priority at NASA. It is 
imperative that we are able to return the Space Shuttle to flight in a 
safety-driven, expeditious manner. As we implement the recommendations 
of the Columbia Accident Investigation Board (CAIB), NASA is working 
with DOD to redefine DOD support for space flight operations. Memoranda 
of Agreement concerning the CAIB recommendations are being reviewed and 
rewritten at all levels.
    In addition to the CAIB activities, there are currently over 400 
active agreements between various NASA and DOD organizations. 
Agreements cover a range of activities between each of the NASA Centers 
and varied groups within DOD.
    Looking to the future, there are new opportunities for 
collaboration and support between NASA and the DOD. For example, 
Project Constellation will develop a new Crew Exploration Vehicle for 
future crew transport. This vehicle will be developed in stages, with 
the first flight demonstration test in 2008, the first unmanned flight 
in 2011, and the first crewed flight in 2014. Project Constellation 
will be discussed at the Partnership Council this spring to ensure that 
our space partners in DOD are kept fully abreast of the ongoing 
implementation of our Vision for Space Exploration.
    For cargo transport to the International Space Station after 2010, 
NASA will rely on existing or new commercial cargo transport systems. 
NASA does not plan to develop new launch vehicle capabilities except 
where critical NASA needs--such as heavy lift--are not met by 
commercial or military systems. Discussions are underway with DOD on 
the topic of assured access to space, exploring the possibility of 
human rating and enhancing performance and reliability of launch 
systems to support the Vision for Space Exploration, and defining a 
Science and Technology strategy that will advance the Nation's ability 
to meet its future launch needs.

Space Shuttle and Expendable Launch Vehicles

    There is a rich history of cooperation with the DOD on the Space 
Shuttle and Expendable Launch Vehicles. From NASA's early days, we have 
depended on the DOD to provide launch range facilities and support for 
the NASA Space Shuttle and expendable launch activities on a 
reimbursable basis at both the Eastern and Western ranges. NASA 
represents one of the largest reimbursable customers of the Air Force 
on the Eastern Range. NASA, in close cooperation with the DOD and 
Industry, established the Advanced Spaceport Technology Working Group 
and Advanced Range Technology Working Group. Through these government 
and industry working groups we are able to identify advanced 
technologies to ultimately improve the performance and reduce the cost 
of range operations for all range users.
    NASA has also utilized USAF-unique launch support for missions for 
which commercial capability was not available, such as the Cassini 
mission that required the performance of the USAF Titan IV. Refurbished 
Atlas E and Titan II services were provided on a reimbursable basis to 
support flight of the NOAA Polar Meteorological satellites and the 
quick response QuikScat mission launched in June 1999. NASA has also 
conducted shared missions, most recently the Kodiak Star launch on an 
Athena launch vehicle from Alaska in September 2001 and the February 
2000, STS-99 Shuttle Radar Topography Mission (SRTM), which was a joint 
effort of NASA and the National Geospatial-Intelligence Agency (NGA-
formerly NIMA). The data collected provided precise, uniform, 3-
dimensional elevation data for roughly 80 percent of the land mass of 
the Earth.
    The Space Shuttle is the only reusable launch vehicle in the world 
capable of transporting humans to and from space. This capability has 
made it a workhorse for the United States space program for more than 
20 years. The Shuttle has been used for a variety of purposes, ranging 
from launching, retrieving, and servicing scientific payloads to 
conducting experiments on behalf of the other NASA enterprises to 
transporting elements of the International Space Station (ISS) into 
orbit.
    The DOD has flown 11 dedicated missions on the Space Shuttle. NASA 
is proud to have provided space access to about 270 secondary DOD 
payloads, some 260 on the Shuttle as mid-deck or cargo bay payloads, 
and four to the Russian Space Station MIR. They were also one of the 
earliest users of the International Space Station (ISS). To date, four 
DOD payloads have used the ISS as a space based research platform. 
Areas of emphasis for these (and future) payloads include surveillance 
and weather, space control and situational awareness, satellite 
subsystems, assured/responsive access to space, and education.
    At present, NASA remains focused on safe return-to-flight of the 
Space Shuttle and successful assembly of the ISS. The return-to-flight 
(RTF) effort is being guided by ``NASA's Implementation Plan for Space 
Shuttle Return to Flight and Beyond.'' This plan addresses NASA's 
approach for implementing each of the recommendations from the CAIB 
report.
    Members of various DOD organizations and facilities are being 
employed to develop and validate RTF implementation approaches to 
fulfill the CAIB recommendations. NASA is also partnering with the DOD 
to respond to both technical and cultural issues outlined in the CAIB 
report. Some examples include the use of thermal-vacuum facilities at 
the Arnold Engineering Development Center and Eglin Air Force Base to 
test design modifications to the External Tank, collaborating with the 
Navy's Submarine Nuclear Reactors Program, and Submarine Safety Program 
to enhance NASA's processes for evaluating issues and concerns.
    We are also working with the DOD to respond to the CAIB 
recommendations as they pertain to expendable launch vehicles (ELVs). 
NASA, the United States Air Force, and the National Reconnaissance 
Office recently held the 4th Government/Industry ELV Mission Assurance 
Forum on March 9-10, 2004. This forum was originally established by 
these agencies to ensure that the ELV lessons learned from the 1998 
Presidential Broad Area Review into Launch Failures are not lost and 
continues to be one of the many forums established to facilitate 
communication between the government agencies with regards to space 
transportation.

The Vision for Space Exploration

    Discussions have begun with the DOD in support of the Vision for 
Space Exploration. At this point, we are early in the process of 
defining requirements for the vision. The goal of this process is to 
develop documented requirements that are traceable, verifiable and 
measurable.
    Definition of Level 0 requirements for the Crew Exploration Vehicle 
(CEV) is the responsibility of the NASA Space Architect. NASA 
anticipates the final set of Level 0 requirements by the end of this 
month, pending approval by the Joint Strategic Assessment Committee 
(JSAC). The JSAC is comprised of the following NASA personnel: the 
Space Architect (Chair), the Chief Scientist (Deputy Chair), the 
Enterprise Associate Administrators, Institutions Management and key 
functional offices.
    Definition, documentation and management of Level 1 and 2 
requirements will be the responsibility of the Office of Exploration 
Systems. Requirements will be subject to an open and formal review and 
approval process to be managed by the Office of Exploration Systems. 
The Office of Exploration Systems will develop necessary companion 
products, including a Management Plan. Parts of this process are the 
studies and systems analysis of potential exploration scenarios to be 
conducted as a means of bounding the requirements trade space and 
developing meaningful figures of merit to be used in the design and 
development of the CEV.
    A Requirements team, lead by Office of Exploration Systems is 
focusing on developing these requirements and scenarios. This activity 
began in February 2004. A rigorous requirements formulation approach 
will yield Level 1 requirements in early September 2004. At that time, 
the requirements will be provided to the JSAC for approval. The JSAC 
will present the requirement to the Executive Council, which is 
composed of the following NASA personnel: the Deputy Administrator 
(Chair), the Associate Deputy Administrator for Institutions, the 
Associate Deputy Administrator for Technical Programs, the Enterprise 
Associate Administrators, the Chief Engineer, the Safety and Mission 
Assurance Associate Administrator, the Chief Financial Officer, and the 
General Council. The Executive Council will have the ultimate approval 
authority for CEV requirements. This effort will be followed by a 
solicitation in Fall 2004 for concept development. Level 2 requirements 
will be baselined in early 2005.
    In order to develop safe, reliable, and cost-effective requirements 
for space launch vehicles to implement NASA's Vision for Space 
Exploration, it is essential to learn from past and present programs 
such as the Space Shuttle, the Space Launch Initiative, the Orbital 
Space Plane (OSP), and Next Generation Launch Technology. The 
Requirements team, lead by the Office of Exploration Systems, will 
focus on developing these requirements and scenarios utilizing these 
lessons learned. Knowledge from OSP will help define the fundamental 
requirements necessary for developing missions beyond Earth orbit.
    The Office of Exploration Systems will work closely with the DOD 
throughout the requirements process. Once requirements have been 
defined, future relationships with DOD will be further developed in 
terms of identifying new areas for collaboration and cooperation.

Conclusion

    NASA's Office of Space Flight and the Department of Defense (DOD) 
have a long history of cooperation on services that range from staffing 
our astronaut corps to collaborating on numerous space technology 
projects. Although we have different missions, we share many of the 
same issues, technical challenges, and requirements. Working together 
we have formed partnerships to maximize our unique resources. Through 
numerous cooperative efforts, the American people have benefited by our 
joint endeavors in space and on the Earth.
    I sincerely appreciate the forum that the Committee has provided 
today, and I look forward to responding to your questions.

                     Biography for Craig E. Steidle

    Adm. Craig E. Steidle is the Associate Administrator for the Office 
of Exploration Systems. He is the first to hold this position, since 
the office was created in January 2004.
    The Office of Exploration Systems was established to set priorities 
and direct the identification, development, and validation of 
exploration systems and related technologies. Users and technologists 
will work together to enable a balancing of factors between 
requirements, program schedules and costs leading to future space 
exploration systems.
    Since retiring from the Navy in March 2000, Adm. Steidle served as 
an independent aerospace consultant. His last assignment was as Chief 
Aerospace Engineer and Vice Commander, Naval Air Systems Command, which 
develops, acquires and supports naval aeronautical systems.
    Adm. Steidle entered the Navy after graduating with merit from the 
United States Naval Academy, Annapolis, Md. He trained as an attack 
pilot, flew carrier night combat missions in North Vietnam; served as a 
test pilot and test pilot instructor; and commanded the Navy's A-3 
weapon systems program. During the 1980's, he deployed on carriers, 
frigates, and cruisers in the Western Pacific and Indian Ocean. 
Additionally, he served as manager of the Navy's Aerospace Engineers 
and as the Special Assistant for Air Combat to the Assistant Secretary 
of the Navy.
    Adm. Steidle commanded the Navy's F/A-18 Program, naval aviation's 
largest production, research and development program, as well as the 
largest foreign military sales program. The Secretary of Defense 
presented Steidle with the Navy's Outstanding Program Manager Award.
    Adm. Steidle served as the Director of the Department of Defense 
(DOD) Joint Advanced Strike Technology Office and was the Director of 
the Joint Strike Fighter Program, DOD's largest program. Under his 
command, the Joint Strike Fighter Program was awarded the David Packard 
Excellence in Acquisition Award.
    Adm. Steidle earned a Master of Science degree in systems 
management from the University of Southern California and a Master of 
Science degree in aerospace engineering from Virginia Polytechnic 
Institute. He is a member of the Society of Experimental Test Pilots 
and a Fellow of the Royal Aeronautical Society.
    His decorations and honors include the Defense Distinguished 
Service Medal; Navy Distinguished Service Medal; Legion of Merit; 
Distinguished Flying Cross; Meritorious Service Medal with gold star; 
Air Medals with bronze star; Navy Commendation Medals; Republic of 
Vietnam Gallantry Cross; and Joint Meritorious Unit Award.

    Chairman Rohrabacher. Well, thank you very much.
    And now we are going to give the General a chance, General 
Bob Dickman, who manages the planning and programming and 
acquisition of the Air Force Space Systems at the Pentagon. And 
he has a great deal of experience in working with NASA and 
commanded the Air Force launch wing in Florida. And we welcome 
you today, and you may proceed.

STATEMENT OF MAJOR GENERAL (RET.) ROBERT S. DICKMAN, DEPUTY FOR 
MILITARY SPACE, OFFICE OF THE UNDER SECRETARY OF THE AIR FORCE, 
                     DEPARTMENT OF DEFENSE

    Major General Dickman. Mr. Chairman and distinguished 
Members of the Committee, thank you for the opportunity to 
appear before you today to discuss DOD's close relationship 
with NASA, and in particular, our cooperative efforts in space 
launch.
    In particular, I am honored to be here with Admiral Steidle 
and Dr. Sega, and Mr. Musk, and our partner in launch, Ms. 
Poniatowski. And Karen, I am sorry, I got that--something went 
wrong.
    Your hearing today underscores the importance to DOD and 
NASA and the commercial sector of working together on the 
challenges in developing launch systems. A healthy and vigorous 
cooperation, which takes into account the lessons learned from 
past ventures, is central to sustaining America's preeminence 
in space. Mr. Chairman, I share your view that there were 
unintended consequences from that policy of the mid-1990s, but 
I would point out that it also led to the two finest expendable 
launch vehicles flying in the world today, the Delta IV and the 
Atlas V.
    Let me start off by saying that cooperation between NASA 
and the DOD is nothing new, as Craig has pointed out. Civil and 
DOD space organizations have worked together since 1958. We 
share our commitment to excellence in our space endeavors. 
Sometimes we forget that the Atlas and Delta launch vehicles 
that were the centerpiece of our own launch capability in the 
military over the last 15 years were developed by NASA and 
transitioned to military vehicles. There is no issue, then, of 
whether or not we should cooperate on launch, rather the 
question is when does the collaboration make sense.
    NASA-DOD collaboration and cooperation in space and in 
aeronautics makes the most sense when our missions, our 
requirements, and our technologies are similar. Both NASA and 
DOD benefit from polling our skills and our limited resources. 
For instance, there is a clear advantage to joint DOD and civil 
efforts in basic science and technology in areas such as 
propulsion, materials, avionics, and other launch technologies.
    However, cooperation is inappropriate when it crosses the 
line from civil towards military activities. Tradition and 
policy dictate that civil and military space endeavors should 
remain, and do remain, separate.
    On a different level, true joint programs, the field 
operational systems that involve funding from multiple agencies 
and require design tradeoffs to achieve a common configuration, 
have proven both difficult to bring to completion and 
inordinately expensive. Given these bounds on when DOD and NASA 
might work together, there are many fruitful areas of ongoing 
and future collaboration.
    As I mentioned a moment ago, in the realm of basic science 
and technology, the military and civil space communities share 
many common interests. Collaborative S&T projects, in addition 
to the areas that I mentioned earlier, include sensors, 
electronics, power generation, communications, thermal 
protection systems, structures, test facilities, microsatellite 
technology, and as you have noted, detection of near-Earth 
asteroids. NASA's Scramjet flight, now scheduled for March 27, 
will be an important milestone in our hypersonics road map. 
Cooperative development is also underway through the Integrated 
High Payoff Rocket Propulsion Technology Program, a three-
phase, 15-year national program to double propulsion 
capability.
    Another major DOD priority is developing operationally 
responsive space lift. The program to make responsive spacelift 
a reality is called FALCON, not to be confused with SpaceX's 
Falcon Launch Vehicle. Our FALCON program is run jointly by the 
Air Force and DARPA, and current efforts are focused on concept 
design. Mr. Musk's Falcon is one of the competing designs.
    I bring the Committee's attention to the FALCON program, 
because NASA has played an important part in those efforts. In 
particular, the Marshall Space Flight Center is continually 
consulting with Air Force Space Command as we have gone through 
our yearlong operationally responsive spacelift analysis of 
alternatives.
    Our major launch program also has the potential to further 
NASA's space flight efforts, and again, we have a good history 
of cooperation. I am speaking, of course, about the Evolved 
Expendable Launch Vehicle. NASA will use both the EELV 
boosters, the Delta IV and the Atlas V, to launch intermediate 
and heavy payloads. For example, in 2005, they plan to launch 
the Mars Reconnaissance Orbiter on the Atlas V and GOES-N on 
the Delta IV. In addition, both the Atlas and Delta boosters 
have the potential to be rated for human flight and modified to 
meet very heavy lift needs. Should NASA choose to do so, the 
DOD will work with NASA to facilitate their efforts.
    While EELV is a major arrow in our space launch quiver, the 
DOD must continue to look to the future. In this process, we 
pay careful attention to encouraging the growth of a domestic 
launch market to include emerging commercial space launch 
providers. A very appropriate example, considering Mr. Musk's 
presence here, is SpaceX's Falcon launch vehicle. Later this 
year, this new launch vehicle is scheduled to carry a satellite 
into space, launching from Vandenberg Air Force Base.
    Let me close by saying we appreciate the support the 
Congress and this committee have given to help guide and field 
vital national space capabilities. We look forward to working 
with you as we continue to develop, produce, and operate 
critical space systems, both civil and military, for this great 
nation.
    Mr. Chairman, this concludes my opening remarks, and I look 
forward to your questions.
    [The prepared statement of Major General Dickman follows:]
                Prepared Statement of Robert S. Dickman

Introduction

    While missions and requirements may not always be common, there 
will always be obvious synergies that allow a close relationship 
between the DOD and NASA. Our shared environment is hazardous, and we 
will continue to rely on each other's experience and continued 
technical innovation to succeed.
    In recent years, the Air Force (AF) and NASA have supported each 
other in a wide range of activities. The four major areas of 
cooperation were centered on interagency coordination, science and 
technology development, space operations, and human space flight 
activities.

NASA-DOD Interagency Coordination

    While NASA and DOD have different primary missions, there is 
significant overlap in the science and technology (S&T) challenges both 
organizations face. DOD and NASA are aware of, and recognize this 
potential for, dual use and therefore, the importance of cooperation. 
To facilitate this cooperation, several forums are acting to promote 
collaborative planning.
    Partnership Council--Initially established in February 1997 by Air 
Force Space Command (AFSPC) and NASA, this forum is at the most senior 
level of the planning process. The Partnership Council, consisting of 
the Honorable Peter B. Teets, Under Secretary of the Air Force and 
Director, National Reconnaissance Office (NRO); Mr. Sean O'Keefe, NASA 
Administrator; Admiral James Ellis, Commander, USSTRATCOM; Dr. Ron 
Sega, Director Defense Research & Engineering; and General Lance Lord, 
Commander, AFSPC; is the primary forum for high-level discussions 
between the community. It is intended to achieve efficiencies, 
effectiveness, risk reduction, and better understanding of plans and 
activities in areas of mutual interest, to include S&T.
    Monthly Meeting between Deputy for Military Space, Office of the 
Under Secretary of the Air Force; Director, National Security Space 
Integration; Director, National Security Space Architect; and NASA 
Space Architect--These National Security Space (NSS) principals and the 
NASA Space Architect meet regularly, and as needed, to improve the 
intermediate planning process and products, and implement opportunities 
identified by the Partnership Council.
    Space Technology Alliance (STA)--The STA was initiated in 1997 
among the AF, NRO, and NASA to foster cooperative efforts and improve 
communications.
    Other Planning Activities--NASA participates with the NSS community 
in conducting the annual NSS Program Assessment that, among other 
things, identifies interagency S&T cooperation opportunities. NASA also 
participates in the annual update of the NSS Plan that provides 
implementation guidance to the NSS community on desired capabilities, 
including S&T. In addition, NASA is participating with the DOD and the 
Intelligence Community in developing the Congressionally-directed DOD 
Space S&T Strategy, which will be complete in the summer of 2004.
    There are a number of good examples of cooperation and mutual 
support between DOD and NASA over our long history of working together. 
These include launch and range support, communications, flight 
experiments, and environmental science. However, there is always room 
for improvement. We recognize this as being in the best interest of the 
Nation and have therefore taken steps to strengthen our efforts with 
the recent initiation of monthly planning meetings and the development 
of the Space S&T Strategy.
    There are, however, some important differences between NASA and the 
NSS community--one open by design, and one generally closed for 
national security reasons. For the most part, these differences can be 
overcome on S&T activities through appropriate collaborative planning.

Science and Technology Development

    When our missions are common, when our technology requirements are 
similar, and when we can make the best use of our nation's limited 
space infrastructure, both NASA and the DOD benefit from cooperative 
efforts in S&T development. Whether maneuvering in space, experimenting 
in space or communicating in space, there is shared workspace that 
leads to the best possible equipment, processes and procedures to 
ensure success, whether the mission is military or civil in nature. In 
developing basic technologies for launch systems, materials for use in 
space activities, or developing infrastructure to command and 
communicate with our space assets, DOD and NASA cooperation is key to 
making the most of our space dollars.
    When resources, missions, and technologies are purely military in 
nature, we are not best served by collaborating. It is important that 
our civil space activities be kept free from possible accusations of 
militarism. While many technologies developed by NASA-DOD collaboration 
are dual-use in nature, there are some developmental areas that should 
remain out of bounds.
    NPOESS--One of the most important joint collaborative efforts 
currently underway between NASA and the Air Force is the National 
Polar-orbiting Operational Environment System (NPOESS) a tri-agency 
program of NASA, DOD, and the Department of Commerce (DOC) that 
converges the DOD and DOC/NOAA polar-orbiting weather satellite 
programs. NASA, working with NPOESS Integrated Program Office (IPO), is 
providing pre-operational risk-reduction demonstration and validation 
tests for four critical NPOESS sensors that will fly on the NPOESS 
Preparatory Project (NPP). NPP is a primary NASA mission that serves as 
a ``bridge'' between the Earth Observation Satellite (EOS) mission and 
NPOESS. NPP is also a critical risk reduction mission for the Visual 
Infrared Imager Radiometer Suite (VIIRS), the Cross-track Infrared 
Sounder (CrIS), the Advanced Technology Microwave Sounder (ATMS), and 
the Ozone Mapper/Profiler Suite (OMPS) sensors and serves as an end-to-
end test for the Command, Control and Communication (C3) and data 
processing systems for NPOESS.
    DOD Space Test Program--While DOD currently has no requirement for 
manned space flight, the S&T community, through the auspices of the DOD 
Space Test Program, has made excellent use of the Space Shuttle. When 
necessary, NASA and DOD have worked to develop new integration methods 
and hardware to make the most use of every ounce of available space 
lift. To date, the Space Test Program has launched over 200 experiments 
on over seventy Shuttle missions, including some of the first science 
experiments that were carried out on the international Space Station. 
As part of the effort to provide risk reduction to the NPOESS system, 
the DOD Space Test Program launched the Coriolis Mission in January 
2003. This mission hosted both a solar mass ejection imager and WindSat 
sensor. The WindSat sensor will be evaluated for use on the NPOESS 
system.
    NASA also assisted the Space Test Program in tests of a new Vibro-
Acoustic Launch Protection Experiment (VALPE). NASA supported two 
successful sounding rocket launches from the Wallops Island launch 
facility. At Cape Canaveral, the AF supports the launch of NASA 
payloads, most recently the Spirit and Opportunity rovers now 
investigating Mars, from the Eastern and Western ranges.
    S&T Forums--In more basic research and development, the AF and NASA 
collaborate in several major research projects and have several forums 
set up to facilitate S&T. The three major coordination forums for 
collaborative work are: the National Thermal Protection Systems (TPS) 
Working Group, which is led by the AF and NASA with participation of 
Army, Navy, Department of Energy (DOE), industry, and academia, and 
fosters development of new and advanced thermal protection materials 
and systems; the National Space and Missile Materials Symposium, which 
fosters increased communication and understanding in pursuing key 
materials technology challenges for space and missiles; and the Air 
Force Research Laboratory (AFRL)-Jet Propulsion Laboratory (JPL) Annual 
Summit, which is held annually to discuss and coordinate research 
efforts.
    Other areas of research range across the complete spectrum of S&T 
activities. NASA and the AF work to track and characterize orbital 
debris as well as performing asteroid surveys to detect any large 
objects that are at risk of striking Earth. Many materials science 
experiments are carried out to look at environmental effects of space 
exposure, as in the DOD Space Test Program MISSE experiments, as well 
as high stress/high-cycle experiments on airframe or fuel tank 
materials. In the Integrated High Payoff Rocket Propulsion Technology 
(IHPRPT) Program, AFRL and NASA have worked to develop a spiral 
improvement system to the Space Shuttle Main Engines with technology 
benefits that will help all U.S. next generation rocket engines. In 
addition to all of these areas, NASA and the AF collaborate on other 
S&T programs that touch on almost every facet of both aviation and 
space technologies. For instance, AFRL is teaming with JPL to develop 
the L-Band antenna for NASA's space based radar effort.
    Even NASA's Mars exploration mission benefits from AF collaboration 
with NASA utilizing AF-developed Rad-6000 32-bit microprocessors and 
lithium-ion batteries in both planetary rovers. In addition, AF 
operational studies provided expertise on human fatigue-related 
performance issues that will help provide counter-fatigue strategies 
for rover operators.

Space Operations

    The AF and NASA have existing memoranda of agreement establishing 
partnerships to support NASA launches with Spacelift Range assets and 
to pursue advanced launch and test range technologies. The AF's 
Spacelift Ranges support all launch operations for NASA manned and 
unmanned launches from the Kennedy Space Center (KSC) or from 
Vandenberg AFB. Also, at the recommendation of the Interagency Working 
Group on Future Management and Use of the U.S. Space Launch Bases and 
Ranges, the AF and NASA established the Advanced Range Technology 
Working Group (ARTWG), co-chaired by AF Space Command and NASA-KSC. The 
ARTWG charter focuses on improving safety, increasing flexibility and 
capacity, and lowering range costs in support of future generations of 
reusable and expendable launch vehicles. The Joint Base Operating 
Support Contract (JBOSC) is a joint procurement effort between KSC NASA 
and the AF's 45th Space Wing (SW) to provide unified base support 
services for KSC, Cape Canaveral AFS, and Patrick AFB.

Human Space Flight

    AFSPC provided support to NASA (via USSTRATCOM to USNORTHCOM) on 
the Columbia accident response and subsequent investigation. Major 
General John Barry and Brigadier General Duane Deal, USAF, both served 
on the Columbia Accident Investigation Board (CAIB). General Deal also 
heads the wing (21st SW) responsible for operating the space 
surveillance network, which assisted in the Columbia investigation. 
Approximately 20 AFRL personnel from six technology directorates 
participated in the CAIB via the DOD
    Columbia Investigation Support Team. Subject matter expertise was 
provided in the fields of non-destructive inspection and test of 
critical composite structures, space weather, atmospheric space 
chemistry and physics, reentry physics, high-speed aerodynamics, 
aerothermal environments, kapton insulated wiring, ceramic materials, 
structural fatigue/fracture failure, and human behavior ``group think'' 
decision-making.
    In an effort to assist NASA in its return-to-flight activities for 
the Shuttle fleet, the AF is assisting in developing and evaluating 
leading edge repair concepts that can be applied by astronauts in 
orbit. To date, 20 specimens from seven different organizations have 
been tested with three concepts surviving thermal conditions 
representative of flight heat flux and temperature. These three will be 
studied further to fully characterize the performance of the repair 
methods and materials and certify the concepts for flight. The AF is 
also assisting to analyze and improve the manual foam spraying 
operation previously used on the Space Shuttle Columbia external tanks.

NASA-DOD Space Organizations

    Since 1958, the White House has created several organizational 
mechanisms to coordinate civil and military space programs and 
activities, including R&D investment. These range from President 
Eisenhower's Civilian-Military Liaison Committee, which was designed to 
coordinate NASA and DOD activities, to the Kennedy-Johnson-era National 
Space Council and Aeronautics and Astronautics Coordinating Board, to 
President Reagan's National Security Council-led interagency group, and 
then to President Clinton's decision to separate Space Council 
functions under the Office of Science and Technology Policy and 
National Security Council. The current organization mechanism for 
coordination between NASA and DOD, however, is the Partnership Council.
    The U.S. can, and always will, explore better ways of coordinating 
NASA and DOD space activities. Analysts from both NASA and DOD 
routinely track developments in space management involving 
international partners in space cooperation as well as other 
spacefaring nations. While it is always beneficial to study how other 
countries attack similar problems, we must always be cognizant of the 
fact that other countries have different policies, laws, technologies 
and national security and civil requirements.

DSB/AFSAB Joint Task Force on Acquisition of National Security Space 
                    Programs

    We in the DOD have benefited greatly from the recommendations of 
the joint Defense Science Board and Air Force Scientific Advisory Board 
task force on Acquisition of National Security Space Programs, led by 
Mr. A. Thomas Young. Mr. Young is a past Director of the Goddard Space 
Flight Center, and headed the 1999 NASA-chartered review of the Mars 
Polar Lander loss.
    Just as in the DOD, during the 1990s, NASA experienced declining 
budgets, increased acceptance of risk (for example--Faster, Better, 
Cheaper), unrealized growth of a commercial space market, increased 
dependence on space by an expanding user base, and consolidation of the 
space industrial base.
    The Young Panel identified five ``basic reasons'' for cost growth 
and schedule delays in National Security Space programs:

        <bullet>  Cost has replaced mission success as the primary 
        driver in managing space development programs. . .resulting in 
        excessive technical and schedule risk.

        <bullet>  Unrealistically low cost estimates lead to 
        unrealistic budgets and unexecutable programs.

        <bullet>  Undisciplined definition and uncontrolled growth in 
        system requirements.

        <bullet>  Government capabilities to lead and manage the 
        acquisition process have seriously eroded.

        <bullet>  Industry has failed to implement proven practices on 
        some programs.. . .The space industrial base is adequate to 
        support current programs, although long-term concerns exist.

    Within the DOD, we have taken the Young Panel findings and 
recommendations very seriously, and are continuing to implement policy 
and process changes in response to the Young Panel recommendations. 
Many of these findings likely have some applicability to NASA since we 
share much of the same industrial base and have experienced similar 
budget pressures. We have shared the Panel's results and our lessons 
learned with senior NASA leadership during the Partnership Council and 
our other interactions.

Conclusion

    Historically, the DOD and NASA have fostered a collaborative 
relationship to maximize responsive access to space and national space 
investment strategies, and we will continue to do so in the future. 
Both organizations have benefited from this open exchange of ideas and 
lessons learned, laying the foundation for future collaborations.
    NASA was formed with many DOD centers of excellence as its space-
related core. The Mercury and Gemini missions, for instance, all flew 
on DOD launch vehicles. From that time forward, we have continued to 
collaborate across the full spectrum of space--launch, communications, 
sensors, materials, life sciences, and much more. In many respects, the 
relationships between NASA and the DOD are as close, or closer, than 
they have ever been.

                    Biography for Robert S. Dickman

    Robert S. Dickman is Deputy for Military Space, Office of the Under 
Secretary of the Air Force, Washington, D.C. He supports the Under 
Secretary, who is also the Director of the National Reconnaissance 
Office, in executing space responsibilities, which include managing the 
planning, programming and acquisition of space systems for the Air 
Force and other military services.
    Mr. Dickman was born in Brooklyn, N.Y., grew up in New Jersey, and 
entered the Air Force as a distinguished graduate of the ROTC program 
at Union College, Schenectady, N.Y. He has had a varied career in space 
operations, and acquisition and planning, including being assigned at 
the Space and Missile Systems Center, the Pentagon, North American 
Aerospace Defense Command, U.S. Space Command, Air Force Space Command, 
and the National Reconnaissance Office. While serving on active duty, 
he was the first Vice Commander of the 2nd (now 50th) Space Wing, 
Schriever Air Force Base, Colo., Commander of the 45th Space Wing, 
Patrick Air Force Base, Fla., Department of Defense Space Architect, 
and the senior military officer at the NRO in Washington, D.C. He 
retired from active duty in 2000 in the rank of major general, and was 
appointed to the Senior Executive Service in March 2002.

EDUCATION

1966-- Bachelor's degree in physics, Union College, Schenectady, N.Y.

1968-- Master's degree in space physics, Air Force Institute of 
Technology

1976-- Distinguished graduate, Air Command and Staff College, Maxwell 
Air Force Base, Ala.

1978-- National Security Management Course, National Defense University

1983-- Master's degree in management, Salve Regina College, Newport, 
R.I.

1983-- Distinguished graduate, Naval War College, Newport, R.I.

CAREER CHRONOLOGY

         1.  June 1966-June 1968, student, Air Force Institute of 
        Technology

         2.  June 1968-June 1972, program manager for theoretical and 
        particle physics, Air Force Office of Scientific Research, 
        Arlington, Va.

         3.  July 1972-May 1973, satellite communications program 
        element monitor, Directorate of Space, Headquarters U.S. Air 
        Force, Washington, D.C.

         4.  June 1973-May 1975, terminal systems manager, Air Force 
        Satellite Communications System Program Office, Los Angeles 
        AFB, Calif.

         5.  June 1976-September 1979, operational manager for military 
        satellite communications, Deputy Chief of Staff for Plans and 
        Operations, Headquarters U.S. Air Force, Washington, D.C.

         6.  October 1979-January 1982, Chief, Implementation Branch, 
        Space Defense Operations Center, Headquarters Aerospace Defense 
        Command, Cheyenne Mountain AFB, Colo.

         7.  February 1982-June 1982, Executive Officer to the Vice 
        Commander in Chief, North American Aerospace Defense Command, 
        Colorado Springs, Colo.

         8.  July 1982-June 1983, student, Naval War College, Newport, 
        R.I.

         9.  July 1983-June 1984, Director of Space Systems, Deputy 
        Chief of Staff for Operations, Headquarters Air Force Space 
        Command, Peterson AFB, Colo.

        10.  July 1984-June 1985, Chief, Commander's Group, 
        Headquarters North American Aerospace Defense Command and Air 
        Force Space Command, Peterson AFB, Colo.

        11.  July 1985-May 1986, Vice Commander, 2nd Space Wing, Falcon 
        AFB, Colo.

        12.  June 1986-June 1987, Assistant to the Director of 
        Operations, U.S. Space Command, later, Director of Missile 
        Warning, Air Force Space Command, Peterson AFB, Colo.

        13.  July 1987-June 1989, Chief, Space Systems Division, 
        Directorate of Space and Strategic Defense Initiative Programs, 
        Washington, D.C.

        14.  July 1989-June 1992, Deputy Director of Space Programs, 
        Office of the Assistant Secretary of the Air Force for 
        Acquisition, Washington, D.C.

        15.  July 1992-June 1993, Director of Plans, Headquarters Air 
        Force Space Command, Peterson AFB, Colo.

        16.  July 1993-January 1995, Commander, 45th Space Wing, and 
        Director, Eastern Range, Patrick AFB, Fla., and Cape Canaveral 
        Air Station, Fla.

        17.  February 1995-September 1995, Director of Space Programs, 
        Office of the Assistant Secretary of the Air Force for 
        Acquisition, Washington, D.C.

        18.  October 1995-June 1998, Department of Defense Space 
        Architect, Washington, D.C.

        19.  June 1998-August 2000, Director, Office of Plans and 
        Analysis, and System of Systems Architect; Director, Office of 
        Architectures, Assessments and Acquisition; Director, Corporate 
        Operations Office; and senior military officer, National 
        Reconnaissance Office, Washington, D.C.

        20.  March 2002-present, Deputy for Military Space, Office of 
        the Undersecretary of the Air Force, Washington, D.C.

BADGES

Master Space Badge

MAJOR AWARDS AND DECORATIONS

Defense Distinguished Service Medal

Distinguished Service Medal

Defense Superior Service Medal

Legion of Merit

Defense Meritorious Service Medal

Meritorious Service Medal with oak leaf cluster

Air Force Commendation Medal with oak leaf cluster

OTHER ACHIEVEMENTS

National Reconnaissance Office Gold Medal

1995 Ira Eaker Fellow, Air Force Association

1998 Astronautics Award, National Space Club

PROFESSIONAL MEMBERSHIPS AND ASSOCIATIONS

Air Force Association

U.S. Naval Institute

American Institute of Aeronautics and Astronautics

    Chairman Rohrabacher. Thank you very much. And we will have 
Ron Sega and, of course, Elon Musk, after this. I would--I am 
sorry I can't say short break. It is going to probably be 
around 40 minutes or 45 minutes. So I appreciate those of you 
who could stay around. Elon, you are out in California. I know 
you are enjoying yourself out there. And I will be out there 
tonight. But we will all be back in 45 minutes. This 
subcommittee is in recess.
    [Recess.]
    Chairman Rohrabacher. All right. And so the hearing is 
called to order. Our next witness is the Honorable Ron Sega, 
Director, Defense Research and Engineering, also one of our 
beloved astronauts and someone who has seen this firsthand, 
which we, of course, appreciate your firsthand experience. And 
he is the Chief Technical Advisor to the Secretary of Defense 
for all scientific and technical matters, basic and applied 
research, and advanced technology development. You may proceed.

 STATEMENT OF THE HONORABLE RONALD M. SEGA, DIRECTOR, DEFENSE 
        RESEARCH AND ENGINEERING, DEPARTMENT OF DEFENSE

    Dr. Sega. Thank you, Mr. Chairman and Members of the 
Committee. I appreciate the opportunity to appear before you 
today to talk about the Department of Defense's programs in 
research and engineering, particularly in space and aeronautics 
and DOD's collaboration with the National Aeronautics and Space 
Administration. Thank you for allowing my written testimony to 
be submitted for the record.
    In addition to discussing some of the specifics of the 
NASA-DOD collaboration, it is important to understand how the 
research and development program and our activities in space 
and aeronautics are integrated within the Department of 
Defense. We do have several mechanisms for coordination of the 
R&D activities between DOD and NASA. One that you heard about 
was Space Partnership Council, established in 1997. This 
Council meets regularly and coordinates space issues. And it is 
actually meeting more recently than it has in the past. As a 
member of the Space Partnership Council, I believe it is a 
productive forum to address the overarching DOD-NASA 
requirements and issues related to space.
    One initiative from the Department of Defense and in 
collaboration with NASA is the National Aerospace Initiative. 
As I began in the fall of 2001, it came apparent that there are 
many studies and reports in progress, in draft state, and near 
completion, but there was a lack of integration among the 
various efforts. So it was our goal to look at integrating 
these activities. And we divided it into three areas: high-
speed hypersonics, space access, and space technology. And 
through a series of workshops within government, all branches 
of the DOD services and agencies, and NASA looked at what 
technologies were a--currently--the state of technology, which 
ones were available and opportunities for the future, and then 
worked with industry and academia to establish the state of 
technology in these three areas and then to provide technology 
roadmaps.
    One example of a crosscutting program is RASCAL. It is the 
Responsive Access Small Cargo Affordable Launch program from 
DARPA. It combines a high-speed, air-breathing first stage with 
a rocket-based upper stage and a small responsive satellite to 
demonstrate reusable, affordable, and responsive space access. 
So RASCAL is an innovative approach to space access.
    We looked at continuing many programs, because they made 
sense, they were part of the roadmap ahead, one was the 
Integrated High Performance Turbine Engine Technology program, 
called IHPTET. It had been a sustained investment from DOD and 
NASA and industry since 1988, and it was building a technology 
base and meeting milestones. Another example of an ongoing 
program was a Hypersonic Flight Demonstration Program, called 
HyFly, a program that is funded by DARPA and the Navy, in 
collaboration with NASA, universities, and industry. I 
personally visited the Langley Research Center during the 
summer of 2002, and they were testing in the Mach 6.2 to Mach 
6.5 range in the eight-foot tunnel and the effective altitudes 
of 85,000 to 100,000 feet. And I believe that the work was 
being done in a very positive and effective way.
    Recent additional programs, after doing this analysis, were 
several. Two examples would include a Single Engine 
Demonstration program at DARPA, Air Force funded program in the 
same flight regime of Mach 7 with a first flight target around 
2008. A second example is FALCON, which you have heard about 
earlier, that provides technologies toward small launch 
vehicles, a Common Aero Vehicle for thermal protection system 
and aerodynamics as well as a hypersonic cruise vehicle.
    An ongoing program that looks at rocket propulsion is 
IHPRPT, Integrated High Payoff Rocket Propulsion Technology 
program. I concur with Bob Dickman's assessment that this is a 
good program. It is a 15-year effort focused on developing 
measurable, affordable, and goal-directed rocket propulsion 
technologies. We believe the payoffs could be quite positive in 
that program. An example inside of IHPRPT is an Integrated 
Powerhead Demonstration, IPD. This is a key demonstration that 
is a joint NASA-Air Force project, and it is scheduled for 
engine testing at the NASA Stennis Space Center in 2005. They 
have had four successful component demonstrations over the last 
18 months. It is a new flow engine cycle, and it should enable 
an increase in rocket engine reliability and mission life as 
well as reducing maintenance time and cost.
    In terms of developing a space science and technology 
strategy, the National Defense Authorization Act for fiscal 
year 2004 requires the Secretary of Defense to development, 
implement, and annually review and revise a space science and 
technology strategy. As the Director of Defense Research and 
Engineering, I am charged to jointly develop and implement this 
strategy with the Under Secretary of the Air Force, who is the 
Department of Defense's Executive Agent for space.
    We are actively working with the Department's research 
laboratories, the Defense Advance Research Projects Agency, 
DARPA, National Reconnaissance Office, and the Missile Defense 
Agency through a space S&T strategy team to develop and 
implement this strategy.
    And finally, the Department of Defense and NASA's research 
and development programs support building the technology base 
to enable future capabilities. Since the days of Chuck Yeager, 
the National Advisory Committee for Aeronautics, and the Bell 
X-1 that broke the sound barrier, the DOD has conducted a broad 
range of cooperative and collaborative programs with NACA and 
now NASA. Recently, the National Aerospace Initiative 
technology plans provided an integrated technology roadmap and 
outlined the requisite investments to enable critical military 
and civil capabilities. We are excited about the synergies that 
can be derived as we work collaboratively to achieve our common 
science and technology goals.
    And thank you for allowing me to appear before your 
committee.
    [The prepared statement of Dr. Sega follows:]

                  Prepared Statement of Ronald M. Sega

Introduction

    Mr. Chairman, Members of the Committee, thank you for the 
opportunity to appear before you today to talk about the Department of 
Defense's (DOD) research and engineering programs in space and 
aeronautics and DOD's collaboration with National Aeronautics and Space 
Agency (NASA). In addition to discussing some specifics of DOD-NASA 
collaboration, it is also important to understand how the research and 
development (R&D) activities for space and aeronautics technologies 
within the Department of Defense are integrated. There are several 
mechanisms for coordination of R&D activities between DOD and NASA.

Space Partnership Council

    Since 1997, the Space Partnership Council (SPC) has been, and 
continues to be, a very productive mechanism for DOD-NASA collaboration 
and program coordination. The SPC addresses overarching DOD-NASA 
requirements and issues related to space. The council is comprised of 
the following members:

         Under Secretary of the Air Force/Director of National 
        Reconnaissance Office

         Commander of Air Force Space Command

         Commander of United States Strategic Command

         Director of Defense Research and Engineering

         Administrator of NASA

    The Council meets regularly and coordinates space issues, such as 
technology development to enable goals like transformational space 
access, and operational space capabilities.

National Aerospace Initiative

    Collaborative efforts between DOD and NASA over the past several 
years have been encompassed in the National Aerospace Initiative (NAI). 
NAI is a focused effort to coordinate technology development and 
demonstrations in three key aerospace technology areas, which are the 
pillars of the NAI. The three pillars are high speed and hypersonic 
flight; space access; and space technologies. Beginning as a concept in 
2001, NAI has matured and supported development of integrated 
technology plans. One program that highlights the potential synergy 
gained between the pillars is the Responsive Access, Small Cargo, 
Affordable Launch (RASCAL) DARPA program. RASCAL is a program that 
combines a high speed air breathing first stage, with rocket-based 
upper stages, and a small responsive satellite to demonstrate a 
reusable, affordable, responsive space access system. RASCAL is a five 
year program to demonstrate the feasibility of coupled high speed/
hypersonic flight, affordable access to space and small payload 
systems. Beyond RASCAL, extensive collaborations have occurred in 
research and development in all three areas. Through a series of 
workshops convened by DOD and NASA, which were followed by input from 
outside the government, detailed goals, objectives, technical 
challenges and approaches were developed.
    NAI supports many important continuing programs such as the 
Integrated High Performance Turbine Engine Technology (IHPTET)/
Versatile Affordable Advanced Turbine Engines (VAATE) projects. VAATE 
is a successful collaborative program that started in 1988, and 
involved DOD, NASA, and industry to have a long-term, focused research 
program to improve turbine engine technology. IHPTET is currently 
developing a common core to be used in the various commercial and 
military engines. The industry match has been an important component of 
the in IHPTET program. This turbine engine technology development is 
essential to many future government and commercial aerospace systems.
    Each of the three pillars has significant activity. For high speed/
hypersonic flight, the Hypersonic Flight Demonstration Program, known 
as HyFly, is a jointly funded program by DARPA and Office of Naval 
Research. The objective of HyFly is to develop and demonstrate, in 
flight, advanced technologies for hypersonic flight with near-term 
emphasis on a missile application. The HyFly hypersonic strike missile 
demonstrator vehicle is powered by a Dual Combustion Ramjet (DCR) 
engine. A DCR engine performance at Mach 6.5 was demonstrated on a 
full-scale model in freejet testing at NASA Langley Research Center in 
2002. Its first powered flight in the atmosphere is expected in 
approximately one year.
    Another example of an advanced prototype hypersonic missile is the 
Single Engine Demonstration (SED). SED will integrate the United States 
Air Force Hypersonic Technology (HyTech) engine with air vehicle 
technologies developed by Defense Advanced Research Projects Agency. 
The project involves government, industry, and academic hypersonic 
researchers and builds on previous DOD-NASA efforts. This exciting new 
demonstration will be flight tested by the end of the decade. The 
flight vehicle will be propelled by a hydrocarbon supersonic combustion 
ramjet (scramjet), and should ultimately achieve a Mach 7 to 8 flight. 
Success of HyFly and SED could enable a new aviation flight regime, 
historically analogous to the revolutionary introduction of the jet 
engine to propeller-driven aircraft.
    The second area of significant collaboration is in our access to 
space access pillar. A long-term government/industry effort for 
advancing rocket propulsion is the Integrated High Payoff Rocket 
Propulsion Technology (IHPRPT) program. The IHPRPT is a three phase, 
15-year national program to double space/missile propulsion capability, 
decrease cost and increase reliability by 2010, using government-
industry partnership. A key element under IHPRPT is the joint NASA-Air 
Force project called the Integrated Powerhead Demonstration (IPD), 
which should culminate in the completion of engine testing at NASA's 
Stennis Space Center in 2005. Four successful component demonstrations 
have occurred in the past 18 months. This new liquid engine cycle 
should enable a 25 percent increase in rocket engine reliability, a 
200-mission life for the engine, and a reduction in maintenance time 
and cost. The DOD-NASA cooperation, leading to the IPD full-flow cycle 
engine, should result in enhanced reusable and expendable space vehicle 
propulsion.
    Another program which is jointly funded by DARPA and the Air Force 
is known as FALCON (Force Application and Launch from CONUS). FALCON is 
a new program to develop a Small Launch Vehicle (SLV), a Common Aero 
Vehicle (CAV), and a Hypersonic Cruise Vehicle (HCV). An initial goal 
is a rocket boosted glide vehicle capable of delivering 1,000 pounds at 
a distance of 3,000. Initial phases of FALCON are on-going and will 
demonstrate the aerodynamic properties of the flight vehicles. This 
program is envisioned to mature to a hypersonic glide plane capable of 
delivering 12,000 lbs. over 9,000 miles. Thus, the FALCON program 
should demonstrate and validate in-flight technologies that should 
enable both a near-term and far-term capability to execute time-
critical, prompt global reach missions while at the same time, 
demonstrating affordable and responsive space lift.

Space Science and Technology Strategy

    The National Defense Authorization Act for Fiscal Year 2004 
requires that the Secretary of Defense develop, implement and, annually 
review and revise a space science and technology (S&T) strategy. As the 
Director of Defense Research and Engineering, I am charged to jointly 
develop and implement this strategy with the Under Secretary of the Air 
Force, who is the Department of Defense's Executive Agent for Space. 
The space S&T strategy is focused on short-term and long-term goals 
within the Department, the process of achieving these goals, and the 
process for assessing these goals. We are actively working with the 
Department's research laboratories and the Defense Advanced Research 
Projects Agency (DARPA), National Reconnaissance Office (NRO) and 
Missile Defense Agency (MDA) through a space S&T strategy team to 
develop and implement this strategy. This Space Science and Technology 
Strategy will be incorporated in the National Security Space Plan.

Conclusion

    The Department of Defense and NASA research and development 
programs support building the technology base to enable future 
capabilities. Since the days of Chuck Yeager and the National Advisory 
Committee for Aeronautics (NACA) X-1 that broke the sound barrier, the 
DOD has conducted a broad range of cooperative and collaborative 
programs with NACA now known as NASA. Recently, the National Aerospace 
Initiative technology plans have provided integrated technology 
roadmaps, and outlined the requisite investments to enable critical 
military and civil capabilities. We are excited about the synergies 
that can be derived as we work collaboratively to achieve our common 
science and technology goals and transformational objectives.

                      Biography for Ronald M. Sega

    The Honorable Ronald M. Sega, Director of Defense Research and 
Engineering (DDR&E), is the chief technical advisor to the Secretary of 
Defense and the Under Secretary of Defense for Acquisition, Technology, 
and Logistics (USD-AT&L) for scientific and technical matters, basic 
and applied research, and advanced technology development. Dr. Sega 
also has management oversight for the Defense Advanced Research 
Projects Agency (DARPA). [Defense Research and Development official 
functions]
    Dr. Sega has had an extensive career in academia, research, and 
government service. He began his academic career as a faculty member in 
the Department of Physics at the U.S. Air Force Academy. His research 
activities in electromagnetic fields led to a Ph.D. in Electrical 
Engineering from the University of Colorado. He was appointed as 
Assistant Professor in the Department of Electrical and Computer 
Engineering at the University of Colorado at Colorado Springs in 1982. 
In addition to teaching and research activities, he also served as the 
Technical Director of the Laser and Aerospace Mechanics Directorate at 
the F.J. Seiler Research Laboratory and at the University of Houston as 
the Assistant Director of Flight Programs and Program Manager for the 
Wake Shield Facility. Dr. Sega became the Dean College of Engineering 
and Applied Science, University of Colorado at Colorado Springs in 
1996. Dr. Sega has authored or co-authored over 100 technical 
publications and was promoted to Professor in 1990. He is also a Fellow 
of the Institute of Electrical and Electronic Engineers and the 
Institute for the Advancement of Engineering.
    In 1990, Dr. Sega joined NASA, becoming an astronaut in July 1991. 
He served as a mission specialist on two Space Shuttle Flights, STS-60 
in 1994, the first joint U.S. Russian Space Shuttle Mission and the 
first flight of the Wake Shield Facility, and STS-76 in 1996, the third 
docking mission to the Russian space station Mir where he was the 
Payload Commander. He was also the Co-Principal Investigator for the 
Wake Shield Facility and the Director of Operations for NASA activities 
at the Gagarin Cosmonaut Training Center, Russia, in 1994-95.
    Dr. Sega has also been active in the Air Force Reserves. A Command 
Pilot in the Air Force with over 4,000 hours, he has served in various 
operational flying assignments, including a tour of duty as an 
Instructor Pilot. From 1984 to 2001, as a reservist assigned to Air 
Force Space Command (AFSPC), he held positions in planning analysis and 
operational activities, including Mission Ready Crew Commander for 
satellite operations--Global Positioning System (GPS)--Defense Support 
Program (DSP), and Midcourse Space Experiment (MSX), etc. He was 
promoted to the rank of Major General in the Air Force Reserves in July 
2001.

    Chairman Rohrabacher. Thank you very much. And I have some 
questions for you when we get back--or get past our final 
witness, which is--who is, I might say, Elon Musk, the CEO of 
SpaceX, an entrepreneurial launch company developing a new 
family of rockets. He is speaking to us on a video link from 
Los Angeles Air Force Base. And we welcome you, Mr. Musk, and 
you may proceed.

  STATEMENT OF MR. ELON MUSK, CHIEF EXECUTIVE OFFICER, SPACE 
                    EXPLORATION TECHNOLOGIES

    Mr. Musk. Thank you, Mr. Chairman. I hope you can hear me 
okay.
    It is an honor to be here with Admiral Steidle, Bob 
Dickman, Dr. Sega, and Ms. Poniatowski, I guess in the question 
period.
    It is common knowledge that the U.S. launch industry is 
noncompetitive. An appropriate comparison is the U.S. auto 
industry of the 1970s, prior to entry of the Japanese. However, 
that would be quite generous. At no point during that period 
did General Motors decide, as Boeing has recently done, that 
they would only service government customers.
    In the case of launch vehicles, the noncompetitiveness is 
so great that SpaceX is confident of not just a significant 
improvement in reliability, but also of maintaining a several 
fold price reduction. Hopefully, this will stimulate the other 
three U.S. launch vehicle companies to reexamine their 
processes, as GM and Ford did in their time, and provide a 
better and lower cost product to their customers.
    I am also optimistic that the success of SpaceX will result 
in other entrepreneurial companies entering the space business, 
both in launch and the manufacture of lower cost spacecraft. 
Some look at the cost of launch and comment that it only 
represents a portion of the total mission cost. This is a very 
naive conclusion. In fact, it all starts with launch. If you 
are paying $5,000 a pound for something in orbit, you will 
naturally pay up to $5,000 a pound to save weight on your 
satellite, creating a vicious circle of cost inflation.
    The result is a cost impedance match between the spacecraft 
and the launch vehicle, but it is driven by the launch vehicle. 
If you could launch for much lower cost and manifest quickly, 
that satellite would cost a lot less. A case example is TacSat-
1, the DOD satellite on the maiden flight of Falcon I.
    The benefits and risks for the U.S. launch industry of 
NASA-DOD collaboration, the most significant would be automatic 
cross-certification of a new launch vehicle. If a launch 
vehicle is found to be satisfactory for a DOD satellite, then 
it should be satisfactory for NASA, and vice versa.
    That is currently not the case. For example, the Boeing 
Delta IV and Lockheed Atlas V have had to undergo separate DOD 
and NASA on-ramp processes. The result is greater expense to 
the taxpayer and those companies. SpaceX is in a similar 
position where we are undergoing a DOD review of our Falcon 
launch vehicle by the Aerospace Corporation, but will later 
have to repeat the process for NASA.
    The biggest risk to launch vehicle development from NASA-
DOD collaboration would be excessive requirements accumulation, 
as occurred with the Space Shuttle. In my experience, having 
personally developed extremely complex technology systems, it 
is critical that the number of people determining requirements 
be kept very small and consist of only the most talented and 
experienced personnel. Otherwise, one may be faced with 
requirements that are easily addressed individually, but not 
combined. Asking that a product serve as either a floor wax or 
a dessert topping is fine, but not both at the same time. It 
won't be a tasty dish.
    Recommendations for how NASA and the DOD can support 
emerging U.S. launch companies. Okay. Number one, buy an early 
launch. Although our launch vehicle has been an entirely 
private development, the DOD has been very supportive by 
purchasing the first flight. Here we would like to express our 
thanks to Air Force Space Command, the Force Transformation 
group in the Office of the Secretary of Defense, and the Naval 
Research Laboratory. Our country should be proud of those 
organizations and what they are doing to strengthen our 
capabilities in space.
    To date, there has been limited dialogue with SpaceX 
initiated by the launch vehicle procurement office of NASA. 
This may be a function, historically, of the Code M office 
believing that they have no mandate to foster new U.S. launch 
providers. We recommend that this be established as an explicit 
goal and that NASA offer to buy the first, or at least an early 
launch, of a new vehicle. A promising sign is the funding 
allocation in the proposed NASA budget, referred to as the 
Small Payload Launch Initiative.
    All right. Number two, streamline the regulatory process. 
Obtaining approval to launch from the government ranges is a 
very complex process. Once SpaceX has completed this process 
for the Falcon, we will work with the Air Force to provide 
recommendations for how it can be streamlined for other 
emerging launch providers. This will not benefit SpaceX, as we 
already will have had our approval. We will do it simply 
because it is a good thing for our country, and the cause of 
space exploration will be greater served.
    Number three, increase and extend the use of prizes. The 
strategy of offering prizes for achievements in space 
technology can pay enormous dividends. History is replete with 
examples of prizes spurring great achievements, such as the 
Orteig Prize, famously won by Charles Lindbergh, and the 
longitude prize for ocean navigation. The subjectivity and 
error of proposal evaluation is removed, and the solution may 
be, in a way and from a company, that no one ever expected. We 
strongly endorse and urge Congress to support and extend the 
proposed Centennial Prizes put forward in the recent NASA 
budget. No dollar spent on space research will yield a greater 
value for the American people than those prizes.
    What unique capabilities might emerging launch providers 
offer to NASA and the DOD? Well, number one, reliability. 
Current launch vehicles are considered to be ``reliable'' if 
their failure rate is only one in fifty. In any other mode of 
transport, this would be considered outrageously unreliable. 
New companies might ultimately provide reliability levels more 
comparable with airline transportation.
    In the case of SpaceX, we believe that our second-
generation vehicle, in particular, the Falcon V, will provide a 
factor of ten improvement in propulsion reliability. Falcon V 
will be the first U.S. launch vehicle since the Saturn V Moon 
rocket that can complete its mission even if an engine fails in 
flight, like almost all commercial aircraft.
    Number two, cost. Citing an inability to sell rockets 
commercially, the incumbent launch providers are dramatically 
increasing their prices, forcing NASA and the DOD to do fewer 
missions while paying more and more. The effect is material, 
severe, and gets worse every year. For a given budget, this 
obviously results in being forced to cancel missions that might 
otherwise have flown. Apart from public relations, there is no 
practical difference between a mission that was canceled for 
cost reasons and one that failed for other reasons. Either way, 
you have lost the mission.
    In contrast, the SpaceX launch vehicles are commercially 
competitive worldwide in price and are only a fraction of the 
cost of our U.S. competitors. Moreover, we expect to decrease 
our prices in real, if not absolute terms every year.
    Factoring in overhead, as anyone could tell by visiting our 
headquarters, SpaceX can provide a launch vehicle at half the 
price of both Boeing or Lockheed. We have made significant 
strides in each of the technical cost drivers, which I would be 
happy to address in the question period.
    Number three, responsiveness. If space assets are needed to 
cover a particular geography or replace an unexpected loss of 
coverage, they can not be deployed in time with the existing 
launch providers. Emerging launch vehicle companies can 
provide, and dramatically improve, response time.
    Four, flight environment. Existing rockets provide a 
terrible flight environment for satellites that is extreme in 
noise, vibration, shock, and g loading. These factors drive 
much of a satellite's design, despite the fact that it sees 
these loads for only the first 10 to 15 minutes required to 
reach orbit. For the remaining years of life, being in 
microgravity, the satellite sees essentially zero load.
    New launch vehicles, like the Falcon, provide a much better 
flight environment, thus making the satellite design easier and 
the satellite itself more likely to reach orbit.
    Thank you.
    [The prepared statement of Mr. Musk follows:]
                    Prepared Statement of Elon Musk

How would you characterize the state of the U.S. space launch industry?

    It is common knowledge that the U.S. space launch industry is 
fundamentally uncompetitive. An appropriate comparison one could draw 
is the U.S. auto industry of the 1970's, prior to entry of the 
Japanese. However, that would be quite flattering. At no point during 
that period did General Motors decide, as Boeing has recently done, 
that they would only service government customers.
    One must be cautious, therefore, in reaching launch vehicle 
economics conclusions that are based on historical U.S. costs. What the 
reliability and price of launch should be cannot be determined by 
looking at Boeing and Lockheed, any more than one could properly draw 
conclusions about automobile reliability and pricing by looking at a 
1975 Pinto or Cadillac.
    Please note that I emphasize and place reliability ahead of price. 
The Japanese automobiles, especially in the 1980's with the adoption of 
total quality management techniques, were not just lower cost, but also 
of much greater reliability. The latter was arguably a bigger 
determinant of their success than price.
    In the case of launch vehicles, the level of uncompetitiveness is 
so great that we at SpaceX are confident of not just a significant 
improvement in reliability, but also of establishing and maintaining a 
several fold price reduction. Hopefully, this will stimulate the other 
three U.S. launch vehicle companies to re-examine their processes, as 
GM and Ford did in their time, and provide a better and lower cost 
product to their customers.
    I am also optimistic that the success of SpaceX will result in 
other entrepreneurial companies entering the space business, both in 
launch and the manufacture of lower cost spacecraft. Some look at the 
cost of launch and comment that it only represents a portion of the 
total mission cost. This is a very naive conclusion. In fact, it all 
starts with launch cost. If you are paying $5000/lb. to put something 
in orbit, you will naturally pay up to $5000/lb. to save weight on your 
satellite, creating a vicious circle of cost inflation.
    The result is a cost impedance match between the spacecraft and the 
launch vehicle, but it is driven by the launch vehicle. If you could 
launch for much lower cost and manifest quickly, instead of the two 
years advance notice required to launch in the U.S., that satellite 
would cost a lot less. A case example is TacSat-1, the DOD satellite on 
the maiden flight of Falcon I.

What are the benefits and risks for the U.S. domestic launch industry, 
including emerging U.S. launch vehicle providers, if NASA and the 
Department of Defense (DOD) collaborated more in the development and 
purchases of launch vehicles?

    The most significant benefit for the U.S. launch industry from 
greater NASA-DOD collaboration would be automatic cross-certification 
of a new launch vehicle. If a launch vehicle is found to be 
satisfactory for launch of a Department of Defense satellite, then it 
should be satisfactory for NASA and vice versa.
    That is currently not the case. For example, in the EELV program, 
both the Boeing Delta IV and Lockheed Atlas V have had to undergo 
separate DOD and NASA certification or on-ramp processes. The result is 
greater expense to the taxpayer and the aforementioned companies. 
SpaceX is in a similar position, where we are undergoing a DOD review 
of our Falcon launch vehicle by Aerospace Corporation, but will later 
have to repeat the process for NASA.
    The biggest risk to a launch vehicle development from NASA-DOD 
collaboration in a development program would be excessive requirements 
accumulation, as occurred with the Space Shuttle. In my experience, 
having personally developed extremely complex technology systems, it is 
critical that the number of people determining requirements be kept 
very small and consist of only the most talented and experienced 
personnel. Otherwise, one may be faced with requirements that are 
easily addressed individually, but not combined. Asking that a product 
serve as either floor wax or a dessert topping is fine, but not both at 
the same time.

What specific recommendations would you make for how NASA and the DOD 
can encourage the healthy growth of the U.S. domestic launch market, 
especially for emerging commercial launch providers?

Buy an Early Launch

    Although our Falcon launch vehicle has been an entirely private 
development, the DOD has been very supportive by purchasing the first 
flight. Here we would like to express our thanks to Air Force Space 
Command, the Force Transformation group in the Office of the Secretary 
of Defense and the Naval Research Laboratory. Our country should be 
proud of those organizations and what they are doing to strengthen our 
capabilities in space.
    To date, there has been limited dialogue with SpaceX initiated by 
the launch vehicle procurement office of NASA. This may be a function 
historically of the Code M office operating under the assumption that 
they have no mandate to foster new U.S. launch providers. We recommend 
that this be established as an explicit goal and that NASA offer to buy 
the first or at least an early launch of a new vehicle, even if only on 
a success contingency basis. A promising sign is the funding allocation 
in the proposed NASA budget referred to as the Small Payload Launch 
Initiative.

Streamline the Regulatory Process

    Obtaining approval to launch from the government ranges is a very 
complex and arduous process. Once SpaceX has completed this process for 
the Falcon I, we will work with the Air Force to provide a series of 
recommendations for how this can be streamlined, without sacrificing 
safety, for other emerging launch providers. Please note that this will 
not benefit SpaceX, as we will have already received our approval. We 
will do it simply because it is a good thing for our country and the 
cause of space exploration will be greater served.

Increase and Extend the Use of Prizes

    The strategy of offering prizes for achievements in space 
technology or launch vehicle development milestones can pay enormous 
dividends. We are beginning to see how powerful this can be by 
observing the recent DARPA Grand Challenge and the X-Prize. History is 
replete with examples of prizes spurring great achievements, such as 
the Orteig Prize, famously won by Charles Lindbergh, and the Longitude 
prize for ocean navigation.
    Few things stoke the fires of American creativity and ingenuity 
more than competing for a prize in fair and open competition. The 
result is an efficient Darwinian exercise with the subjectivity and 
error of proposal evaluation removed. The best means of solving the 
problem will be found and that solution may be in a way and from a 
company that no-one ever expected.
    We strongly endorse and urge Congress to support and extend the 
proposed Centennial Prizes put forward in the recent NASA budget. No 
dollar spent on space research will yield greater value for the 
American people than those prizes.

What unique capabilities do emerging launch vehicle providers, like 
SpaceX, provide to NASA and the DOD?

    The service of space transportation is defined by four variables: 
reliability, cost, responsiveness and payload environment. Emerging 
launch vehicle providers can provide breakthroughs in all areas.

Reliability

    Current launch vehicles are considered by NASA and the DOD to be 
``reliable'' if their failure rate is only one in fifty. In any other 
mode of transport, this would be considered outrageously unreliable. 
New companies might ultimately provide reliability levels more 
comparable with airline transportation.
    In the case of SpaceX, we believe that our second generation 
vehicle in particular, the Falcon V, will provide a factor of ten 
improvement in propulsion reliability. Falcon V will be the first U.S. 
launch vehicle since the Saturn V Moon rocket that can complete its 
mission even if an engine fails in flight--like almost all commercial 
aircraft. In fact, Saturn V, which had a flawless flight record, was 
able to complete its mission on two occasions only because it had 
engine out redundancy.

Cost

    Citing an inability to sell rockets commercially, the incumbent 
launch vehicle providers are dramatically increasing their prices, 
forcing NASA and the DOD to do fewer and fewer missions while paying 
more and more. The effect is material, severe and gets worse every 
year. For a given budget, this obviously results in being forced to 
cancel missions that might otherwise have flown. Apart from public 
relations, there is no practical difference between a mission that was 
canceled for cost reasons and one that failed for other reasons. Either 
way, you have lost the mission.
    In contrast, the SpaceX launch vehicles are commercially 
competitive worldwide in price and are only a fraction the cost of our 
U.S. competitors. Moreover, we expect to decrease our prices in real, 
if not absolute, terms every year.
    Launch vehicle pricing is driven by five factors: company overhead, 
engine costs, airframe costs, avionics costs and launch operations 
(including payload integration and range costs). Factoring in overhead 
alone, as anyone could tell by visiting our headquarters, SpaceX can 
produce a launch vehicle at half the price of Boeing or Lockheed. We 
have also made significant strides in each of the technical cost 
drivers, although time does not allow me to address each in detail. I 
would be happy to do so in the question period.

Responsiveness

    The minimum time from contract signing to launch for incumbent U.S. 
launch companies is approximately two years. For the DOD in particular, 
this means a very constrained ability to respond quickly to threats as 
they develop. If space assets are needed either to cover a particular 
geography or replace an unexpected loss of coverage, they cannot be 
deployed in time. Emerging launch vehicle companies, like SpaceX, will 
provide a response time measured in months or weeks.

Payload Flight Environment

    Existing rockets provide a terrible flight environment for 
satellites that is extreme in noise, vibration, shock and g-loading. 
These factors drive much of a satellite's design, despite the fact that 
it only sees these loads for the 10 to 15 minutes required to reach 
orbit. For the remaining years of life, being in microgravity, the 
satellite sees essentially zero load.
    New launch vehicles, like the Falcon, provide a much better flight 
environment, thus making the satellite design easier and the satellite 
itself more likely to reach orbit safely.

                        Biography for Elon Musk

    SpaceX is the third company founded by Mr. Musk. Prior to SpaceX, 
he co-founded PayPal, the world's leading electronic payment system, 
and served as the company's Chairman and CEO. PayPal has over twenty 
million customers in 38 countries, processes several billion dollars 
per year and went public on the NASDAQ under PYPL in early 2002. Mr. 
Musk was the largest shareholder of PayPal until the company was 
acquired by eBay for $1.5 billion in October 2002.
    Before PayPal, Mr. Musk co-founded Zip2 Corporation in 1995, a 
leading provider of enterprise software and services to the media 
industry, with investments from The New York Times Company, Knight-
Ridder, MDV, Softbank and the Hearst Corporation. He served as 
Chairman, CEO and Chief Technology Officer and in March 1999 sold Zip2 
to Compaq for $307 million in an all cash transaction.
    Mr. Musk's early experience extends across a spectrum of advanced 
technology industries, from high energy density ultra-capacitors at 
Pinnacle Research to software development at Rocket Science and 
Microsoft. He has a physics degree from the University of Pennsylvania, 
a business degree from Wharton and originally came out to California to 
pursue graduate studies in energy physics at Stanford.

                               Discussion

         NASA's Policies Toward the Use of New Launch Vehicles

    Chairman Rohrabacher. Thank you very much, Mr. Musk.
    And we will have some questions now. I would like to ask--
first of all, thank you to all of the witnesses for their 
testimony, of course, but before we proceed, I would like to 
ask Ms. Karen Poniatowski to come to the witness table. And as 
NASA's Assistant Associate Administrator for Launch Services, 
she will be joining the Admiral in answering some of these 
questions. And of course, the first question, which I will pose 
to both of you, is NASA's. What we have heard today, especially 
from Mr. Musk just there, is that current NASA policy forbids 
NASA to contract for launch services unless the type of rocket 
being used has performed at least one successful flight. NASA's 
policy was put in place in the mid-1990s after several rockets 
failed.
    Now we have heard that the DOD does not have this same 
policy. And in fact, Mr. Musk, who has spent a considerable 
amount of his own money, has been investing in a new rocket 
system, because he is being given the opportunity by the 
Department of Defense. Now shouldn't NASA be providing this 
same sort of incentive for people like Mr. Musk to invest their 
money into launch systems? And you may answer those questions.
    Rear Admiral Steidle. Yes, sir. Thank you. Yes, you are 
accurate. That is the policy. What we have launched is 
generally one-of-a-kind, significant investment, and Karen was 
here when that policy was put together, so she is going to 
extrapolate from here on where and why we are doing that.
    Ms. Poniatowski. Yeah. Thank you for the opportunity, Mr. 
Rohrabacher and Committee, to sort of address some of these 
issues, particularly with the emerging companies. I followed 
the small launch companies for, I hate to say it, almost 20 
years now. I started when I was very, very young.
    Mr. Musk. I am having a problem. It is very difficult to 
hear unless you speak directly to the mike.
    Ms. Poniatowski. Okay. Is that better?
    Mr. Musk. Yes, that is much better. Thank you.
    Chairman Rohrabacher. All right. Go right ahead.
    Ms. Poniatowski. Okay. And so what we have been watching is 
an ebb and flow in this particular market class. If you go back 
to the early '90s, you will see, with DARPA, they developed an 
emerging launch capability that was Orbital Science's Pegasus, 
and it had some initial start-up failures but then became a 
very robust, reliable system. In the mid-'90s, NASA sponsored 
and did fly on the first and only launch of the Conestoga 
commercial launch vehicle. Unfortunately, that ended in 
failure. We flew on the first of the Athena I launch vehicles 
after their first test flight was a failure. We flew the first 
Athena II mission, and so we do, indeed, have a history of 
flying on vehicles with no flight history.
    Chairman Rohrabacher. That--does that cost NASA a lot of 
money to do that, is that why the policy changed?
    Ms. Poniatowski. No, not at all. What the policy actually 
did is it tried to say, ``We need to take flight history into 
consideration.'' The actual policy allows us to fly payloads 
with no--to fly on vehicles with no flight history. What has 
happened--what we did is we set up a process that identified 
payloads that had the level of risk that could tolerate a first 
flight with a new vehicle, missions that needed at least one 
flight, and those high-value kinds of missions that needed a 
more demonstrated flight history as one of the conditions when 
we looked at making a mission assignment.
    What has happened is, over the past few years, we don't 
have many requirements that have been able to tolerate that 
risk, and in tandem with that, as we have worked with the 
emerging community of which, at any given time, there is nine 
to ten different entities that would like to enter the rocket 
business, we have seen an influx of international capability in 
the small class that has really hurt the domestic capability in 
that market niche. And that really has been the biggest threat 
that we have seen for some of the emerging companies not being 
able to get access. There is not a lot of demand. On average, 
NASA's requirements in this class run one to two flights per 
year. The DOD is in a similar position, so the overall demand 
is not particularly robust in this kind of a class. But we do 
look forward to working with vehicles, companies like SpaceX. 
We have met with Elon a number of occasions.
    The other is NASA is--will not be able to be the first 
launch on Falcon since the DOD got there first, but we do have 
a small technology payload, Spacetech VI, which had been 
planning to fly as an instrument on a commercial bus team 
encounter, they had been looking at making arrangements for a 
launch, and they are subsequently now, I believe, in 
discussions with Mr. Musk on flying that----
    Chairman Rohrabacher. Okay. Well, let me get this straight 
in what we are saying here. You are suggesting that there has 
not been a policy of no first use, but that you judge--you are 
making judgments based on risk----
    Ms. Poniatowski. Right.
    Chairman Rohrabacher.--and you just haven't found one yet, 
or have you found one that I don't know about, that is worth 
the risk?
    Ms. Poniatowski. And as I said, the Spacetech VI, the 
current payload we are discussing right now----
    Chairman Rohrabacher. Correct.
    Ms. Poniatowski. Correct.
    Chairman Rohrabacher. Correct. But over the last, what, 
five or 10 years, that has not been the case.
    Ms. Poniatowski. That is correct.
    Chairman Rohrabacher. Okay. So this is the first one in how 
many years?
    Ms. Poniatowski. 1997.
    Chairman Rohrabacher. All right. So about six or seven 
years now.
    Ms. Poniatowski. Yeah, we did have--I think you are 
familiar with the University Explorer program. And those were 
small payloads we were trying to look at in that capability. It 
ended up, at that point, there weren't any small launch 
vehicles, so we flew those as half of the Pegasus----
    Chairman Rohrabacher. How many satellites do we have 
waiting to be launched?
    Ms. Poniatowski. In this payload class, on average, about 
one to two per year.
    Chairman Rohrabacher. Okay. How many do we have waiting now 
to be launched?
    Ms. Poniatowski. I don't have any that aren't tied to a 
mission vehicle. I have none pending.
    Chairman Rohrabacher. Okay. There are no pending satellites 
of this class that need a transportation system?
    Ms. Poniatowski. Not that aren't assigned right now.
    Chairman Rohrabacher. Okay. Because all of these other 
satellites that are waiting are larger satellites that are----
    Ms. Poniatowski. Right. Correct. Yeah, we have got some 
that we are starting to look at new missions downstream, but 
right now, the missions we have are manifested on a vehicle 
today.
    Chairman Rohrabacher. Okay. Mr. Musk, does that satisfy you 
and the private sector, that answer?
    Mr. Musk. If it were the--that the TMA counter satellites, 
I think we are working through that possibility of launch, and 
hopefully that works out. The sense I get though, and we can 
provide more detail on this outside of this forum, is that 
there are actually--that there are more satellites that wish to 
go up than one or two a year. And in particular, there were 
satellites and payloads and so forth that might otherwise have 
gone up on the Space Shuttle, which obviously could not go up 
on the Space Shuttle today, and even when it is flying, there 
is quite a backlog. So I----
    Chairman Rohrabacher. So there is a backlog? Now you are 
suggesting, is there a backlog of the smaller satellites that--
is that what you are saying?
    Mr. Musk. I--that is my understanding, yes.
    Chairman Rohrabacher. We have got a little contradiction 
here. How about that, Karen?
    Mr. Musk. That is my idea.
    Ms. Poniatowski. Yeah. There are instruments----
    Mr. Musk. The biggest distinction between satellites which 
are destined to go up by themselves and satellites which might 
otherwise have gone up as hitchhikers or as payloads on the 
Space Shuttle, which still need to go up, but are not 
considered distinct travels by themselves.
    Chairman Rohrabacher. All right. Let me see----
    Ms. Poniatowski. Yeah.
    Chairman Rohrabacher. Let me get to the heart of that 
matter. Were you just referring to all satellites or are you 
referring to just the ones that aren't going to be hitchhiking? 
I mean, are there satellites that are small satellites that 
were going up on the Shuttle that you weren't counting?
    Ms. Poniatowski. Yeah. The difference is when you fly an 
expendable launch vehicle, it means that you bring with you a 
bus that has your power, your resources to be able to deploy 
that spacecraft and then use it in space. Many--most of the 
payloads that we flew as secondaries on the Shuttle, they take 
their power from the Shuttle, and so you can't transpose 
something like the gascan payloads that we fly, those are on a 
one for one transfer to be able to say you are going to fly on 
an expendable space vehicle.
    Chairman Rohrabacher. So these satellites that Mr. Musk is 
referring to----
    Ms. Poniatowski. Right.
    Chairman Rohrabacher.--are not satellites that a rocket 
that he is developing could put into space?
    Ms. Poniatowski. Not without an additional reformatting of 
those payloads. Some of them need to be returned. Some of those 
payloads need to have intervention; they need a switch turned 
on or off. And these types of payloads have tended to be very 
small, 50-kilogram types of payloads.
    Chairman Rohrabacher. Um-hum.
    Ms. Poniatowski. In the case of gas, you have got 
predominately university community in that the payload value--
what they do is they basically pay us $50,000 for that kind of 
a----
    Chairman Rohrabacher. And that has to be all done on the 
Shuttle you are suggesting?
    Ms. Poniatowski. Correct.
    Chairman Rohrabacher. Is that your understanding, Mr. Musk, 
that all of these things have to be done on the Shuttle?
    Mr. Musk. Well, they have basically been intended for the 
Shuttle, and in some cases you get satellites which are 
relatively self-contained, and in some cases, they are more 
sort of instruments, but there is still that need that exists 
for them to go to space. And the Shuttle is not going to be 
able to meet that need, which I think, therefore, points one in 
the direction of adding the necessary functionality to those 
payloads--to those satellites as such that they can be launched 
on something like the Falcon I or other launch vehicles, 
because the alternative is that nothing happens to them and 
they stay on Earth.
    Chairman Rohrabacher. I think--well, why don't we give 
Karen the last word for this one?
    Ms. Poniatowski. Yeah, and that is why what the agencies 
put forward is the new Payload Launch Initiative, which is 
allowing us to put some money in the budget to start looking at 
some of these new flight opportunities that may arise, again, 
and partnering with both DARPA and with the Air Force Space 
Test Program, ways that we might be able to join some of these 
and do some joint missions and fly some of those payloads. That 
is why, as we have been retiring the capability on the Shuttle, 
we are looking at can we prime the pump, so to speak, and make 
some opportunities for some of these missions.
    Chairman Rohrabacher. I would like to end this part of the 
discussion, and then I will go to Mr. Lampson, with a general. 
It seems like the Air Force is willing to do this, but we are 
not willing--we are not getting much response from the Navy and 
NASA here. What----
    Major General Dickman. Well, if the Navy doesn't launch 
their own----
    Chairman Rohrabacher. I am sorry. I shouldn't blame the 
Admiral for the Navy. I should just--you are in NASA now, 
Admiral.
    Major General Dickman. The unwritten policy of the DOD is 
not particularly different than the one NASA uses. We judge the 
material of the launch vehicle and the mission criticality of 
the payload. For example, the first heavy-lift EELV, Delta IV, 
will fly without a payload, because we are going to do a 
demonstration flight. We weren't willing to fly that vehicle 
with a payload on it. So we make the same assessment that Karen 
and her team often does, and then chose to fly a demonstration.
    Chairman Rohrabacher. But for a smaller payload, you have 
been willing to be a lot more----
    Major General Dickman. That is correct. It is----
    Chairman Rohrabacher.--courageous.
    Major General Dickman. It is a great demonstration of both 
a launch vehicle and a responsive spacecraft that is worth the 
risk.
    Chairman Rohrabacher. All right. Mr. Lampson. And there 
will be a second round of questions.

      Impacts of the President's Space Exploration Initiative on 
                     NASA's Space Launch Initiative

    Mr. Lampson. Admiral Steidle, one of the results of the 
President's space initiative is that NASA has decided to 
terminate the Space Launch Initiative, including the Next 
Generation Launch Technology Program and a number of advanced 
rocket engine R&D programs have been terminated. And the 
funding intended for hypersonics R&D is being shifted to the 
exploration systems activity. As I understand it, a number of 
the activities undertaken in the Space Launch Initiative 
represented NASA's contribution to the joint NASA-DOD National 
Aerospace Initiative.
    Last year's budget request stated that NASA's Space Launch 
Initiative ``insures America's superiority on the space 
frontier in both conventional rocket and air-breathing 
hypersonics technology fields.'' And it also cited, as 
accomplishments, that NASA had officially established the 
rocket-based combined cycle and X-43C projects. So what are 
NASA's plans for the RBCC and the X-43C projects?
    Rear Admiral Steidle. Yes, sir. Your statement is correct, 
sir, but we--the Space Launch Initiative has not been 
terminated, it has been kind of modified and transferred into 
the Transportation Systems. We have taken the Orbital Space 
Plane and the NGLT, the Next Generation Launch Technology, and 
have taken the lessons learned and the concepts and the pieces 
of those particular programs as the starting point and the 
baseline for our exploration program, which is the CEV systems 
of systems pieces of it.
    Part of the NGLT piece, as you correctly pointed out, was 
the hypersonics piece. I did a technology assessment of a 
number of programs, 140 programs total, and those different 
pieces were in there as well as we made the transition. There 
are several pieces that are going on and several of them that 
did not fit into where we are headed with exploration. The X-
43A program is a piece of that. We did a business case 
assessment of: does the demonstration of those particular 
capabilities meet our needs in exploration? And the answer came 
back yes, if we have a disciplined, demonstrated performance of 
one flight, second flight, third flight. If we meet those 
objectives in each one of the flights, the Office of 
Exploration Systems will continue to fund that program through 
demonstrated performance.
    We looked at NASA-unique technologies, and we made an 
agreement with the Office of Aeronautics that my particular 
Office of Exploration will fund the non-procurable pieces of 
that NASA-unique pieces for hypersonics study and development 
and that the Office of Aeronautics will fund the procurement 
pieces of that. So we continue on with that program in our 
commitment to hypersonics.
    There was a piece, the X-43 program. It did not fit our 
needs. The X-43C, it did not fit our particular needs at this 
particular point for an exploration systems development 
program, so it was, indeed, terminated. We shared that 
information as we went forward with the baseline assessment and 
the cost benefit analysis of that particular program, and it 
was, indeed, canceled. We are doing that throughout all of the 
programs and refocusing all of our tech maturation programs as 
we go forward in the exploration piece of it.
    Mr. Lampson. Is it an accurate statement to say that the 
funding that had been intended to follow the hypersonics work, 
such as the X-43C project, will be retained by the Exploration 
Systems Office and used to support other activities?
    Rear Admiral Steidle. Not exactly, sir. We--our funding was 
reduced $130 million last year and part of finding offsets for 
that reduction, the X-43 fit in that particular area.
    There were some other things that came out that I want to 
make sure I am aware of--make you aware of. In that program, 
also, is risk mitigation systems engineering development and 
some very, very fine work in the people in Marshall that we are 
bringing on to our program now. In fact, the director of the 
NGLT program, I have just selected him to be my deputy director 
for Transportation Systems. So besides the technology pieces of 
it, there is a wealth of experience in personnel that I am 
moving on, either actually physically moving to Washington or 
moving into these programs.
    Mr. Lampson. The--what is NASA's plan for the RS-84 
Reusable Rocket Engine Program?
    Rear Admiral Steidle. Sir, that did not fit at this 
particular time. I canceled that program. I called the 
contractor personally, the President of that company, and told 
him that that does not fit into the needs of our program at 
this particular time. I had him--he came to me, Byron Wood is 
the CEO of that particular company, and I sat down with him and 
said, ``This does not fit in our particular program at this 
time, and this is why, and this is what the business case 
analysis shows of that. However, Mr. Wood, I want you to 
participate in the program and continue on with the association 
with where we are headed in the future.'' And he has agreed, 
and he is pursuing that.

         NASA Contribution to the National Aerospace Initiative

    Mr. Lampson. What specific projects, if any, will NASA be 
contributing to the joint NASA-DOD National Aerospace 
Initiative?
    Rear Admiral Steidle. There are three sections of that. On 
the hypersonics side, we are going to continue on to fund the 
X-43 demonstration through its second, and possibly, its third 
flight for demonstration of the Mach 10. We will fund the NASA-
unique pieces of hypersonics work, and that is mainly personnel 
that are supporting the interfaces with the NAI. And I hope to 
increase the emphasis on the other two pillars of NAI, that 
being space access and space technology pieces of it.
    Mr. Lampson. Thank you. Dr. Sega, what do you understand 
that NASA's future role will be in the National Aerospace 
Initiative?
    Dr. Sega. As we formed the technology roadmaps, and that 
was a detailed process from a technology perspective, and it 
went from goals, objectives, technical challenges, approaches, 
and tasks, there was an understanding that they needed to fit 
within the programmatic requirements and strengths of the 
organization. So we have outlined the participation of all--of 
the partners and the organizations in each of these areas. Now 
we are not sure, at this point, how the details and the 
programs will continue forward by NASA in these three areas. We 
anticipate that the collaboration will be there where it 
continues to make sense. In the areas where we had anticipated 
NASA participation, such as the work in some of the hypersonics 
work, we will continue our hypersonics research and 
development. It will go at a bit slower pace and will have a 
bit of an increased risk, but our program will continue.
    Mr. Lampson. Thank you.

               Future of Space Launch Initiative Projects

    I would like to request that NASA provide a list of all of 
the previously planned Space Launch Initiative projects and 
what NASA's intentions--what NASA intends to do with each, 
including the consequences for both the civil service and 
contractor personnel. If we could have that----
    Rear Admiral Steidle. Yes, sir.
    Mr. Lampson.--done at some point, I would appreciate it.
    And I would yield back my time, Mr. Chairman.
    Chairman Rohrabacher. Mr. Lampson, if I could make a 
recommendation; put that request in writing and that you copy 
my office, because I want to tell you that I have seen so many 
Members over the years make requests and it just never happens. 
Now I am sure that the Admiral is new to his job, and every 
time he gets a request from Congress like this, he is going to 
make sure that the answer--that the questions are answered, but 
I think that we ought to just have a policy from now on, 
whenever we are asking members of the Administration, we put it 
in writing and we hold people to get answers to our questions.
    Mr. Lampson. I would be happy to do that, Mr. Chairman.
    Chairman Rohrabacher. All right. Thank you very much.
    And Mr. Feeney from Florida, who is, of course, the 
energetic representative from that part of Florida who serves 
as our launching area for America's space program. You may 
proceed.
    Mr. Feeney. Thank you, Mr. Chairman. And some days I have 
more energy than others, but as you pointed out, the Space 
Coast blends the NASA Civilian Launch System. We have got the 
commercial launch facilities, and we have got, of course, Air 
Force launch facilities, as well. I think, as General Dickman 
notes, because of your--when you handled that command of the 
45th Space Wing, there are some times that the artificial 
boundaries that we create between those three launch facilities 
sometimes create some difficulties in coordinating amongst the 
three different launch facilities. Sometimes they have 
historically impeded cooperation, although we have had some 
successes. And I am glad that there is a reemphasis on not just 
the relationship between NASA and DOD, but also, obviously, 
NASA and the private facilities, and not just Lockheed and 
Boeing that have a significant presence in the Space Coast, but 
also Mr. Musk's and other, you know, entering facilities out 
there. So I am very grateful that we are having this hearing 
today.

            National Security Interests in Space Exploration

    I wanted to ask the panel, in general, two questions and 
then leave it to you to address them during my time. One is 
with respect, specifically, to President Bush's new proposal 
and vision for a future journey in space, and specifically as 
he talks about the United States' national security interests. 
What specific national security interests do you think that the 
mission that he has laid out, the journey for the future of 
NASA, need to be addressed? And as part of that, General 
Dickman, you have mentioned in your written remarks that there 
are certain areas that are unsuitable for sharing between the 
military and NASA. If you would sort of outline what they are 
and why it is unsuitable to have cooperation. I understand 
there is a need for secrecy, for example, but if you could be 
more specific and help me, in my mind, clarify the appropriate 
places where cooperation should not be expected.
    And then finally, I think Mr. Musk has a great 
recommendation that NASA and DOD find a way to adopt cross-
certification, where applicable, so that we don't have to have 
redundant hurdles in getting space flight either of the manned 
or unmanned side, especially in the commercial area, and 
obviously the regulatory burden that has made it very difficult 
for commercial entities to--and created a barrier for greater 
commercial growth in space. So if the panel would sort of 
address those two questions during my time, I would be 
grateful.
    Rear Admiral Steidle. I will start out with the vision, and 
we are in the process of defining our requirements. And there 
are not any specific requirements along those lines for 
national security investments and integration pieces of it, but 
I think the point is if--from my particular understanding of 
it, is perhaps if we go along, perhaps we develop our 
requirements in the Exploration Office for a time for 
rendezvous and docking capabilities or, perhaps, the remote 
sensing capabilities, those things may be applicable to other 
areas of technology maturation as well. Although we don't have 
anything specifically entailed, the collaboration is necessary 
so that we share these particular technology areas as we go 
forward.
    There were some examples that came out of the partnership, 
particularly in hyperspectral imagery. NASA had an EO-1 
satellite capability, and it was almost ready to be 
decommissioned or not to be used when, at the partnership, the 
exchange of information on the requirements showed that some 
other agency needed that capability, and it was passed on to 
that. So if we redeem this collaboration and we define the 
requirements to share our tech maturation programs, I think we 
will come up to some of those, although they aren't defined 
right from the start.
    Mr. Feeney. Well, also the infrastructure sharing, like the 
EELV, for example, and the capabilities.
    Major General Dickman. I think, Mr. Feeney, there is going 
to be an enormous benefit for the Department of Defense and the 
national security space community from the increased emphasis 
on space and the related technologies that will come from the 
exploration. Whether it is bringing young people through high 
school and college educations that are more focused on 
engineering to the specific technical base itself, we will 
benefit directly from that flow, that increased emphasis, that 
will be more like where we were in the 1960s and the 1970s than 
where we have been over the last 10 years.
    With respect to your specific question of where I think it 
would be inappropriate to share, the first, and most obvious, 
is where there is a direct application of technologies where 
the technology level we may be sharing to a weapon system. I 
refer, additionally, for example, the thermal protection 
systems where, at the basic materials level, we will work very 
closely with NASA, but as we extend that technology to, for 
example, nose cones on ICBMs, that is not NASA's business. It 
would be totally inappropriate for NASA to be involved in 
designing a nuclear weapon delivery system. That is what our 
job is. As we become more reliant on space in wartime, and 
certainly in Operation Iraqi Freedom. That was clear, not only 
to us, but to our adversaries. We will be far more concerned 
about both defending our own space assets and denying space 
capabilities to others if they choose to use them to attack the 
United States or threaten our interests. That is also not 
NASA's business, that is our business. And while we may have 
common science and technology, the translation of that into 
systems is one that is the responsibility of the Department, 
and not a shared collaboration with NASA.
    Third, and perhaps more vision in the future, but more real 
now, is military presence and a base on the Moon. It is 
prohibited by treaty. It is not our business to be doing that. 
It is NASA's challenge now from the President to go to Mars and 
go to the Moon, and so while we will assist as best we can at 
the launch pad and whatnot, there will be no military bases on 
the Moon. Those are three examples of where that translation 
from the shared programs to uniquely military or uniquely NASA, 
I think, are appropriate.
    Dr. Sega. I would--the segment about--what General Dickman 
said about the impact on the national security interests, with 
advancing technology, you gain benefits. You gain benefits from 
civil systems, from military systems. And the excitement and 
motivation for folks to pursue science and engineering 
education and leading to a more robust aerospace world would be 
a positive outcome of the increased excitement in this general 
area.

          NASA and DOD Cross-Certification of Launch Vehicles

    Rear Admiral Steidle. Karen has expertise in the cross-
certification piece.
    Ms. Poniatowski. Yeah. Mr. Feeney, what we have been doing, 
as a matter of fact, is working very closely between NASA and 
the DOD. Vehicles, such as the EELVs, we have a ``one 
government'' team that looks at the RD-180----
    Mr. Musk. I beg your pardon, again. I am sorry. I can't 
hear you at all.
    Ms. Poniatowski. I am sorry, Elon. Is that better?
    Mr. Musk. Yeah, that is much, much better.
    Ms. Poniatowski. Okay. I am sorry. I apologize.
    What we have done is, in the case of the RD-180 and the RL-
10, we have a one government approach where we are all read 
into and look at the same data at the same time. There are two 
parts to the certification: one is the generic how do you 
understand the vehicle, how do you understand how the systems 
work, and when failures happen, the correction of those; the 
other is that, for each mission you have, you go through a 
launch review to make sure that the mission overall, the 
changes you might have made and the vehicle you are actually 
flying, that it is going to have the highest probability of 
success. And so there are two different things. For when you 
own a mission and you are flying it, there is one set of 
certification that you do for flight readiness for that given 
mission, and then there is a more fleet-wide, consistent type 
of a work. And what we have been doing with the Air Force, in a 
very close partnership across all of the various vehicles, is 
working together on understanding that baseline understanding 
and anomaly resolution, so as we come to each individual 
launch, we are partnering off of what we have learned across 
the board.
    Chairman Rohrabacher. And Elon, would you like to 
contribute to this part of the questioning?
    Mr. Musk. You know, I apologize, cross-certification?
    Chairman Rohrabacher. We are talking about cross-
certification.
    Mr. Musk. Yes, and I apologize, I only heard a portion of 
Karen's response, but I--you know, I think--I am sorry. I have 
to get--unfortunately, I just didn't hear the--most of the 
response, but it seems to me that it would make sense to, as 
much as possible, not duplicate efforts, and I assume Karen is. 
That sentiment makes sense. Yeah. Sorry.
    Chairman Rohrabacher. It is okay.

            Difference Between Military and Civil Spacecraft

    The Chairman will now reclaim the time. Thank you. And I--
things that Elon didn't hear, General, what percentage of the 
payloads that the military puts up are weapons systems? I mean, 
most--aren't these satellite sensors and a lot of things that 
are very similar to civilian payloads?
    Major General Dickman. Certainly there are, and most of the 
technologies would apply. The weapons that we put on the front 
end of ICBMs are, obviously, very different.
    Chairman Rohrabacher. And there is very--we are putting 
very few nuclear weapons on to the heads of ICBMs these days, 
aren't we? I mean, this is----
    Major General Dickman. There are still 500 warheads that--
--
    Chairman Rohrabacher. Yeah, but I hope we are not putting 
any--putting them on any new rockets. I don't think that that 
would be----
    Major General Dickman. Oh, that is correct.
    Chairman Rohrabacher. Okay. So in terms of what we are 
doing now in the future, there is certainly a huge crossover 
between what you are doing in space and what NASA is doing in 
space in terms of sensors, satellites, you have observation 
satellites, communication satellites, et cetera, et cetera.
    Major General Dickman. I am sorry, Mr. Chairman, if I 
suggested anything other than that. It is clear that in science 
and technology, many of the systems and subsystems that we work 
on are very common.
    Chairman Rohrabacher. I am just--this is a guess, I would 
say the vast majority. I am just guessing now, being a big 
supporter of the SDI and Missile Defense, I know that we don't 
have that based up there yet, but I would hope someday we do. 
But seeing that it is not up there yet, the huge number of the 
satellites, military satellites, are very similar to the 
civilian satellites that are put into orbit. And if that is the 
case, wouldn't just making sure that we have sort of a 
consistency of requirements rather than--and an attempt to be 
consistent within the requirements, wouldn't that be something 
that makes common sense?
    Major General Dickman. I think that for the requirement for 
technology, that is probably correct. But NASA doesn't have the 
responsibility, for example, for tracking ICBM or missile 
launches that take place either in Iraq or from Russia or 
somewhere else. So as we take the technology for IR detectors 
and translate it into a Space-Based Infrared System, it is a 
different endgame than NASA would in taking those same sensor 
technologies and building an IR telescope to look into space.

                        Crew Exploration Vehicle

    Chairman Rohrabacher. Yeah, but we are going to--I am going 
to get to that in my very last question, which is going to be 
about this near-Earth object that just came by and how--which 
fits right into your answer there, but first I am going to ask 
a couple more questions. And I believe Dr. Sega was talking 
about the first flight of the crew exploration vehicle. Was 
that your testimony? Was that you, General? Admiral?
    Rear Admiral Steidle. It must have been mine, sir, okay.
    Chairman Rohrabacher. Yes, it must have and because I just 
read it in my notes here. You said the first flight of this 
crew exploration vehicle is going to be in 2014?
    Major General Dickman. Yes, sir, the first manned flight of 
that, that is correct.
    Chairman Rohrabacher. Holy cow. That is 10 years from now.
    Rear Admiral Steidle. Yes, sir.
    Chairman Rohrabacher. Can't we do anything, you know--does 
it take 10 years to build something?
    Rear Admiral Steidle. Well----
    Chairman Rohrabacher. When it took 10 years to get to the 
Moon, we built everything, and actually had the mission to the 
Moon and back in 10 years--less than 10 years.
    Rear Admiral Steidle. It could be, yes, sir. What I--what 
we have got out there is a demonstration program in '08, which 
is very well achievable, not necessarily an orbital flight, but 
a demonstration of systems, so it is much more than the vehicle 
itself, it is the systems that go with it and the protocols and 
those pieces. And then we follow that up about 21/2 years later 
in the start of 2011 with an orbital demonstration of that 
capability, docking, autonomous rendezvous capabilities. Do we 
need to do in-space assembly? So there are a lot of systems 
that go along with this as well. And of course, what we are 
looking at is the exploration piece, not just a one data point, 
perhaps, a capsule, but the development of a whole program or 
systems of systems. And that is what we will be developing when 
we put this up into orbit with humans in 2014.
    Chairman Rohrabacher. What about it, Elon? Do you think the 
private sector could build something, if they had this kind of 
budget, in less than 10 years?
    Mr. Musk. I would say without a doubt. I mean, one has to 
establish, sort of, the private sector in smaller 
entrepreneurial companies versus the----
    Chairman Rohrabacher. The large companies that are----
    Mr. Musk.--large aerospace giants, like Boeing and 
Lockheed, which I think the fundamental issue with the pace of 
progress is not so much--it is not a question of NASA being to 
blame. I think I would place, really, the bulk of the blame on 
the options that NASA has available to it from industry. And I 
think that there may be some new and better options from SpaceX 
and, perhaps, from other companies.
    Chairman Rohrabacher. Well, I am just noting that we have 
the, you know, Dick Rutan, out there about ready to show us 
what can be done in terms of a suborbital spacecraft, and I 
just have a feeling that the more we get small companies into 
this and into the mix that there is going to be a lot of--let 
us put it this way. There is going to be a transfer of know-how 
and technology from the private sector into the public sector 
as compared to what we used to have where all of it was the 
military and the public sector providing technology for people 
in the private sector. And I find--Elon, I find a 10-year 
timeline to be just--look, I am out of here; I won't be around 
here in 10 years. Is anybody in this room going to be around 
here in 10 years?
    Rear Admiral Steidle. Sir, can I----
    Chairman Rohrabacher. Sure.
    Rear Admiral Steidle. Yes, sir. Because what we are looking 
for is something beyond just a spacecraft. It is the system of 
systems that is going to go and do something that we have never 
done before. It is going to go beyond. The Moon is going to be 
a piece of it, but it is going to be on. It is going to be a 
spiral development program. It is going to be systems to 
support that. It is going to be--in that particular time frame, 
we will be going to the Moon and leaving an orbiting 
communications satellite.
    Chairman Rohrabacher. Right.
    Rear Admiral Steidle. It is the development of our 
infrastructure. So there is quite a bit. Now if those 
particular requirements were just to produce a vehicle and put 
it in orbit, we could do that, but to be the right vehicle to 
grow into something for an exploration vision, that takes an 
awful lot of work. Now----
    Chairman Rohrabacher. Well, let me suggest that if we end 
up, and I knew that when the President made his vision 
statement that one of the Achilles' Heels is that if people 
start thinking that they are developing something right now 
that is going to be used on the Mars mission for the humans to 
go into Mars, it is going to create a lot of waste, and it is 
going to drain huge sums of money. Mr. Lampson is already 
afraid about the money that is being drained away from other 
programs. And you start talking about developing the craft for 
the Mars program now, there is not going to be any money left 
for anything. And I--when you--it seems to me, we are talking 
about some crew transportation vehicle that should have 
something to do with achieving the goal on the Moon, and then 
we are going to find out what we need for Mars. But if it is 
taking 10 years because we have got to take all of those other 
things into consideration, no wonder it is taking 10 years. And 
I will tell you, it is going to be expensive. How much are you 
suggesting this crew exploration vehicle will cost, as it 
stands now in a 10-year program?
    Rear Admiral Steidle. We don't have the end pieces of that, 
sir, but what we have is from here to '09 and '10 time frame 
and the development of that and all of the demonstration 
programs to go and----
    Chairman Rohrabacher. And how much is that?
    Rear Admiral Steidle. That is about $6.8 billion that is in 
the--in our program that----
    Chairman Rohrabacher. Holy cow. That is over a--that is $6 
billion over a five-year period, right? Okay.
    Rear Admiral Steidle. Sure.
    Chairman Rohrabacher. And then--but we are not going to get 
anything that we really are going to be using. I mean, there is 
a demonstrator, but we won't be using----
    Rear Admiral Steidle. No.
    Chairman Rohrabacher.--it for another 10 years?
    Rear Admiral Steidle. No, sir. If we do this right--and 
that is what a spiral development program is. If we do this 
right and set the requirements to where we eventually want to 
go so we don't eliminate and don't have some false starts and 
don't start down this path for something in '11 and then have 
to start over in '14 and develop this program so that we can 
have a vehicle in '14 that can be adapted just a couple years 
later to go to the Moon and back and support those particular 
pieces, that is how much it costs to be able to do a detailed 
program like that.

              Cooperation in Near-Earth Objects Detection

    Chairman Rohrabacher. Okay. One last question, and then I 
will turn it over to Mr. Lampson. About the near-Earth objects, 
about these near-Earth objects, one, as I say, I announced at 
the beginning of this hearing, there is a near-Earth object 
that came within 25,000 or 26,000 miles of the Earth. And it is 
passing by tonight, I guess, or today sometime. We didn't know 
about it intil four days ago. I consider--now this particular 
one isn't big enough to have caused major damage, but the fact 
that we really didn't know about it until a few days ago 
indicates that there could be something out there that might 
actually be a threat to the world. Maybe we could just go down 
the panel and you could suggest to me what you think would be a 
good way for NASA, the Department of Defense, and the private 
sector to work together in terms of meeting this potential 
challenge.
    Rear Admiral Steidle. I can't answer that question fully, 
sir. I could tell you it is a very small object, 30 meters, 
that is 43 kilometers away will go down through the Atlantic 
Ocean in--about--I have the time is about 17:08 tonight, but 
probably late. But that is a--I am going to pass it on to my 
experts here who can say that sounds like a very difficult one 
to track. We picked it up on Monday evening. Lincoln labs did 
a--It was put on our web at JPL on Monday night.
    Chairman Rohrabacher. Now who discovered it?
    Rear Admiral Steidle. I was informed that Lincoln labs did, 
sir.
    Chairman Rohrabacher. Okay.
    Major General Dickman. I am not familiar with how Lincoln 
discovered it. Obviously an asteroid is a passive object, and 
so tracking an asteroid is--requires either an optical system 
or--well, it requires, essentially, an optical system or radar, 
if it gets much closer. But losing radar 1/r4, you can't get 
very far away to do a serious radar track. And so we provide 
our optical sensors to NASA----
    Chairman Rohrabacher. We have got a radar station on the 
Moon.
    Major General Dickman. It is still a long--it is still 1/r4 
to wherever the asteroid is. Radar, we don't lose much distance 
going through the atmosphere, so I am not sure that would help 
us a whole lot, although it is certainly worth looking into.
    Chairman Rohrabacher. All right. See, I don't--I certainly 
plead guilty to not being a technical expert on these things.
    How can you work with NASA more effectively in this 
challenge?
    Major General Dickman. Right now, we provide our optical 
sensors to NASA for tracking those--tracking asteroids in 
space. The best sensors we have are optical sensors that are 
maintained by the Department of Defense by our Directed Energy 
Directorate. And I think we provide something like 18 nights a 
month every month to NASA for doing that tracking.
    Chairman Rohrabacher. Dr. Sega.
    Dr. Sega. Our role, in the Department of Defense, has been 
principally the support of the--NASA's Near-Earth Asteroid 
Tracking program. And so it is in the area of, as Bob said, the 
optics, the processing, and so forth of datas where the 
technology that is either developed or there is additional 
sensors that can be supportive of the NASA tracking program 
would be the role of the Department.
    Chairman Rohrabacher. And as I mentioned to you earlier, 
Doctor, I went to a Shuttle launch, and the Shuttle went off--
took off, and we were all standing there, and within two 
minutes after the Shuttle took off, a comet went directly over 
the Florida station there at Cape Kennedy. And everybody was 
just aghast, because, I mean, no one had any idea that this 
thing was coming, but it just--it was close. It was very close. 
And it seems to me that NASA and the military need to look at 
this as a potential threat. Look at the Moon. Those craters 
didn't just get there by themselves. These aren't volcanic 
craters.
    And Mr. Musk, are you ready to go and to recruit the oil 
workers off of the derricks in order to fly up to the asteroid 
and destroy the asteroid before it gets to the Earth? That is 
what was in the--that was in the movie, I think.
    Mr. Musk. Yes, sir. It is ironic what they have 
accomplished in movies. You know, the fact of the matter is 
that the state of technology today: if the asteroid is big 
enough for us to see it, we won't be able to stop it, and if it 
is small enough--if it is so small that we don't see it, we 
won't get it in time. That is sort of where we are today. Some 
decades on, that, hopefully, will all be changed. Certainly, of 
all of the threats humanity faces over the long-term, some sort 
of asteroid, either at--can either significantly damage 
civilization or possibly end it. It is highly probable that 
that possibility certainly exists, and I hope that, at some 
point in the coming decades, we are able to present a 
reasonable counter to that threat.
    Chairman Rohrabacher. All right. Well, thank you. And I 
think the private sector will play a role in that. And if by 
nothing else, keeping the cost of the rockets down that are 
part of the system.
    Thank you very much.
    I would like to turn to Mr. Lampson. Would you----
    Mr. Lampson. I would. You know, one thing that we could do, 
Mr. Chairman, is to have--get a greater look at the points 
contained within the Space Exploration Act, because it does, 
indeed, set a goal of building a craft that would allow us to 
go out and do something to those asteroids when and if they are 
discovered. And we are going to have to address it. You are--
you know, this is a serious issue, and it is something that we 
ought to be talking about. So hopefully we will at some point 
in time.

                            Role of Industry

    As much as I respect and appreciate not just Elon Musk's 
company, but all of them, I think it important--we don't have 
the opportunity for Boeing and Lockheed Martin to be here to 
make some comment in reference back to some comments that were 
made about their size and how slow they might be in 
accomplishing something, but they are doing things that this 
government has asked to do that perhaps adds cost to a lot of 
what they do, because they have to maintain a lot of personnel 
to accomplish something over a long period of time they might 
not otherwise be doing. I think that is important to note at 
some point.

                        Crew Exploration Vehicle

    And I--Admiral Steidle, I wanted to also get you to just 
make a short comment about, perhaps--that you were talking 
about all of the complaints of the development of the CEV and 
what all we have to go through in order to meet a 10-year 
accomplishment for flight. What is the difference in what we 
did with Apollo during those--all of those Apollo years to 
develop all of the craft that were involved in those missions?
    Rear Admiral Steidle. That particular program was a--I 
would call a single data point. That was one particular event 
and a destination that we were flying to, and all of our 
efforts and integration efforts that--were focused on the 
development of that particular system to accomplish that. This 
program differs in the fact that we are looking beyond that. We 
are looking at a continuum. We are looking at an infrastructure 
that will, as well as just the spacecraft, support future 
missions. We are looking at a spacecraft that we will slowly 
develop, through spiral development, to take us into orbit, to 
take us to the Moon, to take us beyond into journeys to, 
perhaps, Mars and beyond. So there is much more into it than 
that single data point; there is the infrastructure. And I keep 
referring to this, and we heard it earlier, the systems of 
systems integration piece of this is quite large, not just the 
development of the spacecraft itself, but all of the supporting 
structure, the support of the infrastructure that will be here 
on Earth, the demonstration of capabilities either on the Space 
Station or on the surface of the Moon and the other things that 
come together to support this development. So this is the 
significant difference from that.
    Mr. Lampson. There is also the role that money has played 
in it, too. Was there not a little different----
    Rear Admiral Steidle. Yes, sir. If you look at the funding 
profile in that particular program, it was a program manager's 
joy. It was----

                  Impediments to NASA-DOD Cooperation

    Mr. Lampson. Okay. Let me get back to what I wanted to ask 
about in the first place. I would like to ask all of you, if 
you could, to respond to this. What do you consider to be the 
biggest impediments to meaningful cooperation between NASA and 
DOD in space transportation, and how would you overcome those 
impediments? And try to keep them as succinct as possible. 
Would you start, Admiral?
    Rear Admiral Steidle. Yes, sir. Very, very quickly. I have 
looked at the collaboration efforts that are taking place. We 
mentioned the partnership. We mentioned NAI. I asked my staff 
to put together where do we stand and what kind of 
collaboration efforts are underway, and they came with a long 
list. And there are almost 400 relationships and collaboration 
agreements and MOUs between our centers and our departments in 
NASA. There are some main program pieces that are working here.
    What I have seen, as I have gone back and studied this in 
preparation for coming here, that something changed about two 
years ago. The emphasis came from the top down, not from the 
bottom up. This is my own assessment. It appears that something 
took place at the partnership, perhaps just the new people that 
are involved in that. But their focus on the collaboration and 
the partnership was felt throughout the organization, all of 
the way down to the tech maturation people and the people 
managing each program. So the impediment would be the loss of 
that particular dedication and focus on making these things 
happen.
    Mr. Lampson. Thank you. General.
    Major General Dickman. I think the greatest impediment in a 
long-term collaboration is that we have different requirements 
for the vehicles when they finally get put to use. There is no 
impediment to collaboration in developing the technology, and 
the work that Admiral Steidle mentioned was specifically 
focused on the whole spectrum of technologies with--related to 
launch. The collaboration is very, very good.
    With respect to the comment that the partnership changed 
two years ago, I would share that view as well. And since Dr. 
Sega might not want to comment since he was one of the players 
in that, the reality is, the membership of the Partnership 
Council changed. It includes the Administrator of NASA. The 
Administrator is very proactive about dealing with the 
Department of Defense. It includes Under Secretary Teets, but 
it also includes Dr. Sega and Admiral Ellis and General Lord 
from Space Command, who are all committed to making the 
partnership work, rather than getting together and seeing where 
there might be opportunities for interface.
    Mr. Lampson. Dr. Sega, do you want to make a comment?
    Dr. Sega. Sure. The--I think the environment is very 
positive, not only in the Space Partnership Council, but also 
at the working level as we worked hard over a period of over a 
year to develop these technology roadmaps. Now once we have 
this in place, the challenge is to keep the integrated program 
on track. We have participation from the Army, Navy, and Air 
Force in developing some of the technologies with DARPA and, of 
course, the Department of Defense, and NASA inside the 
government. We have industry, and so forth, engaged. We also 
have some of the budgets, as they come here, are viewed here in 
Congress. It is important that when there are connections being 
made, that that information be passed to you so that there is 
an understanding of where the integration is, where the 
connections are as one looks at the programs in total versus in 
isolation, so keeping it together all of the way through the 
process.
    Mr. Lampson. Mr. Chairman, if you will indulge me and let 
me--and allow me to ask just a couple more questions, I will 
be--I will pass this.
    Chairman Rohrabacher. Go ahead quickly.
    Mr. Lampson. Okay. I will be quick.

                  National Space Transportation Policy

    The Bush Administration--and this is, again, for everyone. 
The Bush Administration has indicated that it is reviewing the 
existing national space transportation policy. Have any of you 
played a role in that policy review?
    Major General Dickman. I have, Mr. Lampson.
    Mr. Lampson. Can you--is it Admiral? Have you or Dr. Sega?
    Rear Admiral Steidle. No, sir. I am too new to be a part of 
that. I believe Karen's office has, though.
    Mr. Lampson. All right. And Dr. Sega?
    Dr. Sega. Not at this time.
    Mr. Lampson. What sorts of issues are being considered in 
that review, and when do you expect the review will be 
completed, both of you?
    Major General Dickman. We are optimistic that the review 
will be completed by summer. The issues are, if you will, the 
ones you would expect: what kind of work should be done in 
terms of next generation launch vehicles, in terms of 
innovative approaches for a workforce for launch vehicle, in 
terms of what NASA would need for exploration, for what kind of 
expendable launch infrastructure we should sustain over the 
next decade and beyond. Really, it is a very comprehensive look 
at how we are going to do space transportation.
    Mr. Lampson. Karen?
    Ms. Poniatowski. Yeah. I think the only thing I would add 
to that is it does reinforce the need for the--unlike the 
previous policy that said the Air Force would have one focus 
and NASA another, the policy is again focused at cooperation 
between the NASA and the DOD.
    Mr. Lampson. Thank you.

                        NASA-DOD Test Facilities

    And the last thing, what specific steps are NASA and DOD 
taking to ensure that the national test facilities needed for 
future space transportation systems will be maintained? We know 
that some of these things were--are being shut down. We know 
that there have been some facilities that--at NASA that haven't 
been maintained and are actually--we are losing the capability 
to provide some service with those at some point of time in the 
future. Are there any specific facilities that any of you are 
concerned about, and if so, what are they? Everybody.
    Dr. Sega. It wouldn't be fair to give any specifics, 
because there are an awful lot of facilities, but there are 
needs in terms of testing. I gave an example of the HyFly test. 
In this case, it was a DARPA-Navy program testing at Langley 
and soon to have a single-engine demonstrator test from the Air 
Force and DARPA also at the Langley wind tunnel. So this is a 
case I know personally, and it is an area that you look at what 
is coming forward and you look at the test facilities they 
need. Now in the future, technology will move forward and your 
needs will change, but I think it is a question that needs to 
be evaluated continually.
    Mr. Musk. I think, in general, the test structure right 
now, at least for propulsion, is fairly robust. Certainly it is 
robust for testing spacecraft. I believe there are five test 
facilities that can handle a one million-pound class engine, a 
variety of fuels and flows and sizes. There are test facilities 
that are relatively new that can handle high-altitude engine 
testing. So until we actually break new ground on what we need 
that would drive us to some place we haven't been before, I 
think we are probably in pretty good shape right now.
    Mr. Lampson. Thank you.
    Admiral.
    Rear Admiral Steidle. I have been--in my initiation in 
NASA, I have been making trips to as many of the facilities as 
I possibly can, looking at their lab structure. In my previous 
position, I was commander of a number of centers, so I know 
what to look for. I have been looking for those particular 
capabilities. I haven't found anything lacking, so far, in my 
trips to them.
    Mr. Lampson. Those are some of the things that I have heard 
from some NASA installations around. I went--that is more--
thank you all for your answers, and thank you for your 
indulgence, Mr. Chairman.
    Chairman Rohrabacher. Thank you.
    Mr. Feeney.
    Mr. Feeney. Thank you, Mr. Chairman.

                 Cross-Certification of Launch Vehicles

    When I last addressed you, you talked about the increasing 
cooperation. Specifically, if we could get a commitment to try 
to find some redundancies in the certification requirements, I 
think that would be helpful and useful to us. And if you are 
having success and everything, we would appreciate any 
continued success.
    But I want to----
    Chairman Rohrabacher. Perhaps we could be very specific on 
that. If you could, within a month, get back to the Committee a 
letter indicating what areas you think that you could work on 
in this cross-certification area, and making sure that we 
don't--where it is that duplicate and where--with the military 
and where can people accept the standards and the--already the 
specifications that are on the other side that have already 
been proven so that people like Mr. Musk can invest $1 million 
and can expect it not to have to be doing the same exact thing 
with that $1 million with NASA that it does with the Department 
of Defense, I mean, rather than waste that money.
    Mr. Feeney, go right ahead.
    Mr. Feeney. Well, despite the optimistic answer, Mr. 
Chairman, that we got, I think that there is cause for 
optimism. You remember Lockheed Martin that has testified in 
front of this committee that they think a one-government team 
would be very helpful to them. The Space News has recently 
reported that while these meetings are going on, very little is 
accomplished, and these may be accusations that are inaccurate, 
but if you can give us details, we, at least, can defend you, 
at a minimum.

     Review of Space Treaties Affecting DOD and Commercial Use of 
                                the Moon

    And secondly, I would like the Admiral and the General to 
tell me whether it would be a useful exercise for this 
Partnership Council, or some other group involving the civilian 
and the military and the commercial launch advocates in the 
United States, to review the 10 or 15 different space treaties 
that we have out there. For example, General, you suggested 
that one of the reasons that we do--we couldn't put a permanent 
facility on the Moon was not that it was Air Force related, it 
is because of treaties. Well, treaties come and go, and by the 
way, the United States tends to honor its commitments; other 
nations don't, many times. You are tracking some 8,000 pieces 
of ``space junk,'' as we speak. It may turn out that the Moon, 
for example, is a better place to do some of those things or 
enhance what we are doing.
    And finally, on the commercial side, there is very--we have 
used space treaties to socialize the rewards of exploring 
space. So if Mr. Musk, for example, wanted to find a way to 
colonize a square mile of the Moon, he would have to share 
everything that he could accomplish with 191 other nations 
recognized by the State Department. One wonders, in that light, 
whether the Queen of Spain would have subsidized Columbus' 
journey knowing that she would have had to share all of the 
fruits of his discoveries with the Dutch and the French and the 
Brits. So maybe you could tell me a little bit about a review 
of space treaties in our future.
    Major General Dickman. We will be glad to take that as an 
action.
    Chairman Rohrabacher. Now with that said, we are going to 
adjourn now, because I do have a plane out at six o'clock at 
Dulles. I want to thank Mr. Lampson. This is his first hearing 
as the Ranking Member. Thank you very much for your--he has 
always been an activist and always had thought-provoking 
questions and different insights that he has shared with us. We 
are very happy now that he is playing a more important role. 
You are not just a Member of the Committee; now you are the 
Ranking Member. And someday, who knows, you may sit in this 
chair. So I have got to be--I have to be very, very, you know, 
courteous to this man.
    But Mr. Feeney, thank you, as well. And thank you to our 
panel. I appreciate it.
    One thought, we did say a couple things that seemed 
derogatory about big companies, because we have got Elon Musk, 
this great entrepreneur here who has put his own money in, and 
we always admire that so much, but just----
    Mr. Lampson. We need them both.
    Chairman Rohrabacher. We need them both. And for the 
record, Lockheed, Boeing, Orbital, all of them were contacted 
about the hearing, and all are providing written testimony for 
the record in this hearing and have been very cooperative with 
us and couldn't cooperate more. They just--so we had a good 
hearing today, and I would like to thank the witnesses again. 
And please be advised that the Subcommittee Members may request 
additional information for the record, and I would ask other 
Members who are going to submit written questions to do so with 
one--within one week of this date. And I would then conclude 
this hearing by saying this meeting is now adjourned.
    [Whereupon, at 3:50 p.m., the Subcommittee was adjourned.]


                              Appendix 1:

                              ----------                              


                   Answers to Post-Hearing Questions



                   Answers to Post-Hearing Questions


Responses by Rear Admiral (Ret.) Craig E. Steidle, Associate 
        Administrator, Office of Space Exploration Systems, National 
        Aeronautic and Space Administration

Questions submitted by Chairman Dana Rohrabacher

Q1.  In written testimony provided to this committee, Michael Gass of 
Lockheed Martin Space Systems recommends that ``there ought to be one 
government team [between NASA and the Department of Defense (DOD)] to 
define mission assurance requirements'' for launch vehicles before 
entering into a development program with industry. He explains that 
this approach ``would eliminate wasteful redundancy, use common 
processes for acquisition and contract oversight, share the benefits of 
complementary hardware systems and reduce the cost of maintaining 
infrastructure.'' (See Appendix 2: Additional Material for the Record 
for Mr. Gass's full testimony.)

     Will NASA and the Air Force consider this ``one government team'' 
approach in defining launch vehicle requirements to meet both NASA and 
DOD requirements? What are the pros and cons of such a proposal for 
NASA?

A1. NASA, the Air Force, and the NRO are looking to maximize our 
limited resources in space launch. To that end, we collaborate in a 
number of areas. For example, we share data and common analysis 
sources. We participate in an interagency working group. We share 
common risk lists between organizations for our common rocket fleets. 
We participate in each other's Pedigree Reviews and Design Equivalency 
Reviews on the key engine systems in the EELV fleet.
    However, the concept of a common set of mission assurance 
requirements, while attractive, does not recognize the different 
emphasis each organization places on various elements of mission 
assurance. Differences in requirements stem from the difference in how 
the systems are to be used. A common set of requirements would end up 
being composed of the lowest common denominator. It would treat a human 
space launch, a low-cost technology demonstration satellite, and a 
National security missile warning satellite as equals. Certain missions 
demand unique mission assurance investments and scrutiny that are not 
appropriate or affordable for all flights. We need the flexibility to 
succeed at this priority, rather than having a common set of 
requirements that we constantly deviate from and issue for waivers 
based upon the mission's importance.

Q2.  During the course of the March 18th hearing, both you and Major 
General Dickman agreed to investigate how NASA and the Air Force's 
separate certification processes for new launch vehicles could be 
better coordinated. The concern was that these separate certification 
processes might be redundant, wasting taxpayer money. What progress has 
been made to-date? What plans have you made to minimize the redundancy 
in the certification process?

A2. NASA and the Department of Defense (DOD) collaborate on technical 
assessments (sometimes referred to as certification) of the launch 
vehicles we each use to accomplish our unique space missions. Common 
reviews and technical assessments on both existing and evolutionary 
systems have moved us toward a better understanding of the core launch 
system. Each agency continues to perform mission assurance and 
``certify'' each individual mission for launch (including the 
integrated spacecraft and launch vehicle as ready for launch). However, 
neither the United States Air Force (USAF) nor NASA formally 
``certify'' a launch vehicle design, as is done by the Federal Aviation 
Administration (FAA) for commercial aircraft in order to ensure public 
safety.
    The U.S. has not fielded many ``new'' national launch systems; for 
example the DOD did not have a use for the Athena or the Conestoga 
launch system and was not engaged in the technical assessments for 
those ``new'' vehicles. In the case of the Pegasus, NASA worked closely 
with Defense Advanced Research Projects Agency (DARPA) and the USAF to 
understand and address challenges met in the start up of the commercial 
program. NASA and DOD have built a pattern of cooperation in the 
sharing of common launch systems; we would expect to extend that 
cooperation to the fielding of ``new'' systems. Likewise, every 
individual user, be they commercial or government, employs varying 
levels of technical assessment leading up to a unique mission. We would 
expect that practice to continue on new launch systems as well.

Q3.  To accomplish NASA's missions to the Moon and Mars, NASA may need 
to develop a new heavy-lift launch vehicle beyond the capabilities of 
the current Evolved Expendable Launch Vehicles (EELV). At a recent 
Senate Appropriations hearing, NASA Administrator Sean O'Keefe said 
there are ``competing options and alternatives'' for heavy-lift launch 
vehicles using the Space Shuttle stack of boosters and external tank or 
enhancing DOD-developed expendable launch vehicles.

     What is the timeframe for NASA's decision-making on whether to 
develop and how to develop a heavy-lift launch vehicle?

A3. NASA intends to make a decision on both cargo and human launch 
capability by the release of the CEV Level 1 requirements in January 
2005.

Q3a.  What trade studies are NASA conducting to answer the question on 
whether or not a heavy-lift launch vehicle is needed? Why wouldn't 
existing or slightly modified expendable launch vehicles be sufficient 
for NASA's space exploration initiative?

A3a. NASA has initiated trade studies that consider options using Space 
Shuttle propulsion elements, commercial systems, international systems, 
and Evolved Expendable Launch Vehicles (EELV). The study teams are 
considering payload mass capabilities from 25mT (the current capability 
of the EELV heavy) up to 100mT. The trade parameters currently focus on 
performance, non-recurring cost, and recurring cost. A trade study has 
also been initiated that will define the human rating requirements for 
a CEV and launch system. These trade studies will be completed this 
summer. The follow-on trade studies will combine the CEV human launch 
capability and cargo launch system requirements into a common study 
that will evaluate the synergy between the two system requirements. 
NASA's objective is to separate crew and cargo launch to the maximum 
extent possible. Industry has also been encouraged to consider these 
critical launch trades as they prepare responses to the Request for 
Information (RFI) and proposals to the Broad Agency Announcement (BAA) 
for Concept Exploration and Refinement.

Q3b.  Why aren't the designs for NASA's Saturn V rocket adequate for 
NASA's future heavy-lift launch needs?

A3b. Elements of the Saturn launch system are being considered in the 
trade studies for cargo launch, including the J-2/J-2S engine that 
provided propulsion for the Saturn upper stage and the Apollo trans-
lunar injection stage. The J-2/J-2S powerhead was most recently used to 
power the X-33 aerospike engine that was successfully demonstrated. 
Other elements of the Saturn launch system may be applicable to a 
modern launch capability. Although the Saturn launch vehicle design 
would provide the performance capability to conduct a lunar mission, 
the capability to manufacture it does not exist today and would be 
extremely expensive to duplicate. More recent launch systems have 
incorporated modern manufacturing processes and structural materials. 
Building from the current launch vehicle manufacturing and launch 
operations infrastructure may be more affordable than resurrecting the 
Saturn; but the trade studies are assessing all possible launch 
solutions.

Q4.  Both NASA and the DOD are reporting to Congress a 50 percent cost 
increase in what industry plans to charge for future purchases of 
Evolved Expendable Launch Vehicles due to a sharp downturn in the 
commercial launch market and U.S. launch providers not being able to 
recoup their costs for these new rockets. Could the U.S. Government 
possibly achieve some cost savings if NASA and the DOD bargained 
together when negotiating its launch vehicle purchase prices with 
industry? If so, are there any plans to begin such cooperative 
bargaining?

A4. NASA and the DOD have a practice of coordinating on launch vehicle 
acquisitions. We have established forums and working groups to assure 
that our respective launch requirements and acquisition plans are 
discussed to maximize the overall national benefit. NASA and the USAF 
closely coordinated our individual requests for proposals for recent 
awards to Boeing for Delta II activity. We have also shared our 
requirements for EELV class services to facilitate assurance that the 
U.S. Government is getting a fair and reasonable price. The depressed 
international market for U.S. launch services in the EELV class has 
indeed raised concerns with the potential for cost increases to all 
government users. We are working with the DOD to understand and address 
these concerns.

Q5.  NASA recently informed the Committee that it is no longer planning 
to fly secondary research payloads on the Space Shuttle, affecting 125 
experiments. The European Ariane rocket has developed a fairly robust 
capability to carry secondary research satellites into orbit, while the 
U.S. has not developed an analogous means to carry secondary satellites 
on an EELV. Are NASA and the DOD developing an analogous capability for 
U.S. expendable launch vehicles? If not, why not? Could some of these 
secondary payloads be launched on an Ariane rocket instead?

A5. NASA has invested funds to enable secondary capability on existing 
launch systems and has flown approximately 15 secondary payloads over 
the past 10-15 years using Delta, Pegasus and Taurus launch systems. 
With the advent of the EELV, the USAF has invested in the development 
of the EELV Secondary Payload Adapter (ESPA), which is scheduled for 
flight in 2006. Flight opportunities for small payloads have been a 
topic of discussion between the agencies. In December 2003, NASA, the 
National Reconnaissance Office (NRO) and the USAF met to discuss both 
the opportunities for excess space on future EELV missions and 
investment strategies for complementary secondary carriers beyond ESPA. 
All agencies have been actively engaged in maximizing any excess space 
and performance on larger launch systems and will continue to 
coordinate efforts.
    The majority of the experiments/payloads that will no longer be 
flown on the Space Shuttle are Get Away Special (GAS) payloads that 
were expressly designed to fly as tertiary payloads on a ``space-
available'' basis. Most were designed to require human intervention 
and/or return, which are unique Shuttle capabilities, and are not 
readily converted for flight on expendable systems.

Q6.  A recent news article said that cost overruns with the Defense 
Advanced Research Projects Agency's Orbital Express satellite project 
threaten to shut down the project. NASA invested $25 million in DARPA's 
Orbital Express project to demonstrate robotic docking technology 
applicable to future missions to the Space Station.

     If DARPA decides to cancel the Orbital Express project, what would 
the impact be on NASA's investment and technical objectives?

     Is DARPA coordinating its decisions with NASA on the Orbital 
Express project?

A6. NASA has invested $17 million in DARPA's Orbital Express project 
and intends to invest another $8 million through FY 2004 and FY 2005. 
The Orbital Express takes the next step beyond NASA's Demonstration of 
Autonomous Rendezvous Technology (DART) flight project in demonstrating 
robotic docking technology. Orbital Express will utilize the Advanced 
Video Guidance System (AVGS) that will be demonstrated on DART to 
maneuver within close proximity to the target satellite but, unlike 
DART, Orbital Express will demonstrate actual docking with the target 
satellite. Both experiments demonstrate technologies that may be used 
in the on-orbit assembly of elements of an exploration mission. If 
DARPA decides to cancel the Orbital Express project, NASA would 
incorporate that decision into the technology gap analysis that is 
currently underway. NASA will assess the risk to the overall concept of 
operations and develop a risk mitigation plan to reduce or eliminate 
that risk. NASA supports the Orbital Express project and believes that 
the partnership with DARPA is the most effective way to reduce the risk 
of autonomous rendezvous and docking.
    NASA is currently providing engineering support to the Orbital 
Express project. DARPA has coordinated their project plans with NASA 
and intends to complete the project.

Questions submitted by Representative Nick Lampson

Q1.  Please provide a list of all of the previously planned Space 
Launch Initiative projects, their intended five-year funding profiles, 
the numbers of civil service and contractor personnel involved in each, 
and what NASA intends to do with each project, including the 
consequences for both the civil service and contractor personnel.

A1. See Enclosure 1 for a list of Space Launch Initiative projects.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


Q2.  In your announcement to Congress regarding the cancellation of the 
X-43C contract, you stated: ``It is important to note that the FY 2004 
NGLT budget reduction will only impact contracted activities. NASA 
civil service workforce efforts will continue in-house.. . .'' This 
statement leaves the impression that NASA is not concerned with the 
impact that the abrupt cancellations have on contractors, and is only 
focused on protecting its civil service workforce. NASA officials have 
indicated that NASA's Office of Aeronautics is considering whether it 
might be able to pick up some of the hypersonics work that has been 
terminated. If there is the possibility that NASA will seek to restart 
some hypersonics activities in the FY 2006 budget request, what steps 
are you taking now to minimize the disruption to the contractor 
workforce between now and FY 2006?

A2. NASA is always concerned about its contractor teams and any adverse 
impacts Agency decisions may have on them. However, part of the 
rationale for outsourcing an activity includes the increased 
flexibility that NASA gains for later reprogramming or termination of a 
program/project. This flexibility is lost when NASA performs the work 
in-house based upon the Government civil service laws. Consequently, X-
43C contractors were allowed time to close out the contracts in an 
orderly way, including placement of the employees connected to the 
contract. NASA is currently reviewing the options to ease the 
transition as it considers the priorities of future hypersonics 
research. Should NASA validate the requirement to restart the 
hypersonic research in FY 2006, the FY 2005 funding will be re-
examined, and if funds are necessary, NASA will work with Congress to 
adjust the FY 2005 operating plan to ensure an orderly transition. It 
is also noted that the Department of Defense continues its hypersonics 
activities (e.g., the single engine demonstrator project) using many of 
the same contractors.

Q3.  What specific factors led you to decide to continue the X-37 
program? What data or systems do you expect to come from that program 
that will help you achieve the goals set forth in the new exploration 
initiative? Please be specific. How much will the X-37 program cost in 
total, and what is included in that cost estimate?

A3. The X-37 project provides hardware development experience for the 
NASA/industry team that will be applied to the exploration mission. The 
Exploration Mission requires development of new technologies to achieve 
the mission objectives and the X-37 effort provides key technology 
development in thermal protection systems and hot structures.
    The X-37 Approach and Landing Test Vehicle (ALTV) effort will 
provide an in-flight calibration of air data system technologies, and 
verification of the aerodynamics and guidance and control for a vehicle 
other than the Space Shuttle. The data obtained will be utilized to 
validate analytical models and trade studies. The orbital vehicle 
technologies (wing leading edge thermal protection system and hot 
structures) will provide higher reentry temperature capability to apply 
to the exploration mission. The hot structures development will develop 
capability in the U.S. that currently only exists overseas.
    The estimate of total X-37 program cost is currently being 
developed and will include contractor effort, government in-line 
effort, government insight and management.

Q4.  What role, if any, did DOD play in the decision to continue the X-
37 program? Will DOD provide any funding for it?

A4. In the summer of 2001, the Air Force decided to complete its 
commitment to the X-37 project of $16 million but provided no 
additional funding. This commitment was completed in FY 2002. NASA 
decided independently to continue the X-37 project in 2003 via the NRA 
8-30 competitive process. DOD was not involved in that decision. NASA 
encourages potential partnerships where appropriate, however, no DOD 
funding is currently committed.

Q5.  NASA and DOD are collaborating on the National Aerospace 
Initiative (NAI). However, it is hard to get a clear picture of the 
extent of the cooperation. Please provide for the record: a list of the 
projects that make up the NAI, which of them are jointly funded, and 
the estimated cost of each of the NAI projects.

A5. The following is a list of NAI projects that will continue:

    The Integrated Powerhead Demonstrator (IPD) will continue from the 
NGLT Propulsion Technology. NASA and the Air Force Research Laboratory 
jointly manage IPD. NASA will provide $3.4 million in FY 2004 and will 
provide $7 million in FY 2005. NASA is also providing 25 civil service 
and 27 support contractors to the effort. IPD is on the NAI Space 
Access Roadmap and is managed by the DOD Integrated High Payoff Rocket 
Technology Program.
    The X-43A project will continue through the third flight in FY 
2005. X-43A is a critical step in the development of scramjet 
technology and is on the NAI Hypersonics roadmap.
    Other continuing projects will contribute to the NAI Space Access 
roadmap, including Auxiliary Propulsion, Vehicle Subsystem power and 
electric actuator technology, and the University Research and 
Engineering Technology Institutes. NASA is providing funding of $25 
million in FY 2004 and $21 million in FY 2005. NASA civil service and 
support contractor employees supporting these projects in FY 2004 is 
121 and 98 in FY 2005.

Q6.  NASA's decision in the 1990s not to be the first user of an 
unproven rocket was based on a series of failures of three new launch 
vehicles (the Pegasus XL, the Conestoga, and the LLV). How should the 
government weigh the risks versus the benefits when considering the use 
of new launch vehicles? That is, where should the government draw the 
line between prudent stewardship of the taxpayers' money by not risking 
a taxpayer-funded satellite on an unproven launch vehicle versus the 
need to encourage the development of new launch vehicles that could 
ultimately reduce governmental launch costs?

A6. NASA has developed a risk mitigation process that seeks to balance 
mission criticality with flight history. The policy enables NASA to 
launch on a first flight of a brand new system, the second flight (post 
demonstration flight), or systems with proven demonstrated flight 
history. Over the past several years, NASA has not identified any 
missions that can tolerate the risk of a new launch system. NASA 
payloads, even the small payloads, tend to be unique, one-of-a-kind 
efforts, with a higher overall mission cost.
    NASA does believe in encouraging the development of new launch 
vehicles and emerging launch companies. NASA is partnering with DARPA 
on their FALCON Program, which will provide flight demonstrations for 
new launch systems. The payloads will be more risk tolerant and better 
suited to initial flights of new launch systems. Through this 
partnership, the government agencies are each able to participate in 
enabling new launch systems with a balanced risk approach.

                   Answers to Post-Hearing Questions

Responses by Major General (Ret.) Robert S. Dickman, Deputy for 
        Military Space, Office of the Under Secretary of the Air Force, 
        Department of Defense

Questions submitted by Chairman Dana Rohrabacher

ONE GOVERNMENT TEAM

Q1.  In written testimony provided to this committee, Michael Gass of 
Lockheed Martin Space Systems recommends that ``there ought to be one 
government team (between NASA and the DOD) to define mission assurance 
requirements'' for launch vehicles. He explains that this approach 
``would eliminate wasteful redundancy, use common processes for 
acquisition and contract oversight, share the benefits of complementary 
hardware systems and reduce the cost of maintaining infrastructure.'' 
(See Appendix 2: Additional Material for the Record for Mr. Gass's full 
testimony.)

     Will NASA and the Air Force consider this ``one government team'' 
approach in defining launch vehicle requirements to meet both NASA and 
DOD requirements? What are the pros and cons of such a proposal for the 
Air Force?

A1. All agencies--the Air Force, the NRO, and NASA--are looking to 
maximize our limited resources in space launch. To ensure best use of 
these resources, we collaborate in a number of areas. For example, we 
share data, common analysis sources, and have coordination meetings. We 
share common risk lists between organizations for our common rocket 
fleets. We participate in each other's Pedigree Reviews and Design 
Equivalency Reviews on the key engine systems in the EELV fleet. The 
Air Force and the prime contractors are looking for ways to develop 
common support in order to reduce the program costs. However, common 
acquisition processes would likely add complexity and cost.
    The concept of a common set mission assurance requirements, while 
attractive, does not recognize the different emphasis each organization 
places on various elements of mission assurance. A common set of 
requirements would end up being composed of the lowest common 
denominator. It would treat a manned space launch, a low cost 
technology demonstration satellite, and a national security missile 
warning satellite as equals. Our history is not all space capabilities 
are equal. Certain missions demand unique mission assurance investments 
and scrutiny that are not appropriate or affordable for all satellite 
flights. Mission assurance, often referred to as mission success, is 
the #1 priority for AF, NRO, and NASA space programs. We need the 
flexibility to succeed at this priority, rather than having a common 
set of requirements that we constantly deviate from and waiver based 
upon the mission's importance.

SEPARATE CERTIFICATION PROCESSES

Q2.  During the course of the March 18th hearing, both you and Rear 
Admiral Steidle agreed to investigate how NASA and the Air Force's 
separate certification processes for new launch vehicles could be 
better coordinated. The concern was that these separate certification 
processes might be redundant, wasting taxpayer money. What progress has 
been made to-date? What plans have you made to minimize the redundancy 
in the certification process?

A2. Neither the Air Force nor NASA formally ``certify'' a launch 
vehicle design, as is done by the FAA for aircraft. The Air Force and 
NASA do share information to gain understanding of flight worthiness 
that aids in certification of the booster. Technical teams share 
information on the pedigree of flight hardware--for example, Air Force 
and NASA teams review each other's hardware on Delta II rockets, in 
addition to hardware for commercial missions, and share their findings 
to assure they understand the state of the fleet. Mission teams discuss 
common rehearsed goals and techniques between Air Force and NASA 
Mission Directors. Air Force and NASA teams jointly work test 
requirements for hardware--for example, the new solid rocket booster on 
the Atlas V will be tested to a program defined by the contractor, 
NASA, and the Air Force. Additionally, the Air Force, National 
Reconnaissance Office, and NASA hold a mission assurance forum in which 
the contractors and government teams look for synergies, best 
practices, as well as lessons learned. The most recent forum was 
successfully concluded this past March of 2004.

HEAVY-LIFT LAUNCH VEHICLE

Q3.  If NASA needs to develop a heavy-lift launch vehicle for its space 
exploration missions, do you foresee possible uses for such a launch 
vehicle for future DOD missions?

A3. The recent Air Force mission model (from 2000-2020) does not 
require development of a heavy-lift vehicle beyond the current 
capability of the EELV fleet. NASA's heavy-lift requirements and 
architecture appear to be still developing. It is unclear where the 
NASA heavy-lift requirements, once defined, can be satisfied by the 
existing heavy-lift capability of our EELV fleet. However, NASA is 
keeping DOD informed of any contemplated performance or reliability 
enhancements to the EELV fleet to allow DOD to consider how those 
potential enhancements would benefit DOD mission needs.

EELV

Q4.  Both NASA and DOD are reporting to Congress a 50 percent cost 
increase in what industry plans to charge for future purchases of 
Evolved Expendable Launch Vehicles due to a sharp downturn in the 
commercial launch market and U.S. launch providers not being able to 
recoup their costs for these new rockets. Do NASA and the DOD 
coordinate their launch purchases before going out with bids to 
industry? Could the U.S. Government possibly achieve some cost savings 
is NASA and the DOD bargained together when negotiating its launch 
vehicle purchase prices with industry?

A4. Although NASA and the Air Force do not coordinate with each other 
on their respective launch purchases, they do share appropriate 
information. Despite requirement differences between NASA and the Air 
Force, it is possible there could be some synergy if NASA and DOD 
bargained together for EELV launch services; however, whether this 
would yield any saving over the current process is unknown.

Questions submitted by Representative Nick Lampson

HUMAN-CARRYING SPACE TRANSPORTATION SYSTEM

Q1.  Do you foresee a DOD requirement for a human-carrying space 
transportation system?

     If so, when?

     What would be the reason for the requirement?

     Will DOD either review or participate in the formulation of the 
requirements for NASA's proposed Crew Exploration Vehicle?

A1. There is no Air Force requirement for a human-carrying space 
transportation system at this time. However, the Air Force intends to 
support NASA's effort to formulate requirements for their Crew 
Exploration Vehicle (CEV), especially as it relates to EELV.

    These questions were submitted to the witness, but were not 
responded to by the time of publication.

Q2.  NASA's decision in the 1990s not to be the first user of an 
unproven rocket was based on a series of failures of three new launch 
vehicles (the Pegasus XL, the Conestoga, and the LLV). How should the 
government weigh the risks versus the benefits when considering the use 
of new launch vehicles? That is, where should the government draw the 
line between prudent stewardship of the taxpayers' money by not risking 
a taxpayer-funded satellite on an unproven launch vehicle versus the 
need to encourage the development of new launch vehicles that could 
ultimately reduce governmental launch costs?

                   Answers to Post-Hearing Questions

Responses by The Honorable Ronald M. Sega, Director, Defense Research 
        and Engineering, Department of Defense

Questions submitted by Chairman Dana Rohrabacher

Q1.  In the wake of the Space Shuttle Columbia tragedy and need to 
finish Space Station construction, NASA recently informed the Committee 
that it is no longer planning to fly secondary research payloads on the 
Space Shuttle. According to Major General Dickman's testimony, over 200 
DOD experiments have flown on over 70 Shuttle missions. NASA reports 
that over 125 satellite experiments, including DOD payloads, will be 
affected.

Q1a.  What is the impact to DOD space research if these Shuttle rides 
are canceled?

A1a. The reduction in science and technology demonstration 
opportunities would limit collection of scientific data and could 
result in increased program development risk. Shuttle and International 
Space Station flights are an effective means for developing and testing 
technologies, especially for those test units and experiments requiring 
post-flight physical analysis.

Q1b.  The European Ariane rocket has the means to carry secondary 
research satellites into orbit. Are NASA and the DOD developing an 
analogous capability for U.S. expendable launch vehicles?

A1b. The Space Test Program (STP) and Air Force Research Lab (AFRL) 
developed the EELV Secondary Payload Adapter (ESPA) that can fly 
multiple space experiments. The ESPA fits any EELV medium-class launch 
vehicle and holds up to six small satellites, in addition to the 
primary payload. The first ESPA flight will be on a dedicated STP 
launch aboard a medium EELV in September 2006. Success of this first 
ESPA flight would provide DOD space experiment possibilities on future 
EELV medium launch vehicles.

Q2.  If NASA needs to develop a heavy-lift launch vehicle for its space 
exploration missions, do you foresee possible uses for such a launch 
vehicle for future DOD missions?

A2. Launch needs for DOD and National Security missions are under the 
purview of the Under Secretary of the Air Force for Space.

Questions submitted by Representative Nick Lampson

Q1.  What, if any, are DOD's interests in NASA's X-37 program?

        <bullet>  What role, if any, did DOD play in NASA's decision to 
        continue that program?

        <bullet>  DOD previously had withdrawn funding for the X-37 
        program. Will DOD provide any funding for it in the future?

A1. The proposed X-37 Orbital Vehicle (OV) has the potential to 
demonstrate technologies that would have a range of utility to both DOD 
and NASA. The technologies that could be demonstrated on the X-37 OV 
include: non-toxic, storable propulsion and power; advanced thermal 
protection system materials and structures; materials, structures and 
components for long-duration exposure to the space environment; 
advanced flight control systems; and algorithms for autonomous in-
space, reentry and landing maneuvers.

Q2.  NASA and DOD are collaborating on the National Aerospace 
Initiative (NAI). However, it is hard to get a clear picture of the 
extent of the cooperation. Please provide for the record: a list of the 
projects that make up the NAI, which of them are jointly funded, and 
the estimated cost of each of the NAI projects.

A2. The National Aerospace Initiative serves an integrating role for 
Science and Technology (S&T) investment to focus national aerospace 
research and technology development and demonstrations toward goals and 
objectives which support future high payoff capabilities. Technology 
roadmaps were developed in the areas of high speed/hypersonics, access 
to space and space technology through a collaborative effort between 
DOD and NASA. The NAI and NASA's Office of Exploration Systems are 
currently identifying and evaluating NAI S&T projects that will support 
the Vision for Space Exploration. Attachment 1 contains a listing of 
DOD projects which include NAI S&T activities. The attachment indicates 
overall project funding levels and the level of NAI investment within 
that particular project. NAI funding is also split into two categories: 
core and enabling technologies. Core technologies and enabling 
technologies, such as materials, aerodynamics, guidance and control, 
and power support NAI and other S&T objectives.

Q3a.  Do you foresee a DOD requirement for a human-carrying space 
transportation system? If so, when? What would be the reason for the 
requirement?

A3a. On July 22, 2002, the Deputy Commandant of the Marine Corps for 
Plans, Policies, and Operations published a Universal Need Statement 
(UNS) for Small Unit Space Transport and Insertion Capability 
(SUSTAIN). This UNS outlined the need to deliver 13 combat-equipped 
personnel through and from low earth orbit. The UNS did not specify a 
date required.

Q3b.  Will DOD either review or participate in the formulation of the 
requirements for NASA's proposed Crew Exploration Vehicle?

A3b. The DOD will participate as appropriate.

Q4.  NASA's decision in the 1990s not to be the first user of an 
unproven rocket was based on a series of failures of three new launch 
vehicles (the Pegasus XL, the Conestoga, and the LLV). How should the 
government weigh the risks versus the benefits when considering the use 
of new launch vehicles? That is, where should the government draw the 
line between prudent stewardship of the taxpayers' money by not risking 
a taxpayer-funded satellite on an unproven launch vehicle versus the 
need to encourage the development of new launch vehicles that could 
ultimately reduce governmental launch costs?

A4. Every launch decision must weigh a complex series of factors to 
determine acceptable risk. The analysis approach of weighing risk 
versus benefits of use of new launch vehicles should be accomplished on 
a case by case basis. For example, the launch of Tactical Satellite I 
(TacSat I), an R&D satellite, is currently scheduled this year on the 
first flight of a new booster called Falcon.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                   Answers to Post-Hearing Questions

Responses by Elon Musk, Chief Executive Officer, Space Exploration 
        Technologies

Questions submitted by Chairman Dana Rohrabacher

Q1.  Your testimony mentioned some of your concerns with the regulatory 
certification process and costs attendant with those regulations.

Q1a.  What specific examples do you have where Air Force or FAA launch 
regulations were overly burdensome and not adding value in terms of 
safety?

A1a. To date, SpaceX has only undergone the Air Force range safety 
approval, but will be seeking an FAA license shortly. Our company can 
therefore only comment on the Air Force process, but would be happy to 
provide similar comments on the FAA at a later date. Most of the FAA 
regulations are drawn from the Air Force document EWR-127-1 and so some 
of the comments are likely to be common.
    The Air Force and the Office of the Secretary of Defense have been 
working with SpaceX to improve the certification process and in bring a 
new launch vehicle to flight (moreover, using only thrust termination, 
rather than explosive termination). My recommendations below should be 
seen in the context of a relationship that is working well.
    Specific recommendations are:

1.  Remove the piece parts & traceability requirement for flight 
termination systems in favor of more extensive testing
    Piece parts and traceability requirements necessarily result in 
extremely expensive components, because modern (extremely reliable) 
electronics are mass manufactured and do not lend themselves to being 
built in tiny batches. If standard electronics are suitable for a 
flight critical autopilot on a 400 passenger 747 landing in zero 
visibility over a densely populated city, then they should be suitable 
for a launch vehicle carrying no-one departing over unpopulated ocean.

2.  Automatic safety cross-certification between the eastern and 
western ranges
    At present, there are slightly different subjective preferences 
held by the eastern and western ranges. This requires a company to have 
either both ranges present throughout the EWR tailoring process, 
increasing expenses to both the company and the government, or work 
with just one and then be forced to modify the system later for launch 
on the other range. New airplane companies are not forced to work with 
FAA branches from all corners of the country and this should not be the 
case with rockets either. If a vehicle and its flight termination 
system are suitable in California, they should be automatically allowed 
anywhere else in the country with a similarly unpopulated flight path.

3.  Require transparency of evaluation metrics
    One of the critical evaluation metrics is the maximum probable loss 
calculation for property and casualty. However, unlike the situation 
with FAA aircraft certification, this calculation is not done working 
with the launch vehicle company and the methodology is not shared. This 
makes it very difficult for a launch vehicle company to determine how 
to improve the MPL.

Q1b.  How much does it cost your company per launch to comply with the 
Government's regulations? Of that amount, how much does your company 
spend to comply with regulations that you would categorize as overly 
burdensome and not adding value in terms of safety?

A1b. 

SpaceX estimates for compliance with Government regulations:

        <bullet>  $400,000 for purchase, integration and installation 
        of the flight termination system. This number was over $300,000 
        higher prior to being granted a waiver of the flight 
        termination explosives requirement by Air Force range safety.

        <bullet>  $650,000 for range services required for launch, 
        including flight analysis, flight termination system oversight, 
        ground safety and launch oversight.

SpaceX estimates of costs that add minimal value and could be 
                    eliminated:

        <bullet>  $200,000 could be eliminated from the flight 
        termination system by being able to use flight termination 
        components with extensive testing as a substitute for piece 
        parts and traceability requirements. Simply being able to use 
        the low cost, high reliability flight termination receivers 
        that are used on missiles and UAVs would net an immediate 
        $80,000 saving. In fact, SpaceX is approved to use these 
        receivers at the Reagan Test Site at Kwajalein, but not at the 
        Eastern or Western ranges.

        <bullet>  At least $300,000 or more than half the range 
        services cost could probably be eliminated by streamlining the 
        launch process. Please note that SpaceX expects to yield close 
        to this number simply by working with the ranges and increasing 
        their comfort level with the Falcon launch system. I will not 
        have any recommendations until SpaceX is past its second or 
        third launch.

Questions submitted by Representative Nick Lampson

Q1.  NASA's decision in the 1990s not to be the first user of an 
unproven rocket was based on a series of failures of three new launch 
vehicles (the Pegasus XL, the Conestoga and LLV). How should the 
Government weigh the risks versus the benefits when considering the use 
of new launch vehicles? That is, where should the Government draw the 
line between prudent stewardship of the taxpayer's money by not risking 
a taxpayer-funded satellite on an unproven launch vehicle versus the 
need to encourage the development of new launch vehicles that could 
ultimately reduce Governmental launch costs?

A1. Prudence is certainly warranted before placing a valuable satellite 
on a new launch vehicle. The chance of failure is significant, as 
suggested by history and common sense. However, we must necessarily 
venture forth and encourage new developments or be trapped into using 
the same transport system forever. As I will show below numerically, 
staying with the old transport system will very quickly overwhelm the 
cost of a failure or two on a new launch vehicle.
    It is one thing to ask a new company to underwrite all the costs of 
development, it is another to force them to fly first with other 
customers, it is yet another to insist that serious dialogue on 
purchase cannot even begin until a successful launch takes place. This 
latter point is particularly harsh, since payload manifests are planned 
years in advance. If a company cannot enter serious manifesting 
discussions until after first successful launch, it means that first 
launch of a NASA payload will only occur four to five years after the 
maiden launch. Our company was told precisely this by the Office of 
Space Flight at NASA.
    As it is, the Office of the Secretary of Defense has chosen to 
purchase the first launch of Falcon I (at a discount to the standard 
price), for which SpaceX is very appreciative. The second flight of 
Falcon I has been purchased by the Malaysian Space Agency, raising the 
question of why a foreign government's space agency is more supportive 
of a U.S. launch company than our own.
    The first flight of Falcon V, our medium lift vehicle, has also 
been purchased, in this case by a U.S. commercial customer.
    The analysis below compares Falcon I with Pegasus, the primary NASA 
launch vehicle for small payloads.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    As can be seen from the above table, at the low end of small 
satellites, it would make more financial sense to buy three complete 
satellites, launch them on Falcon I and have two fail completely, than 
buy one launch of Pegasus ($34.8M versus $35M). The numbers become even 
more compelling if you consider that SpaceX offers discounts for 
purchases of three or more flights.
    However, even considering the high end for small satellites, it 
makes sense to choose Falcon I. Using the commercial launch insurance 
market as a gauge for probable risk, the premium for a first launch is 
approximately 30 percent, obviously mostly for replacement of the 
satellite. Adding 30 percent to the maximum mission cost of $56.6M for 
launch on Falcon I, we obtain an amount of $73.6M, which is still 
significantly less than the $80M mission cost for launch on Pegasus.
    Note, in this analysis I have assigned a 100 percent success 
probability to Pegasus. In actual fact, the failure rate for Pegasus 
historically has been 10 percent, which means roughly $3.5M to $8M must 
be added as risk premium to that price for launch. Moreover, the above 
analysis considers only the first few launches. A net present value of 
cost savings should be obtained by discounted back over the entire 
launch manifest, which would include dozens of launches. The value 
equation is therefore overwhelmingly in favor of a new, low cost 
rocket.
    Seen in this light, the Pentagon purchase of first flight on Falcon 
I is not irrational or based on an appetite for more risk (even if it 
should turn out that our first launch fails). The same is true of the 
commercial customer that has bought the first launch of Falcon V. While 
there may be other strategic reasons for these actions, they can also 
be viewed simply as sound financial judgment.

                              Appendix 2:

                              ----------                              


                   Additional Material for the Record

                      Statement of Michael C. Gass

                            Michael C. Gass
      Vice President, Space Transportation, Space Systems Company
                      Lockheed Martin Corporation

    Mr. Chairman, Thank you for the opportunity to provide a statement 
for the Subcommittee hearing record on NASA-DOD cooperation. The 
subject of cooperation between the Department of Defense and NASA is 
both timely and delicate. It is timely because we as a nation are about 
to embark on a new mission of space exploration. All of our skills and 
resources must be brought to bear if this mission is to realize its 
ambitious goals. NASA-DOD cooperation is a delicate subject because it 
evokes institutional and philosophical biases that have in the past 
gotten in the way of mission objectives.
    Lockheed Martin has, for many years, worked with each of these fine 
organizations. In partnership with NASA we have built spacecraft and 
systems that have surveyed the surface of Venus, monitored the Earth's 
environment, landed on Mars, photographed storms on Jupiter, analyzed 
the rings of Saturn and sampled the dust of a distant comet.
    With DOD, we have built the space-borne eyes and ears of our 
military forces, from surveillance to communications to weather 
analysis and more. For both institutions, we have provided the boost 
vehicles that take these spacecraft to orbit and beyond.
    Our experience with each organization has been characterized by 
mutual respect and a shared sense of accomplishment. We have seen over 
the years the thing that they and we have most in common: a dedication 
to mission success.
    If the Space Exploration initiative is to be successful, NASA and 
DOD must work together. Lockheed Martin supports productive cooperation 
between them, focused on areas of common interest and respectful of 
their differing charters.
    In the past, the differences between the two--in both size and 
mission--has caused some justifiable caution on the part of NASA. This 
caution is shared no doubt by Members and staff of this subcommittee. 
Nonetheless, there are areas in which these differences can be used to 
NASA's advantage, and space launch is one of those areas.
    Currently, access to space for NASA missions involves four distinct 
sets of infrastructure: STS, Delta II, Delta IV, and Atlas V. There are 
good, historical reasons that this is so, but it is an expensive and 
inefficient way to operate.
    The latter two boosters, the Delta IV and Atlas V, are new systems 
developed by DOD under the EELV program. Together, they constitute a 
robust, modular and reliable foundation for virtually all future space 
launch requirements, be they scientific, military or commercial. STS 
and Delta II have been workhorse systems for NASA. If it is to both 
afford and execute the critical missions of the Space Exploration 
initiative, NASA must rationalize and streamline its space launch 
infrastructure. This should be done in accordance with a strict 
timetable in order to achieve the necessary savings and meet the 
necessary milestones.
    Thank you for the opportunity to respond to the four areas that 
will be addressed in your hearing today.

1.  To what extent can NASA and the DOD benefit from greater 
cooperation in the development and purchase of launch vehicles?

    NASA and DOD will obtain both cost and reliability benefits from 
greater cooperation in space launch vehicles. Launch vehicle cost and 
reliability are significantly driven by the simplicity of the system 
design and launch rate. The Atlas V program has made significant 
reductions in system complexity and labor by the evolutionary (spiral) 
development of the Nation's launch vehicle fleet. One of the main 
objectives of the EELV acquisition was to reduce launch costs by at 
least 25 percent. This has been accomplished with a combination of 
reduced infrastructure and improved designs. Infrastructure was reduced 
by going from nine heritage (three Delta, three Atlas and three Titan 
IV) launch pads to four pads (one Atlas and Delta pad per coast). On 
the vehicle side, the Atlas program has reduced the number of 
propulsion elements from nine on the Atlas HAS to only two on the Atlas 
V 401 configuration improving both reliability and increasing 
performance. The Atlas launch operations crew size and processing time 
have been reduced by 50 percent through increased use of automation, 
while performing 70 consecutive successful launches. If NASA were to 
launch science and exploration missions on EELV exclusively, the nearly 
doubled launch rates would minimize the need for USG-funded, fixed 
infrastructure, while maintaining two viable systems to provide assured 
access to space. This will create incentives for innovation while 
maintaining the benefits of competition.
    Reliability Enhancements--As part of the Atlas V evolution, we have 
significantly improved reliability by both reducing parts and adding 
fault tolerance. Withy support from NASA, we have performed an initial 
Atlas V assessment to identify high value reliability launch vehicle 
improvements. The NASA study included single-point failure 
identification, fault avoidance and fault tolerance, design enhancement 
and ultimately a recommendation of the top 5-10 investments in 
reliability improvement. The key elements identified were the upper 
stage and booster engine single-point failure elimination, additional 
robustness of the solid rocket boosters (SRBs) and avionics upgrades. 
These NASA reliability improvements are currently unfunded. The AF 
Assured Access to Space (AATS) program is initially funding RL-10 upper 
stage engine producibility enhancements and critical component 
engineering which inherently improves reliability. Cooperative NASA and 
DOD funding of these high value reliability improvements would directly 
benefit all launch vehicle customers.
    The recommended NASA approach for human rating combines highly 
reliable EELVs with intact crew abort systems enabled by a robust 
launch vehicle health management (LVHM) system. The LVHM system 
provides the critical sensing and indications required to initiate a 
crew system abort. This same LVHM sensing system would also provide a 
valuable Mission Assurance tool for DOD Missions by providing in flight 
measurements of critical systems, valuable for post flight mission 
assessments and feedback for future flights. This valuable activity is 
also currently unfunded.
    Performance Enhancements--An evolutionary launch vehicle strategy 
allows incremental and affordable performance improvements, with 
demonstrated performance at each step, which benefits both NASA and 
DOD. This enables incremental funding decisions based upon the ultimate 
architecture needs. This strategy maintains common launch vehicle 
elements to maximize production rate benefits. It minimizes changes to 
the launch infrastructure (pads, vehicle integration facilities). This 
enables common launch infrastructure for both current and future NASA 
and DOD missions.
    Increased launch rate provides both reduced cost and increased 
reliability. Common elements in the EELV configurations, with 
appropriate production and launch rate, maintain proficiency of the 
production and launch crews, resulting in increased reliability. The 
NASA human-rating approach will further improve reliability. Both DOD 
and NASA mutually benefit from launch vehicle reliability improvements.
    In summary, we believe that there ought to be one government team 
to define mission assurance requirements. This would eliminate wasteful 
redundancy, use common processes for acquisition and contract 
oversight, share the benefits of complementary hardware systems and 
reduce the cost of maintaining infrastructure.

2.  What steps NASA is taking to collaborate with the DOD in order to 
realize those benefits?

    There are several positive examples of NASA/DOD cooperation:

    First is the USG Partnership Council. This Council consists of the 
senior leadership from NASA/DOD/AF/NRO/DARPA and meets quarterly to 
continue to foster interagency cooperation in technology and program 
support.
    Second, NASA is working with DOD to adapt the EELV program for the 
Crew Exploration Vehicle and other space launch requirements. NASA has 
initiated studies for EELV reliability, human rating and crew escape 
systems technology that will benefit all USG agency users.
    Third, the NASA Prometheus initiative builds on the Navy's vast 
experience in nuclear power development. By doing so, it will 
accelerate the availability of advanced space power and propulsion 
technologies for civil space applications.
    Finally, the National Aerospace Initiative has been focused on the 
development of third-generation technologies in support of hypersonics, 
space transportation, and in-space technologies. A U.S. government 
joint project office (staffed by experts from NASA, DOD and NRO) has 
been working with industry partners for the past several years on 
focused technology demonstrations in these disciplines.
    Government working groups should give priority to the establishment 
of common launch vehicle requirements. This process would benefit both 
NASA and DOD missions in the future.

3.  What areas of launch vehicle development are exclusively the role 
and responsibility of one agency or the other?

    Current U.S. National Space Transportation policy establishes NASA 
as ``lead agency for technology development and demonstration for next 
generation reusable space transportation systems.'' DOD's role in the 
current Policy is focused on expendable launch systems. The practical 
effect of this language has been to limit unnecessarily DOD's 
involvement in decisions pertaining to next generation reusable 
systems. To meet emerging national security requirements for space 
control and force projection, DOD should be able to fully explore next 
generation reusable system solutions. Conversely, this delineation has 
precluded NASA innovation in exploiting the DOD investment in 
expendable launch vehicles. As mentioned earlier, the current and 
foreseeable launch rates do not support the development of fully 
reusable launch systems.
    The National Space Transportation Policy (currently in revision) 
should clearly state that the Department of Defense/U.S. Air Force has 
the flexibility to develop and utilize more responsive launch vehicle 
capabilities as required to support its mission requirements. The 
updated policy should promote full cooperation between NASA and DOD on 
both next generation reusable and expendable space transportation 
systems and clearly articulate the desirability of comprehensive 
collaboration.

4.  To what extent can NASA and the DOD encourage the growth of the 
U.S. domestic launch market, including emerging U.S. launch vehicle 
providers who provide unique capabilities?

    Due to the collapse of the commercial launch market and relatively 
flat demand for government launches, the current domestic launch 
vehicle providers are at a greater than 50 percent over capacity. This 
has driven prices to below cost, an unsustainable condition.
    By concentrating both NASA and DOD space launch demand around the 
two EELV vehicles, the government can help stabilize and strengthen the 
industrial base on which space access depends.
    As regards emerging U.S. launch vehicle providers, the newly-
identified need for ``responsive'' launch capabilities may provide an 
opportunity. DARPA, for example, is developing the Force Application 
Launched from CONUS (FALCON). This and related technology programs, 
driven by military utility, offer the best prospect for these 
entrepreneurial business. They would be unwise to project a commercial 
demand that covered their cost.
    Many, including Lockheed Martin, have developed small launch 
vehicles only to find that the market is not adequate to support the 
cost. Selling at below cost to establish a market has not proven to be 
a successful long-term strategy. Emerging launch vehicle providers face 
the historic challenge to make a viable business case in an unforgiving 
environment.

Summary

    There is an old adage among pilots that says, ``Plan your flight 
and then fly your plan.'' With this subcommittee's oversight and 
support, NASA is being reinvigorated and refocused. If it is to achieve 
its new goals, however, NASA needs to stick to a well-thought-out plan. 
A key enabler is assured access to space. This plan must include a 
reduction in the complexity, cost and management burden of its current 
launch infrastructure. In cooperation with DOD, NASA can take advantage 
of an adaptive, responsive range of boosters to meet the needs of its 
exciting future.

                     Statement of Northrop Grumman

              NASA-DOD Cooperation in Space Transportation

    Mr. Chairman and Members of the Committee, thank you for convening 
a hearing on March 18, 2004, on the important topic of cooperation 
between NASA and the Department of Defense on space transportation. 
Northrop Grumman believes this is an important issue, and we would like 
to take this opportunity to provide input to the process.
    Developing safer, more reliable and cost-effective space 
transportation systems is the key to all future U.S. activities in 
space. New systems will mean more robust capabilities to defend America 
and improve our national security. New launch capabilities are a 
prerequisite to turn our dreams of exploring the Moon, Mars and beyond 
into reality, because without new systems we will never achieve those 
dreams. Such systems would support viable opportunities for industry in 
space and enable us to explore concepts such as generating energy from 
orbit. Science missions would also benefit since launch costs--often 
half the cost of a science mission--would be less significant.
    The Defense Department needs operationally responsive spacelift--
vehicles that can be launched on a few hours' notice, from a variety of 
locations and with adaptable launch facilities. The current systems, 
although technologically impressive, are slow and cumbersome, and they 
cost so much to operate that they preclude our nation from taking the 
best advantage of innovative thinking on national security from space.
    NASA needs a system that augments safety while decreasing costs, 
especially if it is to achieve sufficient cost savings to support its 
bold new mission to explore the Moon, Mars and beyond. As Robert 
Heinlein once said, ``Reach Earth orbit and you're halfway to anywhere 
in the solar system.''
    These two agencies may seem to be driven by different requirements, 
yet they are not mutually exclusive. When there are so many pressing 
concerns facing our nation, we don't have the luxury of developing a 
vehicle that fills only a single need. A next-generation launch system 
can be developed that will meet the needs of both DOD and NASA.
    Later this year the White House is expected to issue a new national 
space transportation policy. Preliminary drafts indicate that the 
policy will eliminate the current bifurcation that limits NASA to 
studying the development of reusable vehicles and DOD to studying the 
development of expendable vehicles. This is a positive step. There are 
great synergies between the needs of NASA and DOD, and although the 
Nation needs to be careful not to develop a vehicle that attempts to be 
all things to all customers, the two agencies should work together to 
develop a vehicle architecture that can serve both of their needs.
    There are three key aspects to ensure that the United States stays 
at the forefront of space launch and develops the systems that will 
support our future national security and exploration needs:

         The Government must make a long-term commitment to sustained 
        investments in space launch technologies

         A spiral development approach that makes gradual improvements 
        is essential to continued success

         NASA and DOD should reach out beyond the traditional base of 
        launch systems providers to seek out new technologies and 
        approaches

    NASA's recent investments in the Space Launch Initiative and Next 
Generation Launch Technology programs have led to tremendous strides in 
the development of numerous launch vehicle enabling technologies like 
Composite Cryogenic Tanks and Integrated Vehicle Health Management 
Systems. Similarly, DOD's FALCON program and future investments in 
Operationally Responsive Space will continue to expand our knowledge 
and capabilities. Taken together, these NASA and DOD programs are 
critical investments in U.S. launch competitiveness.
    These programs are an indication that our leaders are beginning to 
understand that space launch is not a near-term technological hurdle, 
but an enduring national necessity. The United States must invest in 
these systems and technologies on a regular and continuous basis, 
allowing for steady progress and continual improvements to keep this 
nation at the forefront. Our national security and our scientific and 
technological industry base require such a sustained commitment.
    Using the stepping-stone, spiral development approach to space 
launch--moving from expendable launch vehicles, to hybrid systems that 
are partially reusable, and finally to fully reusable systems--is a 
viable way to ensure steady improvements that will keep the United 
States at the forefront of space access. It is time to move beyond 30- 
and 40-year old technologies and build the launch systems that can 
sustain space development safely and affordably, and in the long run 
reusable systems are the clear choice. To get there does not require a 
revolution, but regular technological improvements that build upon each 
other. In the same way we evolved from the Model T Ford to the safer, 
less expensive and more reliable automobiles of today, our nation 
should make the investments in launch technologies that will move us 
from expendable vehicles to the reliable workhorses of the future.
    A number of companies have innovative solutions to U.S. space 
launch requirements, and both DOD and NASA should look beyond the 
established space launch providers. As recent work on FALCON, NASA's 
Alternate Access to Station, and the National Aerospace Initiative 
demonstrate, many of the most inventive solutions can come from 
companies that take a fresh approach and have not been immersed in 
traditional technologies and methods of operation from the past 30 
years. Northrop Grumman is certain we are one of these companies that 
can bring critical breakthroughs and innovative thinking to our 
nation's space launch challenges, and we hope that space leaders 
recognize the importance of competition and pioneering contributions 
from those who are not wedded to the status quo.
    Cooperation between NASA and DOD is central to successful 
advancement in meeting this nation's space launch requirements now and 
into the future. We need a government-wide assessment of requirements 
that establishes clear objectives and acknowledges the technical 
tradeoffs--that would provide the necessary direction to build a next-
generation system that meets the Nation's requirements.
    Northrop Grumman believes U.S. Government and industry are on the 
path to progress. Together we have made great technological strides in 
recent years, and with a sustained commitment and step-by-step spiral 
development we can achieve lasting success. Congress can provide the 
multi-year funding to continually invest in space launch technologies 
and oversee an obligation to an open, competitive process. With this 
support from Congress, industry--with the firm commitment of Northrop 
Grumman--will deliver the launch systems that will maintain U.S. 
leadership in space far into the future.
    Thank you for accepting Northrop Grumman's view on this very 
important topic.

                  Prepared Statement of Wilbur Trafton
                             Wilbur Trafton
                 VP and GM, Expendable Launch Systems;
                   President, Boeing Launch Services

    Mr. Chairman, I am pleased to offer you Boeing's Launch Services 
perspective on NASA-DOD cooperation in space transportation. While this 
is an area with a complex history, what is not often appreciated is how 
often NASA and DOD's space activities have resulted in synergistic 
benefits to each organization. This trend continues to this day.
    First, however, I would like to point out two areas of cooperation 
that many may not be well recognized. Most specifically, in the mid-
1980's, NASA's space station program, provided an excellent training 
ground for young space professionals who had entered the field during a 
lull in the industry when the Shuttle development was complete, the 
existing expendable launch systems were being phased out, and the DOD 
did not have a major new development program underway. These young 
professional engineers, scientists and factory workers, under the 
guidance of their Apollo era superiors, designed and built today's 
International Space Station--a technological marvel which, despite 
budget and programmatic issues over the years, continues to function 
nearly flawlessly six years after it began its on-orbit assembly in 
1998.
    In the mid-90's, as the U.S. Air Force sought to reduce the cost of 
access, the Boeing Company employed many of the same professionals, 
benefiting from their ISS experience, in leading the effort to design 
and develop the Delta IV--our entry into the Evolved Expendable Launch 
Vehicle (EELV) program. To date, the Delta IV has flown flawlessly 
three times--a tribute to these professionals and the lessons they 
learned while working on space station.
    Now that the EELV development is complete, the U.S. has two new 
fleets of highly capable, modern launch vehicles which can be used both 
to support the original DOD mission model as well as jump start the new 
NASA Space Exploration Vision. While NASA is currently engaged in trade 
studies and analysis of the optimal space transportation solution for 
crewed missions to Mars and the Moon, a decade or more of preparatory, 
early missions can be supported by the existing Delta IV fleet and 
modifications to it.
    Relatively straightforward and affordable upgrades to the Delta IV 
Heavy launch vehicle could increase our capabilities to Low Earth Orbit 
(LEO) from our current 23 metric tons (mt) up to 45 mt. We would 
encourage the USG to consider existing vehicle upgrades as an early 
element of spiral development to enable near-term successes for space 
exploration missions. This is similar to the process used in the Apollo 
era which grew the early Redstone and Jupiter rockets into the Saturn I 
and Saturn IB--which became the stepping stones which led to the Saturn 
V.
    This spiral development approach could focus on, for example, a 
larger upper stage engine that would enhance Delta IV's performance to 
support exploration missions and could also be used to support a new 
super heavy-lift capability--whether an EELV-Derived, Shuttle-Derived 
or a Clean Sheet concept. By developing such an engine early on, the 
cost and schedule risk of developing the ultimate exploration launch 
system could be reduced and, a new in-space propulsion capability (a 
trans-lunar or trans-Mars stage) could also be developed. Other 
technologies that could be considered include upgrades to the existing 
Delta IV RS-68 engine (the only new large U.S. booster engine in 
decades), densified cryogenic propellants, and aluminum lithium 
propellant tanks.
    In the course of these spiral developments of the existing EELV 
fleets to support NASA's Space Exploration Vision, the Nation's defense 
will directly benefit from these upgraded performance capabilities 
which will be available to meet future military space requirements. And 
future DOD programs will leverage the engineering skill base that is 
sustained and enhanced in support of NASA's development efforts. In 
this way, synergistic cooperation between NASA and DOD will continue to 
benefit the respective visions of each organization as well as that of 
our space dependent society.
    I thank you for the opportunity to submit this testimony.

</pre></body></html>
